<html>
<title> - NOMINATIONS TO THE EXECUTIVE OFFICE OF THE PRESIDENT, DEPARTMENT OF TRANSPORTATION, DEPARTMENT OF COMMERCE, AND THE MARINE MAMMAL COMMISSION</title>
<body><pre>[Senate Hearing 112-149]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-149

                           NOMINATIONS TO THE
                   EXECUTIVE OFFICE OF THE PRESIDENT,
                     DEPARTMENT OF TRANSPORTATION,
                      DEPARTMENT OF COMMERCE, AND
                      THE MARINE MAMMAL COMMISSION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 10, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
71-256 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
FRANK R. LAUTENBERG, New Jersey      JOHN THUNE, South Dakota
MARK PRYOR, Arkansas                 ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             ROY BLUNT, Missouri
TOM UDALL, New Mexico                JOHN BOOZMAN, Arkansas
MARK WARNER, Virginia                PATRICK J. TOOMEY, Pennsylvania
MARK BEGICH, Alaska                  MARCO RUBIO, Florida
                                     KELLY AYOTTE, New Hampshire
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 10, 2011...................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Klobuchar...................................     1
Statement of Senator Hutchison...................................     4
Statement of Senator Thune.......................................     5

                               Witnesses

Hon. Rob Portman, U.S. Senator from Ohio.........................     6
Ann D. Begeman, Member-Designate, Surface Transportation Board, 
  U.S. Department of Transportation..............................     8
    Prepared statement...........................................     9
    Biographical information.....................................    10
Philip E. Coyle III, Associate Director-Designate, Office of 
  Science and Technology Policy, Executive Office of the 
  President......................................................    14
    Prepared statement...........................................    16
    Biographical information.....................................    17
Dr. Kathryn D. Sullivan, Assistant Secretary-Designate of 
  Commerce for Observation and Prediction, National Oceanic and 
  Atmospheric Administration, U.S. Department of Commerce........    22
    Prepared statement...........................................    24
    Biographical information.....................................    25
Dr. Frances M.D. Gulland, Member-Designate, Marine Mammal 
  Commission.....................................................    35
    Prepared statement...........................................    37
    Biographical information.....................................    38

                                Appendix

Response to written questions submitted to Ann D. Begeman by:
    Hon. Amy Klobuchar...........................................    75
Response to written questions submitted to Dr. Kathryn D. 
  Sullivan by:
    Hon. Mark Begich.............................................    75
    Hon. Tom Udall...............................................    76
Response to written questions submitted to Dr. Frances M.D. 
  Gulland by:
    Hon. John D. Rockefeller IV..................................    77
    Hon. Tom Udall...............................................    79

 
                           NOMINATIONS TO THE
                   EXECUTIVE OFFICE OF THE PRESIDENT,
                     DEPARTMENT OF TRANSPORTATION,
                      DEPARTMENT OF COMMERCE, AND
                      THE MARINE MAMMAL COMMISSION

                              ----------                              


                        THURSDAY, MARCH 10, 2011

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. This hearing is opened.
    This is not the regular order, but Senator Klobuchar has to 
go to a hearing and wants to make a statement about something 
which could be a game-changer.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. No, you can go first.
    The Chairman. No.
    Senator Klobuchar. And I know you have a guest. Senator 
Portman's here. That's fine. I just need to leave in 10, 15 
minutes.
    The Chairman. I know, but you need to speak.
    Senator Klobuchar. Of course.
    The Chairman. Senator Portman told me that you have to 
speak.
    Senator Klobuchar. Oh, OK. Well, very good.
    Well, thank you very much, Mr. Chairman, for holding this 
hearing. And I join you in welcoming the four nominees to the 
Committee. We do consider numerous nominees, but it's not too 
often that we welcome one of our own before us. We did so when 
Debbie Hersman was nominated to the Chair of the NTSB and when 
David Strickland was nominated to be the NHTSA Administrator.
    Now we have Ann Begeman, who is nominated to be a Member of 
the Surface Transportation Board.
    As everyone knows well, she has been an important member of 
the Commerce Committee staff for over a decade, and we welcome 
her nomination. She helped craft the Surface Transportation 
Board Reauthorization Act, which would address long-time 
concerns by shippers about predatory pricing and practices, 
increase competition, and establish a level playing field.
    And the reason I wanted to speak, Mr. Chairman, was I 
wanted to emphasize, since I won't be here for her 
questioning--I'll be at the Judiciary Committee--how important 
that bill is and the work that must continue for our captive 
shippers. Whenever I say that word at home, my 15-year-old 
daughter asks me if I'm talking about pirates. But I want to 
make clear that we still have a number of businesses in my 
state and farmers who are very concerned about what's 
happening.
    When I first came to the Senate, they would tell me that 
the STB would simply not listen to their concerns. Well, under 
new leadership, the STB is now listening to our shippers, 
examining anti-competitive issues, and considering next steps 
to ensure that America's freight rail customers receive fair 
rates and good service.
    Given Ms. Begeman's experience, once confirmed, I know 
she'll be ready to consider these very important issues.
    I also would like to mention Dr. Kathryn Sullivan, who's 
nominated to be the Assistant Secretary for Environmental 
Observation and Prediction of NOAA at the U.S. Department of 
Commerce. NOAA's North Central River Forecast Center is vital 
to helping communities along the Red River in Minnesota and 
North Dakota and other rivers in the upper Midwest prepare for 
flooding, with reports of water levels and rates of flow. We're 
very concerned about all of the snow we've had and what may 
happen in the next months with the Red River, and having these 
flood predictions is incredibly important for us. I literally 
know them every other day. I check in to see what it is. And 
that's because of the good work of NOAA.
    So, I want to congratulate all the nominees.
    And, thank you, Chairman Rockefeller.
    The Chairman. Thank you, Senator Klobuchar.
    I'll proceed now to my opening statement, followed by 
Senator Hutchison, and I think Senator Thune wants to make some 
remarks.
    We have four nominations today. And I apologize to Senator 
Portman for holding him up here.
    [Laughter.]
    The Chairman. I mean, her statement was a game-changer.
    We start with the nomination of Ms. Begeman to be a Member 
of the Surface Transportation Board. As you all know, Ms. 
Begeman is the Committee's Minority Staff Director. Beloved by 
all, respected by all, she's a virtual institution on this 
committee, and in the Senate. She's also a consummate 
professional, ever ready to come together to find solutions to 
complex issues, and an expert on surface transportation issues.
    I know Ms. Begeman will be able to dive right into the 
complicated issues that come before the STB. It is a very 
controversial type situation there, as Senator Klobuchar 
indicated. These are very important issues, both for the 
captive shippers and for the entire rail industry.
    I have to say that I'm very sad to lose her intellect. All 
of us on the Democratic side are, as well as on the Republican 
side. She has great expertise. She has total dedication to this 
committee. But on the other hand, I'm pleased that she's headed 
into a new position where the nation can benefit from her 
tremendous talent. So, she's a terrific choice. Otherwise, I 
don't lean one way or another.
    [Laughter.]
    The Chairman. Our next nominee, Mr. Philip Coyle, has been 
here before. He's an expert on national security policy, 
military research and development of military space systems. 
The fact that this committee is again considering Mr. Coyle's 
nomination to be Associate Director for National Security and 
International Affairs at the Office of Science and Technology 
Policy, OSTP, is a testament to the need for such an expert in 
this post.
    I think most of you know that we reported Mr. Coyle in the 
last Congress. When there wasn't floor time for discussion on 
the matter, that became impossible, and then we couldn't move 
him by unanimous consent, so President Obama recess-appointed 
him. That's not the wrong thing to do if you really need 
somebody.
    For the past 8 months Mr. Coyle has served as an advisor to 
the administration on issues of critical national security 
importance, such as cybersecurity, emergency communications, 
and international science diplomacy.
    We welcome you, Mr. Coyle. We look forward to hearing more 
about your work.
    Dr. Kathryn Sullivan has been nominated to be Assistant 
Secretary of Commerce for Observation and Prediction. This is a 
new position created by Administrator Lubchenco. If confirmed, 
Dr. Sullivan will be responsible for driving policy and program 
initiatives for weather and water, integrative mapping, and 
observation systems.
    Dr. Sullivan is no stranger to Presidential appointments. 
Her current nomination marks the fifth time she has been called 
to public service by five different administrations. She is 
also a woman of ``firsts.'' She was the first American woman to 
walk in space.
    [Laughter.]
    The Chairman. It doesn't make any difference if she's Afro-
American or not.
    [Laughter.]
    The Chairman. And you were all just kind of tweeting in the 
background.
    [Laughter.]
    The Chairman. It's very embarrassing to those of us, up 
here on the dais.
    [Laughter.]
    The Chairman. She was one of the first six women selected 
to join the NASA astronauts corps in 1978. From 1992 to 1996, 
she served as Chief Scientist to NOAA. Her leadership skills 
and extensive scientific knowledge will help provide needed 
direction to NOAA's programs.
    Dr. Sullivan, we thank you very much for being willing to 
do this and for your continued potential service to this 
Nation.
    Our final nominee, Dr. Frances Gulland, has demonstrated a 
strong commitment to marine mammal conservation. She spent many 
years providing veterinary care and rehabilitation to stranded 
marine mammals, and is no stranger to the good work of the 
Marine Mammal Commission, MMC. For the last decade, Dr. Gulland 
has served on the MMC's Committee of Scientific Advisors. She 
pushed to make sure science serves as the guide and bases for 
its policies.
    She is just the kind of person we need to bridge the gap 
between research and the hard realities of management, and 
would be a welcome addition to the Marine Mammal Commission.
    Dr. Gulland, we congratulate you on your nomination, and 
I'm very interested in hearing your ideas, as well as those of 
the other nominees.
    And I now turn to Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman.
    Well, I feel like I don't need to say anything about Ann 
Begeman. But I am very pleased to be able to introduce her as 
the nominee for membership on the Surface Transportation Board.
    I think that the previous two statements from the majority 
side of the aisle show that Ann Begeman is effective. She is in 
the category of nominee that no introduction to this committee 
is required because we have worked with her for so long.
    Ann has served in the Senate for over 21 years as a 
Professional Staff Member. She currently is the Staff Director 
of our side of the Committee. She previously served the 
Committee as Deputy Staff Director and Professional Staff 
Member on surface transportation issues for many years. Between 
her tours of service on the Committee, she also served as 
Legislative Director and Acting Chief of Staff for Senator John 
McCain. She has a well-earned reputation as an expert in 
transportation issues and is one of the go-to people in the 
Senate for anything related to surface transportation.
    I have relied on Ann's advice and counsel for nearly 18 
years since my earliest days in the Senate as a member of this 
committee. When you do such good work, that work is recognized 
and appreciated.
    The recently passed FAA Reauthorization Bill stands as a 
perfect example of Ann's steadfastness and perseverance. In the 
last year alone, this committee has had victories large and 
small, ranging from the America COMPETES Act, the NASA 
Reauthorization Act, to the first movement in many years on 
Surface Transportation Board reauthorization. I think that 
speaks well of both of our staffs, Mr. Chairman, and how well 
they have worked together to move our committee, really, into 
the forefront of committees that have been active and 
effective, and sent bills to the floor that passed the Senate.
    In each of these areas and countless others, Ann has been a 
strong leader and a creative force for the public's interest. 
We don't often pause to recognize that type of humble service, 
but the country has been the fortunate beneficiary of people 
like Ann Begeman. And I know that we will benefit from her 
service in her new role.
    If you ask anyone who has worked with Ann Begeman how best 
to describe her, they will inevitably say that she is focused 
on detail and is an excellent manager. She will be missed. I 
will miss her. The rest of the Committee will. But I know that 
her knowledge, her experience, and her unwavering attention to 
detail will soon be focused on complex surface transportation 
issues as a Member of the STB. I have no doubt that Ann will 
make an immediate impact on the crucial rail issues facing our 
Nation.
    I also want to welcome Dr. Kathryn Sullivan, who has been 
nominated to serve as Assistant Secretary. As the Chairman has 
said, NOAA is one of our nation's premier scientific agencies. 
It provides services such as hurricane forecasting that are 
essential to the protection of life and property. When 
Hurricane Ike hit the Texas coast in 2008, I saw first-hand 
NOAA's advanced warning system work. They pinpointed where it 
was going and when it was going to hit, and allowed the 
protection of so much of the property that was involved in that 
hurricane. It's such an important asset for our country.
    Dr. Sullivan has a long career of public service that 
includes serving as the Chief Scientist at NOAA, a Naval 
Reservist, and a NASA astronaut. She is the first American 
woman to walk in space. And I am very pleased with her 
nomination.
    In her current role at Ohio State University, she works to 
improve STEM education for our nation's youth, and it was this 
committee that passed the America COMPETES Act, which 
encourages STEM education and authorizes it. So, I'm looking 
forward to hearing from her.
    On the Marine Mammal Commission nomination, Dr. Frances 
Gulland, I look forward to her priorities. This is a Commission 
that provides the oversight of marine mammal conservation 
policies carried out by the federal agencies.
    And I would like to welcome Mr. Philip Coyle, who is 
currently serving as a recess appointee in the position for 
which he has been nominated, Associate Director of National 
Security and International Affairs at OSTP. Mr. Coyle has a 
long record of public service, and I look forward to hearing 
from him.
    Mr. Chairman, I will just end by saying that I hope very 
much that we will be able to mark up and go to the floor, and 
get these nominees acted on so that they can carry on, 
hopefully, in their respective positions. I know Ann was 
nominated last December and I would certainly like to see her 
move on out, and I think we know her. And I think the others 
have experience and we would be able to make decisions on them 
very quickly, I hope.
    Thank you.
    The Chairman. I join her.
    Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman.
    And I am pleased to join this morning's nomination hearing 
and want to welcome all of the nominees to the Committee. And 
at the risk of echoing what my colleagues have said--we're not 
ignoring the other members that are here for nomination today. 
But I am here particularly, too, because Ann Begeman is 
appearing before this committee to serve as one of the three 
members of the Surface Transportation Board.
    Many of us have had the opportunity not just to work with 
Ann over the years as a Professional Staff Member on this 
committee and her years of work, on behalf of various 
colleagues. But I've also had the pleasure of knowing her due 
to our mutual South Dakota connection. Ann Begeman is a small-
town South Dakota girl who has brought her South Dakota work 
ethic and professionalism to Washington, D.C., and to the work 
of the U.S. Senate. Ann has, as has already been mentioned by 
you, Mr. Chairman, by Senator Hutchison, an extraordinary 
record of accomplishment over a long period of time. She is 
someone who I think has proven and demonstrated the ability to 
immerse herself into the technical details of the complex 
legislation that we deal with in front of this committee but, 
at the same time, still able to see the public policy 
implications of what we do from the 30,000 foot level. And 
that's a unique combination of skills, in the realm in which we 
deal on a daily basis. And I can't think of anybody that is 
more qualified or would be better equipped to serve as a Member 
of the Surface Transportation Board. And I say that as a former 
State Rail Director in South Dakota and someone who has worked 
not only on this committee, but in the in House of 
Representatives on the relevant committees that have 
jurisdiction over the nation's rail carriers.
    Ann is incredibly capable and talented and, when it comes 
to the rate and service issues that are going to come before 
the Surface Transportation Board, is going to be extremely 
well-equipped to deal with those issues. And I have a high 
level of confidence that the Surface Transportation Board is 
going to be extraordinarily well-served by her presence there.
    I will miss, I have to say, looking behind me to get 
answers to questions, as we often do look to her for her 
expertise. But I know she is looking forward to the service 
that she will provide the country at the STB, as are we. And 
so, I am delighted to be able to be here today to support a 
fellow South Dakotan and someone who comes from a small town 
called Humboldt, South Dakota, and has been a very humble 
public servant in her time here in Washington.
    And I hope that we can speed these nominations, as Senator 
Hutchison said, along through the Committee process and get 
them to the floor so we can get folks into the positions where 
they can begin making a difference for us.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Thune.
    And Senator Portman, I'm glad to say that we welcome you, 
as we did at the beginning. And you had a little chance to 
relax a little bit and think over your testimony, and we look 
forward to hearing it.

                STATEMENT OF HON. ROB PORTMAN, 
                     U.S. SENATOR FROM OHIO

    Senator Portman. Thank you, Mr. Chairman. It was a pleasure 
to get to hear about some of the other nominees as well.
    But, as you know, I'm here, Chairman Rockefeller and 
Ranking Member Hutchison, and Senator Thune, to talk about an 
Ohioan. And I'm honored to have been asked.
    From the Wright Brothers Bicycle Shop in Dayton, Ohio, to 
John Glenn's first orbit, your former colleague, Neil 
Armstrong's first step on the moon, Ohio has been at the 
forefront and has had a rich history in flight and a tradition 
in flight, science and aerospace. So, today it's my honor to 
introduce a fellow Ohioan who's continuing that tradition--
excelling as an oceanographer, an astronaut, an educator, and a 
lot more.
    Dr. Sullivan has a very impressive record of service to her 
country. She's a military commander, serving as a Captain in 
the Naval Reserves since 1988. She's a NASA astronaut and a 
veteran of three shuttle missions, including one where, as has 
been noted this morning, she was indeed the first woman to walk 
in space. She was not, however, the first Ohioan. As she told 
me a minute ago, Neil Armstrong walking on the Moon probably 
makes him first among Ohioans walking outside a spacecraft. But 
she is someone we're so proud of. She's a member of the United 
States Astronauts Hall of Fame, a member of the Ohio Women's 
Hall of Fame, the Veterans Hall of Fame. She has given so much 
already. But now she's willing to allow her experience, 
expertise and passion to be used here in Washington, and we're 
proud that she is stepping up to serve.
    For the last few years until last year, I was teaching at 
the John Glenn School of Public Affairs at Ohio State, and on 
their Board, their Advisory Committee, and she is there as 
well. She's actually Director of the Glenn School's Battelle 
Center for Mathematics and Science Education, serving as a 
nexus between good science and good public policy--something 
this committee cares a lot about.
    In 1996, after she served as Chief Scientist at NOAA, Dr. 
Sullivan moved to Ohio to be the CEO of a terrific interactive 
science museum in Columbus called COSI. And she has lived in 
Columbus ever since. And in fact, this morning she has 
confirmed to me that she will continue to be a Buckeye. She's 
going to keep her home in Ohio and do the commute that many of 
us are used to. We're very happy about that as well.
    Now, this museum is where I first met Dr. Sullivan. And I 
saw her interact with three children who happened to be my 
kids. And in doing so, I saw her convey to them her passion for 
science and its application in our daily lives. And I want to 
tell Dr. Sullivan this morning that my daughter Sally, who was 
4 or 5 at the time and is now 16, seems to have an acute 
interest in science for some reason. And I hope she will be 
following up on that interest, and looking to you as she does 
as her role model.
    In an age where partisanship and politics too often cloud 
what we do here in Washington, it is really an honor to welcome 
her. She's got a history of praise and respect from both sides 
of the isle. Mr. Chairman, she has been nominated to positions, 
as I count it, by five presidents already--George Herbert 
Walker Bush, President Reagan, President Clinton twice, 
President George W. Bush, and now, of course, President Obama, 
this time as Assistant Secretary for Environmental Observation 
and Prediction at NOAA.
    Ohio has its rich tradition of leaders who have reached for 
the stars, and as you consider the nomination of Dr. Sullivan, 
I hope you will allow one of Ohio's stars to continue her 
tradition of leading.
    Mr. Chairman, again, I thank you for allowing me to be with 
you today.
    And to members of the Committee, I hope you will welcome 
Dr. Kathryn Sullivan.
    The Chairman. We certainly will, and we thank you very 
much, Senator.
    Senator Portman. Thank you.
    The Chairman. And we apologize for making you wait.
    Senator Portman. Not at all.
    The Chairman. Would the witnesses come forward, please?
    Mr. Coyle is without a chair.
    Ms. Begeman, maybe it would be appropriate to start with 
you.

         STATEMENT OF ANN D. BEGEMAN, MEMBER-DESIGNATE,

                 SURFACE TRANSPORTATION BOARD,

               U.S. DEPARTMENT OF TRANSPORTATION

    Ms. Begeman. Thank you very much.
    I know, Chairman Rockefeller, you usually start by 
recognizing family members of nominees. And although my family 
couldn't be here today, my Senate family is here all around me, 
next to you, and in the audience. And a large number of McCain 
staffers are here proving that, as Senator McCain would say, 
``they would do anything to leave their workstations.''
    [Laughter.]
    Ms. Begeman. But I'm very happy that they're here. They 
have rubber bands to hit me in the head in case I need it. But 
I hope that I don't.
    Before I begin my statement, I just wanted to thank you for 
the kind words that all of the members have said, and just to 
quickly thank a few of the, really, key members in--the three 
that had just been most recently speaking, for giving me such a 
great experience here these last few years. Senator Thune--when 
I first returned to the Committee, he welcomed me to be a part 
of his team. And even today, although I do not staff him, he 
makes me feel like I'm a part of his office and his staff, and 
I greatly appreciate that.
    Chairman Rockefeller, your staff--thank you for your 
leadership in running this committee in a way that promotes 
bipartisanship. You know, for committee staffers, kind of 
juggling the views of 25 members and their staffs can be 
interesting every day. But because of the tone and example that 
you and Senator Hutchison have set with this committee to be 
bipartisan, we've managed to have some great legislative 
accomplishments. And at times we surprise even ourselves, and, 
I think, you, too, with bills such as NASA and COMPETES. And I 
know that that will continue in the future.
    And finally, Senator Hutchison, thank you for everything. 
To get to work with you and your great committee staff, the 
tiger behind you----
    [Laughter.]
    Ms. Begeman.--Brian Hendricks, Joe, Jarrod, just everybody. 
Thank you for everything. I know that this will be probably the 
best professional experience that I ever have, and it's because 
of the people I've gotten to work with, and I want to thank you 
all. Everyone on this side of the aisle as well. Thank you.
    Now, to my statement, which, I will try to be quite brief.
    It's an honor to appear before you as the President's 
nominee to the Surface Transportation Board. Having worked in 
the Senate for over 20 years--12 of those as a proud Commerce 
Committee staffer--many of you know me quite well. But I want 
to briefly touch on my background for the benefit of any of you 
that don't know me as well as others.
    I grew up on a farm in Humboldt, South Dakota and moved to 
Washington after graduating from college to work for my 
hometown senator, Larry Pressler. It's Senator Pressler who 
first gave me the chance to work on transportation issues, and 
I want to mention that a number of my colleagues from Senator 
Pressler's office are here in the audience, and I appreciate 
that they took the time to attend.
    I moved to this committee when Senator Pressler became 
Chairman, and then I continued on when Senator McCain became 
Chairman. Then I covered surface transportation and other 
issues for 9 years, until moving over to Senator McCain's 
personal office to serve as his Legislative Director.
    I returned 2 years ago to the Commerce Committee to once 
again work on surface transportation issues for Senator 
Hutchison and Senator Thune, and soon after, I also took on the 
responsibilities of the Staff Director.
    I wanted to return to the Committee for two reasons. First, 
I very much wanted to re-engage on transportation issues, as I 
feel strongly there's a very appropriate federal role in 
ensuring the viability, safety and security of our nation's 
transportation system. Second, during my previous years on the 
Committee, it operated largely in a bipartisan manner, and I 
hoped that in the post-Presidential election at the time, that 
the Committee might still have at least some level of 
bipartisanship that allowed it to be as effective as I had 
known it to be. As I'd mentioned, it turns out my expectations 
were greatly surpassed, and thank you for that.
    Again, I've covered the Committee's surface transportation 
portfolio for many years, including when the Committee sunset 
the ICC and created the STB, and more recently, last Congress 
when we passed the STB Reauthorization Act, when this committee 
did.
    While I have had a good deal of hands-on experience with 
legislation concerning the Board and its duties, and have had 
the opportunity to meet countless times over the years with its 
stakeholders, I also recognize that I still have a lot to 
learn, and I'm determined to do so.
    If confirmed, I will approach that position fundamentally 
in the same way as I have approached my position as Senate 
staffer. I will work hard to understand the issues. I will 
listen without bias to all stakeholders. I'll strive to be 
fair. I'll never forget that I am accountable to the taxpayers. 
And I will always follow the guidance of the law, and make my 
decisions accordingly.
    Thank you.
    [The prepared statement and biographical information of Ms. 
Begeman follows:]

    Prepared Statement of Ann D. Begeman, Member-Designate, Surface 
        Transportation Board, U.S. Department of Transportation
    Thank you, Chairman Rockefeller, Ranking Member Hutchison, and 
members of the Committee, for holding this hearing to consider the 
nominees before you today. I will try to be brief, and I ask that my 
full statement be included in the record.
    It is an honor to appear before you as the President's nominee to 
the Surface Transportation Board (STB). Having worked in the Senate for 
over 20 years, 12 of those as a proud Commerce Committee staffer, many 
of you know me quite well. But I want to briefly touch on my background 
for the benefit of those who are new to the Committee.
    I grew up on a farm in Humboldt, South Dakota, and moved to 
Washington after graduating from college to work for my hometown 
Senator, Larry Pressler. It is Senator Pressler who first gave me the 
chance to work on transportation issues. I moved to this committee when 
he became Chairman, and I continued on when Senator McCain became 
chairman. I covered surface transportation and other issues for the 
Committee for 9 years until becoming Senator McCain's Legislative 
Director in 2004. I then returned to the Committee 2 years ago to work 
on surface transportation issues for Senators Hutchison and Thune, and 
soon after, also took on the Staff Director duties.
    I returned to the Committee for two reasons: First, I very much 
wanted to reengage on transportation policy issues, as I feel strongly 
that there is a very appropriate federal role in ensuring the 
viability, safety, and security of our nation's transportation system. 
Second, during my previous years on the Committee, it operated largely 
in a bipartisan manner, and I hoped that in the post-Presidential 
election environment at the time, the Committee might still have at 
least some level of the bipartisanship that had allowed it to be so 
effective in the past. As it turns out, my expectations were surpassed.
    As I mentioned, I have covered the Committee's surface 
transportation portfolio for a number of years, including when the 
Committee sunset the Interstate Commerce Commission and established the 
STB and, more recently, when the Committee passed the STB 
Reauthorization Act in the last Congress. While I have had a good deal 
of hands on experience with legislation concerning the Board and its 
duties, and have had the opportunity to meet countless times over the 
years with its stakeholders, I also recognize that I still have much to 
learn. And, I am determined to do so.
    If confirmed to serve as a Member of the STB, I will approach that 
position fundamentally in the same way I have conducted myself as a 
Senate staffer: I will work hard to understand the issues; I will 
listen without bias to all stakeholders; I will strive to be fair; I 
will never forget that I am accountable to the taxpayers; and I will 
always follow the guidance of the law and make my decisions 
accordingly.
    Again, thank you. I look forward to answering any questions you may 
have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Ann D. 
Begeman.
    2. Position to which nominated: Member, Surface Transportation 
Board.
    3. Date of Nomination: January 5, 2011.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Senate Committee on Commerce, Science, and 
        Transportation, SD 560 Dirksen, U.S. Senate, Washington, DC 
        20510.

    5. Date and Place of Birth: April 18, 1964; Sioux Falls, South 
Dakota.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
    Not Applicable.
    7. List all college and graduate degrees. Provide year and school 
attended.

        Bachelor of Science, Business Administration, University of 
        South Dakota, 1986.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

    Employment includes:

        Office of U.S. Senator Larry Pressler (5/86-3/88).

        First American Bankshares, Inc. (3/88-7/92).

        Office of U.S. Senator Larry Pressler (7/92-11/94).

        Senate Committee on Commerce, Science, and Transportation (11/
        94-1/04).

        Office of U.S. Senator John McCain (1/04-5/09).

        Senate Committee on Commerce, Science, and Transportation (5/09 
        to present).

    Management positions include: serving as Deputy Staff Director for 
the Commerce Committee (1/02-1/04); Legislative Director (1/04-5/09) 
and Acting Chief of Staff (3/07-2/08) for Senator John McCain; and 
Staff Director/Acting Staff Director for the Commerce Committee from 8/
09 to present. Except for my employment with First American Bankshares, 
Inc., all other positions held included responsibilities dealing with 
federal policy matters, including specifically transportation.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with federal, state, or local governments, other 
than those listed above, within the last 5 years: Not applicable.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years: Not 
applicable.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap: Not applicable.
    13. Have you ever been a candidate for and/or held a public office 
(elected, nonelected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    In a volunteer capacity, I served as a Senior Advisor to the McCain 
for President Campaign, from February 2008-November 2008. Also in 2008, 
I volunteered for the Graham for Senate Campaign.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements: Not applicable.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I have drafted many speeches and op-eds during my employment in the 
U.S. Senate; however, all such items were under the employers' names.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: Not applicable.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    During over 20 years of employment in the U.S. Senate, I have 
worked on a wide range of federal transportation policy matters, 
including having served as the lead Republican staffer on the 
legislation that created the Surface Transportation Board (the ICC 
Termination Act of 1995), and most recently, on legislation reported by 
the Commerce Committee to reauthorize the STB. I have a strong 
professional interest in public policy matters, and believe it is very 
important that the Board be served by members who are committed to 
reaching fair and appropriate decisions in accordance with the 
governing statutes, rules, and regulations.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Although I would not be serving as the Board's Chairman, who holds 
the foremost responsibilities for proper management and accounting 
controls, I would seek to continually work with the Chairman and other 
Members of the Board, and the Board's staff, to ensure full compliance 
with all applicable laws, rules, and regulations. Pertinent management 
experience includes my work serving as Staff Director and Deputy Staff 
Director for the Senate Commerce Committee, and serving as Legislative 
Director and Acting Chief of Staff for a Senate Office.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        1. Reauthorization of the Board to provide clarification of its 
        mission.

        2. Proper allocation of Board resources to ensure timely Board 
        actions.

        3. Outreach to all Board stakeholders, including rail 
        customers, to encourage and facilitate use of agency recourses, 
        including the Board's informal dispute resolution alternatives, 
        to help resolve shipper-railroad disputes in a timely manner.

                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I am vested in the Federal Employee Retirement System and the 
Thrift Savings Plan.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: Not applicable.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: Not applicable.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Surface Transportation Board's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered with the Board's 
ethics official, a copy of which has been provided to this committee.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    During my employment as a Senate staffer, I have continually been 
engaged in efforts to pass, defeat, or alter legislative initiatives 
and have also been involved in Committee oversight efforts concerning 
implementation of laws under the Committee's jurisdiction.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Surface Transportation Board's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered with the Board's 
ethics official, a copy of which has been provided to this committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any federal, state, or other law enforcement authority of any federal, 
state, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain.
    To the best of my knowledge, I have never been accused, formally or 
informally, of any sexual harassment or discrimination, or of taking 
any action against anyone on the basis of sex, race, religion, or any 
other basis.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                        Resume of Ann D. Begeman
Professional Overview
    Over 20 years of experience in government and corporate 
environments. Policy expertise in transportation, including economic 
and safety regulations governing railroads and other surface 
transportation modes. Possess in-depth knowledge of the legislative 
process, including planning and executing successful legislative 
agendas. Maintain strong bipartisan relationships and skilled in 
developing coalitions to support legislative goals. Experienced in 
hiring, training, and managing a wide range of employees. Presidential 
and Senate campaign experience.
Employment
    U.S. Senate Committee on Commerce, Science, and Transportation, 
Washington, D.C.--Staff Director/Acting Staff Director, Professional 
Staff Member, May 2009 to present.

    Work with Committee Ranking Member in development and 
implementation of policy objectives on behalf of Minority Members. 
Direct and coordinate all legislative, administrative, and other 
functions of the Minority. Advise Members and their staff on 
legislative matters and nominations relating to Committee jurisdiction, 
including surface transportation, aviation, telecommunications, and 
consumer protection. Manage more than 20 staff members and ensure 
compliance with Senate Rules and Ethics. Serve as the Minority's 
principal liaison with other Senate and House offices, government 
agencies, and other organizations. Lead Minority staffer in development 
of the bipartisan Surface Transportation Board (STB) Reauthorization 
Act, and directly involved in Senate passage of the Federal Aviation 
Administration (FAA) Reauthorization Act.

    Office of U.S. Senator John McCain, Washington, D.C.--Legislative 
Director, January 2004 to May 2009; Acting Chief of Staff, March 2007 
to February 2008.

    Advised and assisted Senator in formulation, coordination, and 
execution of legislative agenda. Hired and managed legislative staff 
and ensured timely development and execution of legislative 
initiatives. Major legislative initiatives include the 9/11 Commission 
and implementation of its recommendations, rail security, immigration 
reform, and government reform. Drafted speeches, op-eds, and public 
statements. Managed general office activities and ensured compliance 
with Senate Rules and Ethics. Represented Senator in meetings with 
Members of Congress, Executive Branch representatives and outside 
groups.

    U.S. Senate Committee on Commerce, Science, and Transportation, 
Washington, D.C.--Deputy Staff Director, January 2002 to January 2004.

    Worked with Committee Chairman and Staff Director in development 
and implementation of Committee's policy objectives. Assisted in 
hiring, training, and managing 40 staff members and ensured compliance 
with Senate Rules. Supervised development of Committee legislation and 
carried out Chairman's objective to report out over 25 agency/program 
reauthorizations under the Committee's jurisdiction. Advised Committee 
Members during Senate floor debates. Represented Chairman in meetings 
with Members of Congress, Executive Branch representatives and outside 
groups.

    Member of the Professional Staff, November 1994 to January 2002.

    Advised Committee Chairman and Majority Members in development and 
execution of an aggressive legislative agenda on multiple surface 
transportation issues, including rail, motor carrier, pipelines and the 
transport of hazardous materials. Major legislative initiatives include 
the ICC Termination Act, which created the STB, creation of the Federal 
Motor Carrier Safety Administration, safety titles in the highway bill 
reauthorization, and the National Transportation Safety Board (NTSB) 
Reauthorization. Organized Committee hearings. Advised and assisted 
Committee Members during floor debates.

    Office of U.S. Senator Larry Pressler, Washington, D.C.--
Legislative Assistant, July 1992 to November 1994.

    Advised Senator on multiple legislative issues, including 
transportation, labor, human resources, tourism, government affairs, 
and natural disasters. Developed and advanced Senator's aviation 
legislative agenda in support of his position as Ranking Member of the 
Commerce Committee's Aviation Subcommittee, including the NTSB 
Reauthorization and FAA Reauthorization.

    First American Bankshares, Inc., Washington, D.C.--Senior Benefits 
Specialist; Benefits Specialist, March 1988 to June 1992.

    Administered 401(k) Savings and Profit Sharing Plan for over 6000 
participants employed by 12 subsidiary companies. Assured compliance 
with federal reporting and nondiscrimination regulations. Prepared 
board resolutions and plan amendments. Consulted with and made 
recommendations to senior management, legal counsel and actuaries. 
Assisted in administration of defined benefit plan and flexible welfare 
benefits plan.

    Office of U.S. Senator Larry Pressler, Washington, D.C.--
Legislative Assistant; Legislative Staff Assistant, May 1986 to March 
1988.

    Drafted legislation, speeches, op-eds, press releases and 
constituent correspondence. Advised Senator on multiple legislative 
issues, including railroads, aviation, busing, trucking, highways, and 
tourism. Assisted Legislative Counsel on all Commerce Committee issues. 
Greeted constituents and visitors and answered and screened incoming 
calls.
Education
    Bachelor of Science, Business Administration, University of South 
Dakota.

    The Chairman. Thank you, Ms. Begeman, very much.
    Mr. Coyle.

               STATEMENT OF PHILIP E. COYLE III,

                 ASSOCIATE DIRECTOR-DESIGNATE,

            OFFICE OF SCIENCE AND TECHNOLOGY POLICY,

               EXECUTIVE OFFICE OF THE PRESIDENT

    Mr. Coyle. Chairman Rockefeller, Ranking Member Hutchison, 
members of the Committee, it's a pleasure to appear before you 
today.
    I last appeared before this committee on November 18, 2009, 
as President Obama's nominee to be Associate Director for 
National Security and International Affairs in the Office of 
Science and Technology Policy.
    I took on the duties of that position in July 2010, as a 
result of a recess appointment by the President, and it has 
been a real honor and a privilege for me to work at OSTP for 
these past nearly 8 months.
    Mr. Chairman, before I talk about my work, I'd like to 
introduce my wife, Dr. Martha Krebs, who's sitting in the 
second row. Martha had the great pleasure of working for 
Senator Nelson----
    The Chairman. Mr. Coyle, I think your wife needs to be able 
to stand up.
    [Laughter.]
    Mr. Coyle. Thank you.
    Martha had the great pleasure of working for Senator 
Nelson, then Representative Nelson, as a staff member on the 
House Science Committee in the early 1980s. For 30 years, she 
and I have felt a close kinship with the House Science 
Committee and with this committee. And I would like nothing 
more than to be able to continue this collaborative 
relationship in my capacity as the Senate-confirmed Associate 
Director at OSTP.
    As the Associate Director for National Security and 
International Affairs, my focus within OSTP is on ensuring that 
America's investments in science and technology help to 
safeguard U.S. national security, protect our troops, and 
ensure the safety of American citizens here at home and around 
the world. That means bringing the very best of science and 
technology to issues such as cybersecurity, homeland security, 
biosecurity, and other topics.
    The people who work at OSTP and I take pride every day in 
our service to this country. I have submitted for the record a 
somewhat more detailed account of what the National Security 
and International Affairs Division has been focused on under my 
leadership. But I'd like to take just a moment to highlight a 
few things which I think we can all agree are of central 
importance to our nation's continued economic strength and 
national security.
    First, the security of cyberspace, comprising the networks 
that connect us and the technologies that empower us, is a 
critical priority in the digital age. With others in the 
federal, academic, and commercial sectors we have developed a 
new research and development program that spans from basic 
research to operational implementation.
    In the arena of homeland security, we support the 
application of science and technology to enhance port and 
border security, to defend against nuclear, radiological, 
biological and chemical threats, and to counter terrorists' use 
of explosives.
    To help deal with all these threats, OSTP is active in the 
interagency processes overseen by the Committee on Homeland and 
National Security, which I co-chair, of the National Science 
and Technology Council. We are engaged with the Department of 
Defense to support defense research and development 
initiatives, to strengthen our manufacturing and industrial 
base, and improve the quality of DOD laboratories, and to 
increase funding for basic research programs at universities 
and small businesses. And in the increasingly important realm 
of security-critical materials, we lead an interagency working 
group focused on rare earth elements and the broader topic of 
strategic and critical mineral supplies.
    A common theme among all these areas of emphasis is support 
for the very best science and technology to serve America's 
interest.
    If confirmed, I intend to build on my long record of 
national security-related public service by helping to maintain 
the preeminence of American science and technology as it 
relates to public safety and national security and, working 
from that position of strength, to foster international science 
and technology collaboration to advance U.S. goals.
    I am grateful for the courtesy shown by the members of this 
committee and your staff, and I look forward to working with 
you and them in the future. And I'd be pleased to answer any 
questions you may have.
    Thank you.
    [The prepared statement and biographical information of Mr. 
Coyle follows:]

     Prepared Statement of Philip E. Coyle III, Associate Director-
Designate, Office of Science and Technology Policy, Executive Office of 
                             the President
    Chairman Rockefeller, Ranking Member Hutchison, and members of the 
Committee, it is a pleasure to appear before you today.
    The scope of OSTP activities is broad, including helping to assure 
that America's science and technology programs increase American 
productivity and drive economic growth, improve the nation's health, 
provide new sources of energy, and protect the environment. As 
Associate Director for National Security and International Affairs 
(NSIA), my focus within OSTP is on assuring that America's investments 
in science and technology help to safeguard U.S. national security, 
protect our troops, and ensure the safety of American citizens here at 
home and around the world. That means bringing the very best science 
and technology to bear on issues of cybersecurity, homeland security, 
bio-security, and other topics. The people who work at OSTP and I take 
pride every day in our service to this country.
    I would like to provide a summary to highlight what the National 
Security and International Affairs division has been focused on under 
my leadership--highlights that I think we can agree are of central 
importance to our nation's continued economic strength and national 
security:
    Cybersecurity--Ensuring that cyberspace is safe, reliable and an 
engine for prosperity for all citizens requires a commitment to 
innovation in cybersecurity. With others in the federal, academic, and 
commercial sectors, we work to implement the priority cybersecurity 
objectives described in the Cyberspace Policy Review. These include a 
targeted research and development program and increased training and 
educational opportunities.
    Science and Technology to Support Our Veterans--A new initiative 
for rehabilitation and recovery seeks to bring the best of American 
science and technology to support our returning service members, 
helping our veterans achieve mobility and functionality at home, at 
work, and in recreation. NSIA is helping to apply technologies for 
advanced prosthetic devices using advanced materials, sensors and 
controls, neuroscience, engineering, computer simulation, 
rehabilitation medicine, telemedicine, and social and behavioral 
sciences.
    Defense Science and Technology--In close cooperation with the 
Defense Department, we are working to ensure that we are developing and 
fielding the technologies needed to meet the demands of a nation at war 
and to meet the emerging threats of our time. In particular, NSIA has 
focused on sustaining funding for defense basic research programs, and 
policies to revitalize our network of defense laboratories.
    Homeland Security--Science and technology are critical to enhance 
the security of our citizens and to counter terrorist use of 
explosives. Among other responsibilities in this area, we are leading 
an interagency process to identify areas where science and technology 
can reduce the threat from improvised explosive devices, both at home 
and abroad.
    Biological and Chemical Defense--NSIA is engaged collaboratively in 
the development of coordinated strategies and policies to respond to 
chemical and biological threats via work in a set of linked interagency 
working groups that together are streamlining research and development 
in these domains.
    Energy Security--We are supporting the development and application 
of technologies to strengthen U.S. energy security. In particular, we 
are addressing threats that can result from damage due to natural 
events, such as extreme space weather, or as a result of political or 
economic instabilities affecting energy supply and cost. In addition, 
we are working with the Department of Defense on the use of energy 
technologies to reduce costs and logistical burdens.
    National Security and Emergency Preparedness Communications--The 
OSTP Director has specific responsibilities both for communications 
during a crisis and for ensuring the readiness of capabilities in 
advance of a crisis. To fulfill OSTP's readiness responsibilities, NSIA 
works in partnership with others to establish architectural 
requirements for continuity of emergency communications for the 
government, including the evaluation of existing and planned 
capabilities.
    Nuclear Deterrence--NSIA supports maintenance of U.S. nuclear 
deterrence, stockpile stewardship, strengthening the scientific 
enterprises at the nuclear weapons laboratories, and the development of 
an R&D plan to enhance monitoring and verification.
    Nuclear Defense--We lead an interagency group that oversees 
execution of a coordinated nuclear-defense R&D strategy and related 
efforts to counter nuclear terrorism by improving nuclear safeguards 
and security.
    Critical Materials--We are leading a new interagency working group 
on strategic and critical mineral supply chains that is addressing 
recent concerns about rare earth minerals. We are also working to 
ensure continued access to the medically important isotope Molybdenum-
99.
    International Affairs--We have created a new subcommittee of the 
National Science and Technology Council and are participating in other 
interagency mechanisms to use science and technology collaboration to 
enhance national security through such activities as the Science Envoy 
Program, as well as other cooperative ventures relating to health, 
education, and energy with scientists in the Middle East and North 
Africa.
Conclusion
    President Obama's National Security Strategy released last May 
stated that ``America's role as the global engine of scientific 
discovery and technological innovation has never been more critical.'' 
It further noted that our ``commitment to science and technology . . . 
will help us protect our citizens and advance U.S. national security 
priorities.'' I am proud of the work of the National Security and 
International Affairs division, and hope that, if confirmed, I will 
have the opportunity to continue that work with this Committee and the 
Congress for our nation's security.
    Thank you.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Philip E. 
Coyle III.
    2. Position to which nominated: Associate Director, National 
Security and International Affairs, Office of Science and Technology 
Policy.
    3. Date of Nomination: January 26, 2011.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Office of Science and Technology Policy, Executive 
        Office of the President, 725 17th Street N.W., Washington, D.C. 
        20502.

    5. Date and Place of Birth: August 30, 1934; Beverly, 
Massachusetts.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Dr. Martha A. Krebs, Executive Director, Energy and 
        Environmental Research Development, Office of Research, 
        University of California at Davis. Children: Laurie E. 
        Monserrat (daughter), age 52; Philip E. Coyle, IV (son), age 
        49; James Evans Coyle (son), age 47; Jonathan H. Leidecker 
        (step son), age 40.

    7. List all college and graduate degrees. Provide year and school 
attended.
    Dartmouth College, BA, 1956, MSME, 1957.
    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        2010 to present--Associate Director, National Security and 
        International Affairs, Office of Science and Technology Policy.

        2001-2010--Senior Advisor, World Security Institute (formerly 
        the Center for Defense Information).

        1994-2001--Director Operational Test and Evaluation, U.S. 
        Department of Defense.

        1993-1994--Consultant, DynCorp Meridian.

        1981-1993--Laboratory Associate Director, Lawrence Livermore 
        National Laboratory, retired in 1993 (the second time).

        1979-1981--Deputy Assistant Secretary for Defense Programs, 
        U.S. Department of Energy.

        1959-1979--various positions beginning as staff engineer in 
        1959, retired in 1979 (the first time) as Deputy Associate 
        Director for Lasers, Lawrence Livermore National Laboratory.

        1957-1959--teacher, Chadwick School.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with federal, state, or local governments, other 
than those listed above, within the last 5 years.

        The Standing Committee on Biodefense at the U.S. Department of 
        Defense, the National Research Council, 2007-2010.

        The Committee on Advanced Spectroscopic Portals, sponsored by 
        DHS, the National Research Council, 2008-2010.

        The Committee on Improving Processes and Policies for the 
        Acquisition and Test of Information Technology in the DOD, the 
        National Research Council, 2008-2010.

        The Committee on the Test and Evaluation of Biological Standoff 
        Detection Systems, for the U.S. Army, the National Research 
        Council, 2007-2008.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Senior Advisor, World Security Institute (formerly the Center 
        for Defense Information), 2001-2010.

        Consultant, Defense Group Inc. (DGI), 2006.

        Consultant, RAND Corporation, 2005, 2007, and 2008.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap: None.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No, none.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        8/20/09--Mark Desaulnier--$400.

        4/25/09--DCCC--$2,000.

        8/7/08--Obama for America--$500.

        2/14/08--Tauscher for Congress--$2,000.

        8/12/07--Hillary for President--$2,300.

        6/26/07--Steve Filson for Assembly--$1,000.

        10/26/06--Tauscher for Congress--$2,000.

        5/15/06--Steve Filson for Congress--$1,000.

        4/08/06--Steve Filson for Congress--$1,000.

        3/5/06--Tauscher for Congress--$500.

        12/3/05 Friends of Hillary--$500.

        10/31/05--Ellen Tauscher--$250.

        9/19/05--DCCC--$1,000.

        10/26/04--Committee to Re-elect Linda Sanchez--$500.

        9/20/04--DCCC--$1,000.

        8/12/04--Committee to Re-elect Linda Sanchez--$500.

        5/23/04--DCCC--$1,000.

        3/10/04--John Kerry for President--$2,000.

        1/9/04--Howard Dean--$250.

        1/7/04--Linda Sanchez--$250.

        1/3/04--Tauscher for Congress--$500.

        12/4/03--Friends of Hillary--$1,000.

        9/30/03--Howard Dean--$250.

        9/26/03--Linda Sanchez--$250.

        9/24/03--Loretta Sanchez--$250.

        6/1/03--Loretta Sanchez for Congress--$500.

        4/15/03--Tauscher for Congress--$500.

        9/30/02--Committee to Re-elect Loretta Sanchez--$500.

        9/30/02--Rush Holt for Congress--$500.

        5/28/02--Friends of Carl Levin--$1,000.

        3/1/02--Tauscher for Congress--$500.

        3/1/02--Rush Holt for Congress--$500.

        2/4/02--Committee to Reelect Loretta Sanchez--$500.

        2/24/02--Kucinich for Congress--$500.

        6/24/02--Loretta Sanchez--$400.

        3/8/02--Ellen Tauscher--$500.

        8/20/01--Friends of Hillary--$500.

        3/14/01--Carl Levin--$500.

    No offices held nor services rendered to a state or national 
political party or election committee.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
    In 1997, awarded the Defense Distinguished Service Medal by 
Secretary of Defense William Perry, and in 2001, the Bronze Palm of the 
Defense Distinguished Service Medal by Secretary of Defense William 
Cohen.
    In September 2000, awarded the Allan R. Matthews Award of the 
International Test and Evaluation Association, its highest award, for 
contributions to the management and technology of test and evaluation.
    In March 2001, received the Hollis Award from the National Defense 
Industrial Association for lifelong achievement in defense test and 
evaluation.
    By Aviation Week magazine, named as one of its Laurels honorees for 
the year 2000, a select group of people recognized for outstanding 
contributions in aerospace.
    In recognition of my years of service to the Laboratory and to the 
University of California, the University named me Laboratory Associate 
Director Emeritus.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        Contributor to ``Global Biosecurity,'' edited by Peter Katona, 
        Michael D. Intriligator and John P. Sullivan, Routledge, 
        London, January 2010.

        ``The Proliferation Security Initiative, Background, history, 
        and prospects,'' a commissioned paper for the International 
        Commission on Nuclear Non-proliferation and Disarmament, 
        January 2009.

        ``Missile Defense Malfunction,'' Ethics and International 
        Affairs Journal, Volume 22.1 Spring, 2008, a commissioned paper 
        for the Carnegie Council on Ethics in International Affairs.

        ``Missile Defense and Arms Control, 25 Years Later,'' The 
        Defense Monitor, the Center for Defense Information, March 21, 
        2008, with Victoria Samson; also see various electronic 
        postings on the Center for Defense Information website, 2001-
        2010.

        ``The Limits and Liabilities of Missile Defense,'' Current 
        History, November 2006.

        ``Is Missile Defense on Target?,'' Arms Control Today, October 
        2003.

        Viewpoint, ``The Truth About Missile Defense: Will Science Make 
        a Difference?,'' a review of the American Physical Society 
        report on the scientific feasibility of boost-phase missile 
        defense, for the APS News, a journal of the American Physical 
        Society, October 2003.

        ``Missile Defense in the Bush Administration,'' Arms Control 
        Today, May 2002.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        November 18, 2009, Senate Committee on Commerce, Science, and 
        Transportation, Confirmation hearing for Philip E. Coyle III to 
        be the Associate Director at the Office of Science and 
        Technology Policy, Executive Office of the President.

        March 17, 2009, House Committee on Appropriations, Subcommittee 
        on Energy and Water: The Future of the DOE Complex 
        Transformation Program.

        February 25, 2009, House Committee on Armed Services, 
        Subcommittee on Strategic Forces: The Future of Missile Defense 
        Testing.

        April 30, 2008, House Committee on Oversight and Government 
        Reform, Subcommittee on National Security and Foreign Affairs: 
        Oversight of Ballistic Missile Defense, (Part 3).

        April 30, 2008, House Committee on Oversight and Government 
        Reform, Subcommittee on National Security and Foreign Affairs: 
        Oversight of Ballistic Missile Defense, (Part 2).

        December 7, 2007, Senate Democratic Policy Committee: 
        Department of Defense Spending in Iraq.

        June 6, 2007, House Armed Services Committee, Subcommittee on 
        Air and Land Forces: Army Force Protection Programs and 
        Operation Iraqi Freedom and Operation Enduring Freedom, Body 
        Armor.

        January 18, 2007, House Armed Services Committee, Subcommittee 
        on Air and Land Forces: Army Force Protection Programs and 
        Operation Iraqi Freedom and Operation Enduring Freedom, Active 
        Protection Systems.

        August 22, 2002, Commission on the Future of the United States 
        Aerospace Industry.

        June 11, 2002, House Committee on Government Reform and 
        Oversight: Missile Defense Testing.

        July 19, 2001, Senate Committee on Armed Services, Full 
        Committee: Ballistic missile defense policies and programs.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    Since July, 2010, I have served as a recess appointee and the 
Associate Director for National Security and International Affairs at 
the Office of Science and Technology Policy, Executive Office of the 
President--the position for which I have been nominated. I believe that 
among the qualifications I bring--and, if confirmed, would continue to 
bring--to the position is thirty-three years experience with the 
Lawrence Livermore National Laboratory in a variety of scientific and 
leadership positions, and from which I retired as Deputy to the 
Director. I also bring experience as Deputy Assistant Secretary for 
Defense Programs in the Department of Energy, and my service from 1994 
to 2001 as Assistant Secretary for Test and Evaluation (Director, 
Operational Test and Evaluation) in the Department of Defense.
    It is, and would continue to be, an honor to serve in the Office of 
Science and Technology Policy. If I am confirmed, this would be an 
opportunity to continue to serve my country, contribute to the national 
security of the United States, help support science and technology for 
America's present needs and future development, and help foster 
international science and technology collaboration to advance U.S. 
foreign-policy objectives.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    With respect to sustaining proper management and accounting 
controls, my responsibilities, if confirmed, would be to assure that 
all activities under my purview at OSTP are managed in accordance with 
applicable laws, regulations, and Congressional guidelines; in 
accordance with the highest professional standards for scientific 
research and technology development; and in accordance with scientific 
and technological standards and practices for careful peer review. My 
experience in managing large organizations includes serving as the 
Deputy Director of the Lawrence Livermore National Laboratory, at the 
time a 10,000-person Laboratory; serving as Assistant Secretary for 
Test and Evaluation (i.e., Director Operational Test and Evaluation) in 
the Department of Defense; and serving as Deputy Assistant Secretary 
for Defense Programs in the Department of Energy.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        1. Developing science and technology programs that will 
        increase American productivity and drive economic growth.

        2. Developing science and technology programs that will improve 
        health, provide new sources of energy, and safeguard the 
        environment.

        3. Developing science and technology programs that will 
        safeguard U.S. national security, protect our troops, and 
        support improved verification of arms control and verification 
        agreements.

                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Pension, California State Public Employees Retirement System; 
Pension, University of California Retirement System.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No, none.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which :you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of an ethics agreement that I have entered into with the 
designated agency ethics official for OSTP and that has been provided 
to this Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any federal, state, or other law enforcement authority of any federal, 
state, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I have been named as a defendant in several civil suits, but solely 
in my capacity as a member of the 2005 Base Realignment and Closure 
Commission. None of these cases alleged any personal wrong doing, and I 
have played no role in their litigation.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                     resume of philip e. coyle iii
  Associate Director for National Security and International Affairs, 
   Office of Science and Technology Policy, Executive Office of the 
                               President

    Mr. Philip E. Coyle III currently serves as the Associate Director 
of National Security and International Affairs (NSIA) in the Office of 
Science and Technology Policy (OSTP). As such, he has primary 
responsibility for supporting the Director of OSTP in developing and 
executing science and technology initiatives in areas including: 
homeland and national security research, development and acquisition; 
nuclear, chemical, and biological defense; counterproliferation, 
cybersecurity; international science and technology cooperation; and 
nuclear security.

    Mr. Coyle served as a Senior Advisor to the President of the World 
Security Institute and to its Center for Defense Information, a 
Washington D.C.-based national security study center. In 2005 and 2006, 
Mr. Coyle served on the nine-member Defense Base Realignment and 
Closure Commission (BRAC), appointed by President George W. Bush and 
nominated by Speaker of the House Nancy Pelosi. Prior to this 
appointment, Mr. Coyle served on Governor of California Arnold 
Schwarzenegger's Base Support and Retention Council. From September 
1994 through January 2001, Mr. Coyle was Assistant Secretary of Defense 
and Director, Operational Test and Evaluation, in the Department of 
Defense, and is the longest serving Director in the 25-year history of 
the Office. In this capacity, he was the principal advisor to the 
Secretary of Defense on test and evaluation in the Department of 
Defense. Mr. Coyle has 40 years experience in national security 
research, development, and testing matters.

    From 1959 to 1979, and again from 1981 to 1993, Mr. Coyle worked at 
the Lawrence Livermore National Laboratory (LLNL) in Livermore, 
California. Over those 33 years Mr. Coyle worked on a variety of 
nuclear weapons programs and other high technology programs. Mr. Coyle 
also served as Deputy Associate Director of the Laser Program at LLNL. 
Mr. Coyle retired from the Laboratory in 1993 as Laboratory Associate 
Director and deputy to the Director. In recognition of his years of 
service to the Laboratory and to the University of California, the 
University named Mr. Coyle Laboratory Associate Director Emeritus. 
During the Carter Administration, Mr. Coyle served as Principal Deputy 
Assistant Secretary for Defense Programs in the Department of Energy 
(DOE). In this capacity he had oversight responsibility for the nuclear 
weapons research, development, production and testing programs of the 
Department, as well as the DOE programs in arms control, non-
proliferation, and nuclear safeguards and security.

    The Chairman. Thank you very much, sir.
    Dr. Sullivan.

        STATEMENT OF DR. KATHRYN D. SULLIVAN, ASSISTANT

        SECRETARY-DESIGNATE OF COMMERCE FOR OBSERVATION

        AND PREDICTION, NATIONAL OCEANIC AND ATMOSPHERIC

          ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Dr. Sullivan. Thank you, Mr. Chairman, and Ranking Member 
Hutchison, and members of the Committee.
    I'm honored to come before you today as the President's 
nominee for the Assistant Secretary of Commerce, Environmental 
Observation and Prediction.
    I'd also like to thank Secretary Locke and Under Secretary 
Lubchenco for their strong support of my nomination, and, of 
course, Senator Portman for that very generous introduction.
    I'm delighted that my family is represented here today 
supporting me. My brother Grant, his wife Lee, their children 
Michelle, Daniel, and Timothy, have joined us. I thank them all 
from the bottom of my heart for always encouraging me to reach 
for the stars.
    I would like to say also that with me here in spirit are 
two truly remarkable parents. My father and mother were both 
outstanding natural teachers who were never exhausted by the 
endless questions of a very curious child, and always helped us 
build answers in a way that made us feel like we were peer 
learners. Little wonder that such a household produced an 
inveterate explorer.
    Finally, I'm grateful to have my cousin, Rita Kelly, and a 
number of friends and colleagues from near and far here in the 
audience today.
    Our family moved to California when I was six, and I grew 
up roaming the then-open fields and rolling hills of the San 
Fernando Valley, always curious about what lay beyond the end 
of our street. Our family's flying and fishing trips fed my 
interest in everything geographical and gave me my first small 
lessons in expedition planning.
    This all took place against the dramatic backdrop of sea 
and space exploration, for these were the times of Alan 
Shepard, John Glenn, Jacques Cousteau and others. I was drawn 
strongly to the drama of challenge and discovery in the lives 
of these pioneers, and hoped that I might find a way to center 
my own life on such endeavors.
    My plan for college was to parlay a flair for foreign 
languages into that adventurous life, but university 
requirements forced me to first take three science courses. 
Thus did I discover oceanography. Here standing before me were 
real, accessible people who knew the whole planet like their 
backyard, and whose lives were full of just the blend of 
curiosity, problem-solving, and adventure that I had been 
seeking. I changed majors on the spot and never looked back.
    That decision led eventually to doctoral work in marine 
geology and geophysics at Dalhousie University in Halifax, Nova 
Scotia. Satellite remote sensing and space-based oceanography 
were just developing in those years and promised to 
revolutionize all of the earth sciences. I followed these 
developments avidly, never imagining that I myself would some 
day orbit the earth.
    When NASA began recruiting the first shuttle class in 1976, 
I first dismissed the thought of applying. I loved going out to 
sea, and was fascinated by the ocean sciences. When I 
reconsidered the proposition as the opportunity to serve, 
planning and conducting research expeditions aboard a space 
vessel rather than a marine vessel, however, I decided to give 
it a try.
    Unlike on an oceanographic ship, the scientists in the 
space shuttle program, called Mission Specialists, would be 
immersed fully in both the workings of the shuttle and the 
scientific operations. The icing on the cake, of course, was 
that I would get to see the earth from space with my own eyes--
an absolutely irresistible proposition.
    My experience in orbit, Mr. Chairman, is undoubtedly one of 
the strongest factors that shapes my perspective on the role 
for which I am nominated. No amount of words can convey what it 
feels like to see our planet from this vantage point, nor 
express the flood of thoughts and questions that course through 
one's mind. The grand scale and vast power of the planet's 
natural systems are vividly apparent, but so are the 
breathtakingly fine-scale features that remind one of the most 
exquisite filigree and clear signs of the hand of man across 
the face of the globe.
    This experience deepened my fascination with the amazing 
sphere on which we live. It strengthened my conviction that we 
must continually strive to better understand our home planet 
and the working of its natural systems, and to translate 
scientific understanding into tools and information that help 
people live safe, productive and sustainable lives.
    NOAA plays precisely that vital role for our nation, 
advancing scientific knowledge, and then converting that 
enhanced understanding into useful information services for 
Americans. I was delighted and honored to be nominated and 
confirmed as the Agency's Chief Scientist in the early 1990s, 
and look forward eagerly to joining the team again if 
confirmed.
    During the past 15 years, while my primary work has 
centered on science education, I've been able to stay abreast 
with the relevant earth sciences. In particular, my assignments 
as an oceanography officer in the Navy Reserve and my service 
on the National Science Board and Pew Oceans Commission have 
been very valuable in this regard.
    Finally, Mr. Chairman, the Assistant Secretary for 
Environmental Observation and Prediction is the person 
responsible for making sure that the American people get the 
best result from NOAA's investments in the satellites and other 
observing systems that let us forecast weather and climate 
changes, and predict other changes in our ocean and atmosphere. 
This is a responsibility that I take quite seriously. And if 
confirmed, I would look forward to working with you and all of 
your staffs, and interacting closely with the Congress to 
execute this important function.
    I thank you again for your consideration of my nomination 
and the opportunity to appear before you this morning, and look 
forward to your questions.
    [The prepared statement and biographical information of Dr. 
Sullivan follows:]

  Prepared Statement of Dr. Kathryn D. Sullivan, Assistant Secretary-
Designate of Commerce for Observation and Prediction, National Oceanic 
      and Atmospheric Administration, U.S. Department of Commerce
    Mr. Chairman, Ranking Member Hutchinson, members of the Committee--
I am honored to come before you today as President Obama's nominee for 
Assistant Secretary of Commerce, Environmental Observation and 
Prediction. I would also like to thank Secretary Locke and Under 
Secretary Lubchenco for their gracious support of my nomination.
    My wonderful family is represented here today by my brother, Grant, 
his wife Lee, and their children Michelle, Daniel and Timothy. I thank 
them all, from the bottom of my heart, for always encouraging me to 
reach for the stars. With me here in spirit today are also my truly 
remarkable parents. My father and mother were outstanding natural 
teachers: Never exhausted by the endless questions of curious children, 
and always able to engage us in figuring out answers in a way that made 
us feel like peer-learners. Little wonder that such a home produced an 
inveterate explorer. I am also grateful to have my cousin Rita Kelly 
and a number of friends and colleagues from near and far here to 
support me today.
    Our family moved to California when I was six, and I grew up among 
the then-open fields and rolling hills of the San Fernando Valley. I 
spent many weekends roaming the open stretches of the valley with 
friends, just curious to know what was beyond the end of our street. 
Our family's flying and fishing trips further fed my interest in 
everything geographical, and gave me my first lessons in expedition 
planning. This all took place against the backdrop of dramatic events 
in sea and space exploration, for these were the times of Alan Shepard, 
John Glenn, Jacques Cousteau and others. I felt drawn deeply to the 
drama of challenge and discovery in the lives of these pioneers, and 
hoped I might find a way to center my life on such endeavors.
    My plan for college was to parlay a natural flair for foreign 
languages into that adventurous life. To my dismay, but also 
everlasting good fortune, university requirements forced me to take 
three natural science courses during freshman year. Thus did I discover 
oceanography. Here before me stood real, accessible people, who seemed 
to know the whole planet like their backyard, and whose lives were full 
of just the blend of curiosity, problem-solving and adventure that I 
had been seeking. I changed majors on the spot and never looked back.
    That decision led, eventually, to my doctoral work in marine 
geology and geophysics at Dalhousie University in Halifax, Nova Scotia. 
Satellite remote sensing and space-based oceanography were developing 
rapidly in those years. Though my own work involved the geology of the 
deep-sea floor, I followed these developments avidly. Sensing that 
these new methods would transform the earth sciences, I considered 
seeking a post-doctoral fellowship in the field to learn more, never 
imagining that I would someday orbit the Earth myself.
    When NASA began recruiting the first class of space shuttle 
astronauts in 1976, I first dismissed the thought of applying. I loved 
the science I was doing, and I loved being at sea. When I re-framed the 
proposition into one of planning and conducting expeditions aboard a 
space ship rather than a marine vessel, I decided to try. Unlike aboard 
an oceanographic ship, the scientists in the shuttle program--called 
Mission Specialists--would be immersed fully in both the workings of 
the shuttle and the scientific operations. The icing on the cake, of 
course, was that I would get to see the earth from space with my own 
eyes--an irresistible prospect.
    My experience in orbit is undoubtedly one of the strongest factors 
shaping my perspective on the role for which I am nominated. No amount 
of words or photos can convey what it feels like to see our planet from 
this vantage point, nor express the flood of thoughts and questions 
that course through one's mind. The grand scale and vast power of the 
planet's natural systems are vividly apparent, but so are 
breathtakingly fine-scale features that remind one of the most 
exquisite filigree. The hand of man is also quite apparent across the 
face of the globe, evident in the gray smudges of urban areas, in ship 
wakes and jet contrails and, perhaps most stunningly, in the sparkling 
diamond lacework of cities at night.
    This experience deepened my fascination with this amazing sphere on 
which we live. It strengthened my conviction that we must continually 
strive to better understand our home planet and the workings of its 
natural systems, and to translate scientific understanding into tools 
and information that help people live safe, productive and sustainable 
lives.
    NOAA plays precisely that vital role for our country--advancing 
scientific knowledge, and then converting that enhanced understanding 
into useful information services for Americans. I was delighted and 
honored to be nominated and confirmed as the agency's Chief Scientist 
in the early 1990s, and look forward eagerly to joining the team again, 
if confirmed. During the past fifteen years, while my primary work has 
centered on science education, I have been able to stay abreast of 
developments in the Earth sciences--and here I use that term broadly, 
to include oceanography and the atmospheric sciences. My assignments as 
an oceanography officer during 18 years in the U.S. Navy Reserve, and 
my service on the National Science Board and Pew Oceans Commission have 
been especially valuable in this regard.
    The Assistant Secretary for Environmental Observation and 
Prediction is the person responsible for making sure that the American 
people get the best result from NOAA's investments in the satellites 
and other observation systems that allow us to forecast weather and 
climate conditions, as well as to predict other changes in our oceans 
and atmosphere. This is a responsibility that I take quite seriously 
and, if confirmed, I look forward to working closely with the Congress 
to execute this important function.
    I thank you for your consideration of my nomination and the 
opportunity to address this committee. I look forward to any questions 
you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Kathryn D. Sullivan (Kathy).

    2. Position to which nominated: Assistant Secretary of Commerce, 
Environmental Observation and Prediction.
    3. Date of Nomination: January 5, 2011.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: The Ohio State University, 1810 College Road, Columbus, 
        OH 43210.

    5. Date and Place of Birth: October 3, 1951; Paterson, NJ.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
    Never married; no children.
    7. List all college and graduate degrees. Provide year and school 
attended.

        B.S. (1973), University of California, Santa Cruz.

        Ph.D. (1978), Dalhousie University (Halifax, Nova Scotia, 
        Canada).

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Graduate Fellowships, Dalhousie University, Halifax, Nova 
        Scotia (1973-1975) and National Research Council, Canada, 
        (1975-1978), Halifax, Nova Scotia.

        Relevant work: Marine geology and geophysics research 
        expeditions.

        1978-1993: NASA Mission Specialist Astronaut, Johnson Space 
        Center, Houston, TX.

        Relevant assignments: Mission Manager, WB-57F high-altitude 
        research aircraft program (1979-1981); Mission Lead & Co-
        Investigator, Shuttle Imaging Radar-B flight experiment, STS-
        41G (1983-1984); Payload Commander, ATLAS-1 Atmospheric 
        Sciences Spacelab flight, STS-45 (1990-1992).

        Chief Scientist, NOAA (1993-1996), Washington, D.C.

        Oceanography Officer, U.S. Navy Reserve (1988-2007).

        Relevant assignments: Tactical sensor operational performance 
        predictions, ONR TAC 206 and CTF-66 (1988-1989); Executive 
        Officer and Commanding Officer, NORA 1570 (meteorological and 
        oceanographic services training unit), NAS Dallas (1989-1993); 
        Environmental sensor and models research portfolio assessment, 
        SPAWAR 0466/Naval Research Laboratory (1993-1996).

        President and CEO, COSI (Center of Science and Industry), 
        Columbus, OH (President and CEO, 1996-2005; Science Advisor 01/
        2006-11/2006).

        Relevant work: executive leadershipand supervision; strategic 
        planning; annual operating plans and budgets; internal business 
        process improvements; communications and marketing; stakeholder 
        relationships; informal science education.

        Director, Battelle Center for Mathematics and Science Education 
        Policy, John Glenn School of Public Affairs, Ohio State 
        University (2006 to present).

        Corporation Member, Woods Hole Oceanographic Institution (1996 
        to present).

        Relevance: This non-governing affiliation with WHOI has helped 
        me maintain a current knowledge of ocean sciences, especially 
        with ocean observing vehicles and technologies.

        National Science Board (2004-2010).

        Relevance: Programmatic and budgetary matters coming before the 
        board have helped me maintain a current knowledge of 
        observation, monitoring and research programs and technology 
        developments in fields ranging from atmospheric and ocean 
        sciences to high-performance computing.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        Governor's Institute on Creativity and Innovation in Education: 
        advisory panel on program design, State of Ohio (2008-2009).

        Int'l Education Advisory Council, Ohio (2008-2010).

        Ohio's GI Promise Council (2008-2010).

        Purdue University INSPIRE Program Advisory Council (2010 to 
        present).

        Smurfit Graduate School of Business, North American Advisory 
        Board (2004 to present).

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        K.D. Sullivan Enterprises LLC (Sole proprietor, 2005 to 
        present).

        N951AG LLC (An LLC established in 2006 to hold title to my 
        airplane. I am sole proprietor.)

        American Electric Power (director, 1997 to present).

        Noblis (trustee, 2000 to present).

        Waterfire Columbus (Chair, 2005 to present).

        Net Jets Family Foundation (Trustee, 2007 to present).

        ris DC (restaurant; passive investor, 2008 to present).

        Pizzuti Companies (science and technology advisor, Exploration 
        Park project, Kennedy Space Center, FL, 2007 to present).

        American Association for the Advancement of Science (Trustee, 
        Feb. 2004-Feb. 2008; Section Officer, Feb. 2009 to present).

        Rolex (Consultant; April 2008-November 2008).

        21st Editions (Consultant; Oct. 2007-Oct. 2008)

        The Taylor Companies (Advisor; 2008 to present).

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Worthington Hills Country Club (2008 to present).

        The Lakes Country Club (1999 to present).

        Ohio State University Faculty Club (2006 to present).

        The Capital Club (1996-2008; 2-year board term).

        *Girl Scouts USA (1983 to present; gender restriction).

        American Association for the Advancement of Science (1981 to 
        present; board term 2004-2008).

        The Woods Hole Oceanographic Inst. Corporation (1997 to 
        present).

        The Association of the United States Navy (1988 to present).

        The Smithsonian Institution (1998 to present; estimated).

        COSI Columbus (Member 1996-2008; President and CEO 1996-2005; 
        Science Advisor 2005-2006).

        Explorers Club of New York (1981 to present).

        *Society of Woman Geographers (1981 to present; gender 
        restriction).

        *Women in Aviation, Int'l (2008 to present; gender 
        restriction).

        Amer. Inst. Aeronautics and Astronautics (1978 to present).

        The Planetary Society (1982 to present; board term 2000-2003).

        Assoc. of the U.S. Navy (formerly Naval Reserve Assoc.; 1988 to 
        present).

        Sea-Space Symposium (1987 to present).

        Assoc. of Space Explorers (1991 to present).

        *Int'l Women's Forum (1993 to present; gender restriction).

        Univ. Calif. Santa Cruz Alumni Association (1996 to present).

        Sigma Xi (1989 to present).

        The Ravines at Worthingridge Condo Assoc. (1996 to present).

        Assoc. of Science and Technology Centers (1996-2005; board term 
        1997-2001).

        Friends of Long Marine Laboratory (2009 to present).

        Giant Screen Theater Association (1996-2005; board term 1999-
        2003.

        Association of Science and Technology Centers (1996-2006; board 
        term 1998-2001).

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    No political or election-related offices held.
    Paula L. Brooks for Representative campaign 2010: $1,500.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Dalhousie University Graduate Fellowship (1973-1976).

        Nat'l Research Council of Canada Research Fellowship (1976-
        1978).

        Women Aviators Hall of Fame (2010).

        Explorers Medal, Explorers Club of New York (2007).

        Aerospace Legends Hall of Fame, Aviation Week and Space 
        Technology (2005).

        Astronaut Hall of Fame (2004).

        Leader in Space Science, Adler Planetarium (2004).

        National Science Board Public Service Award (2003).

        Juliette Award for Women of Distinction, Girl Scouts USA 
        (2002).

        Ohio Women's Hall of Fame (2002).

        Ohio Veteran's Hail of Fame (2001).

        YWCA Women of Achievement (1985, 2001)

        Lone Sailor Award, U.S. Navy Memorial Foundation (1997).

        NASA Medal for Outstanding Leadership (1992).

        NASA Exceptional Service Medal (1988, 1991).

        NASA Space Flight Medal (1984, 1991, 1992).

        Vic Prather Award (American Astronautical Society, 1992).

        Haley Space Flight Medal (American Institute of Aeronautics and 
        Astronautics, 1990).

        National Air and Space Museum Trophy (1985).

        Ten Outstanding Young Americans Award, U.S. Jaycees (1987).

        Ten Outstanding Young People of the World, Jaycees Int'l 
        (1987).

        Woman Divers Hall of Fame (2008).

        Women in Aviation Pioneer Hall of Fame (2010).

        Honorary Degrees:

                Kent State University (2002).

                Ohio Dominican College (1998).

                Stevens Institute of Technology (1992).

                State University of New York, Utica (1991).

                Dalhousie University (1985).

    15. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        Generative Leadership: Shaping New Futures for Today's Schools 
        (in press), K. Klimek, E. Ritzenhein and K. D. Sullivan. Corwin 
        Press (in press, April 2008).

        Women Leading the Way: Reflections on Life and Leadership 
        (2005), The Academy for Leadership and Governance, Columbus 
        Ohio.

        America's Living Oceans: Charting a Course for Sea Change 
        (2003), Pew Oceans Commission final report.

        A Glimpse of Home (2002), Time Magazine Special Report on the 
        Environment (August 26 edition, A4-A5).

        Technology and the City's Future (1997), Mayoral Task Force 
        Report, City of Columbus (Co-Chair and lead author).

        The Atmospheric Laboratory for Applications and Science-1: A 
        Shuttle Mission (1992), with M.R. Torr; EOS, Transactions of 
        the American Geophysical Union.

        Geography Reaches New Heights: An Astronaut's View of Earth 
        (1991), ``Update,'' National Geographic Society, Washington, 
        D.C.

        Earth Observations During Space Shuttle Flight STS-31: The 
        Earth from 600 Kilometers (1991), with Evans et al; Geocarto 
        International 6(3), 99-112.

        Pioneering the Space Frontier (1986), Report of the National 
        Commission on Space; Bantam Books, NY.

        Geology of the Venus Lowlands: Guinevere and Sedna Planitia 
        (1984), with J.W. Head; Lunar and Planetary Science Conference 
        Proceedings, Houston, Texas.

        Elysium Planitia, Mars: Regional Geology, Volcanology and 
        Evidence for Volcano/Ground-Ice Interactions (1984), with P. 
        Mouginis-Mark; Earth, Moon and Planets 30, 149-173.

        The Newfoundland Basin: Ocean-Continent Boundary and Mesozoic 
        Seafloor Spreading History (1983); Earth and Planetary Science 
        Letters 62, 321-339.

        Radar and Infrared Remote Sensing of Geothermal Features at 
        Pilgrim Springs, Alaska (1982), with K.G. Dean, R.B. Forbes, 
        D.L. Turner and F.D. Eaton; Remote Sensing of Environment 12, 
        391-405.

        The Potential for Manned Earth Observations in the Space 
        Shuttle Era (1979), International Union of Geodesy and 
        Geophysics, 17th General Assembly, Canberra, Australia.

        The Structure and Composition of the Linear Volcanic Chains of 
        the Western North Atlantic (1979), with R. Houghton; Hawaii 
        Symposium on Intra-Plate Volcanism, Hilo, Hawaii.

        Geologist in Space (1979), in: GEOS, Dept, Energy, Mines and 
        Resources, Ottawa, Canada, 5-7.

        On the Nature of the Crust in the Vicinity of the Southeast 
        Newfoundland Ridge (1978), with C.E. Keen; Canadian Journal of 
        Earth Sciences 15(9), 1462-1471.

        Mesozoic Evolution of the Newfoundland Basin (1977), with C.E. 
        Keen and B.R. Hall; Earth and Planetary Science Letters, 37, 
        307-320.

        Newfoundland Seamounts: Petrology and Geochemistry (1977), with 
        C.E. Keen; Geological Association of Canada, Special Paper 16, 
        461-476.

        Deep-Drill Investigations of the Oceanic Crust in the North 
        Atlantic (1975), with F. Aumento; in: Geodynamics of Iceland & 
        the North Atlantic, NATO Advanced Study Institute, Reykjavik, 
        83-104.

    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    1993: Senate Commerce Committee, Confirmation Hearing for NOAA 
Chief Scientist position.
    17. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    Many aspects of my background and prior employment qualify me for 
this position. Broadly stated, these include my academic preparation in 
the Earth sciences, my operational experience in scientific field 
expeditions, spaceflight operations and operational environmental 
forecasting for the U.S. Navy, my prior federal service with both NASA 
and NOAA and the scientific and technical currency I've been able to 
retain through my National Science Board service. I wish to serve now 
because I believe I can contribute substantively to the success of one 
of NOAA's most vital missions, namely providing the nation and the 
world with trustworthy, reliable, timely and accurate information 
(measurements, analyses, predictions) about the state of Earth's oceans 
and atmosphere.
    18. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed, I would bear responsibility for ensuring that all 
programs and operations are planned, budgeted and executed following 
approved policies and procedures, and that proper program management 
and accounting controls are in place and functioning properly. I 
believe my experiences at COSI and on public company boards prepare me 
well for this responsibility. I led COSI through the most substantial 
transformation in the organization's history. This involved joint (with 
the State of Ohio) ownership of and responsibility for the design and 
construction of a $125 million new facility and included budget 
development and execution, construction management and permitting of 
the site's environmental condition plus the all of the building's 
safety and operating systems. In addition, essentially every one of 
COSI's internal business processes had to be redesigned, including 
budget and finance, the IT architecture and applications, and guest 
service operations. My public company board experience, which has 
included service on audit, finance and nuclear oversight committees, 
gives me sound understanding of how to implement and evaluate effective 
executive processes in much larger organizations.
    19. What do you believe to be the top three challenges facing the 
department/agency, and why?

        1. Environmental satellite systems: Major system transitions 
        are affecting NOAA's polar and geosynchronous satellite systems 
        at the same time. The challenges are myriad, including 
        requirements migration, contracting issues, data continuity, 
        inter-calibration and program execution (to name just a few). 
        These are difficult challenges to meet under any circumstances, 
        and the challenge will be compounded by current budget 
        realities.

        2. Fleet and aircraft modernization programs: This will involve 
        a large capital investment in systems that are critical to 
        NOAA's ability to fulfill its mission mandates. The classic 
        challenges in such endeavors include assuring the requirements 
        have been well-defined, crafting an effective blend of the 
        innovative and the reliable in meeting the requirements, sound 
        acquisition management and rigorous program and budget 
        management.

        3. The data deluge: NOAA is responsible for architectural 
        definition, procurement and reliable operation of the large 
        data systems (and systems of systems) needed to store, process, 
        archive and make available to users the vast amounts of data 
        produced by today's global observing systems and modeling 
        centers.

                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    COSI retirement account balances: Some monies remain invested in 
mutual funds through the COSI Columbus retirement plan. No 
contributions have been made to these accounts since 2006, and none 
will be made during my federal service.
    AEP deferred compensation balances: Two unfunded memo accounts 
record the amounts due to me from AEP upon termination of my board 
service. The value of one memo account tracks securities in the JP 
Morgan 401k program open to all AEP employees. The value of the other 
memo account tracks AEP stock. Each of these accounts will pay out in 
annual installments over 5 years, following termination of my board 
service.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    No, except as described in response to question 5 below.
    2. Have you ever been investigated, arrested, charged, or held by 
any federal, state, or other law enforcement authority of any federal, 
state, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    As a large corporation, AFT has been routinely involved in such 
proceedings. I am aware of the following litigation to which AEP has 
been a party during my tenure as a member of the company's Board of 
Directors, some of which named me in my official capacity:
    In late 2002 and early 2003, class action lawsuits alleging 
securities violations were filed in the U.S. District Court for the 
Southern District of Ohio, against AEP, certain AEP executives, and in 
some of the lawsuits, members of the AEP Board of Directors and certain 
investment banking firms. The lawsuits claimed that AEP failed to 
disclose that alleged ``round trip'' electric power trades resulted in 
an overstatement of revenues, that AEP failed to disclose that AEP 
traders falsely reported energy prices to trade publications that 
published gas price indices, and that AEP failed to disclose that it 
did not have in place sufficient management controls to prevent round 
trip trades or false reporting of energy prices. In September 2004, the 
Court dismissed all claims in all of these cases. No adverse findings 
of any kind were made against any of the defendants.
    Also in the fourth quarter of 2002, two shareholder derivative 
actions were filed in state court in Columbus, Ohio, against AEP and 
its Board of Directors alleging a breach of fiduciary duty for failure 
to establish and maintain adequate internal controls over AEP's gas 
trading operation. These cases were dismissed in November 2004 after 
the related securities law cases were dismissed in federal court. 
Again, no adverse findings of any kind were made against any of the 
defendants.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain.
    Yes. In the 1995-97 timeframe, a NOAA employee named me as an 
additional party in a discrimination action brought against then-NOAA 
Administrator D. James Baker. I was interviewed by DOC Counsel's office 
personnel on several occasions, but never deposed nor subpoenaed. I 
believe the action was dropped, with no adverse findings against me.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                     resume of kathryn d. sullivan
    Director, Battelle Center for Mathematics and Science Education 
Policy--The John Glenn School of Public Affairs, Ohio State University

    Leads the formulation of the inaugural program plan for this new 
center, intended to catalyze changes in science education that will 
better equip young Americans for 21st century life. Established by a 
major gift in 2005, the Center will build a portfolio of scholarly 
research, service and public outreach activities that helps 
policymakers and community stakeholders identify actions to improve the 
quality of educational outcomes in science, technology, engineering and 
mathematics across the pre-K to college range.
Prior Experience
    Science Advisor, COSI Columbus (2005-2006)

    Represented COSI regionally and nationally on matters of science 
and education policy; assisted the President and CEO with programmatic 
and funding strategies.

    President and CEO, COSI (1996-2005)

    Provided transformative executive leadership to this 501(c)3 hands-
on science education enterprise, which serves nearly 900,000 people 
annually throughout Ohio and surrounding states. COSI's celebrated 
products and services include more than 100,000 square feet of 
interactive science exhibits in downtown Columbus, a nationally 
renowned ``COSI On Wheels'' outreach program serving over 250,000 
annually in Ohio and surrounding states, an award-winning inquiry-based 
electronic education programs--including interactive live surgeries--
delivered to schools across the U.S. and the nation's first (and still 
largest) overnight Camp-In program.

    Oversaw final design and construction of $125 million new facility, 
delivering an on-time/under-budget opening in November, 1999. Played 
pivotal roles in driving private sector fundraising campaign to $45.6 
million, more than $10 million above the original target. Re-engineered 
the organization in concert with the building program, establishing the 
first formal development and retail marketing functions and re-
structuring the Board of Trustees. Conceived of and led the development 
and launch of COSI Academy, a first-of-a-kind program providing high 
school students with professional research opportunities and mentors 
from area research and technology firms, and Inquiry Learning for 
Schools (ILS), a statewide professional development program. Developed 
innovative new community partnerships, including the co-location of 
WOSU public television within COSI, presentation of international 
traveling art and science exhibitions and collaborative marketing, 
ticketing and educational programs with area arts organizations.

    Served major civic roles as a leading advisor and advocate on 
science, technology and education programs and policy. Chaired 
Governor's Aerospace & Defense Advisory Council and the BRAC (Base Re-
alignment & Closure) subcommittee. Typically addressed 150-200 
audiences annually, ranging from grade school students to leaders of 
Fortune 500 companies.

    Chief Scientist, National Oceanic and Atmospheric Administration 
(1992-1996).

    Nominated by both the Bush and Clinton administrations, confirmed 
in May 1993. Oversaw planning, budget and productivity of approximately 
$500 million research and technology portfolio covering a broad 
spectrum of earth and ocean sciences and technology. Led senior 
interagency working groups that produced Presidential Decision 
Directives promulgating new U.S. environmental technology export policy 
and converging military and civilian environmental satellite programs 
into today's National Polar Orbiting Environmental Satellite System.

    NASA Mission Specialist Astronaut (1978-1993).

    Veteran of three Shuttle missions, with over 500 hrs in space. 
Mission Manager and in-flight scientist aboard NASA's high-altitude WB-
57F aircraft (1979-1981). Chief of the Astronaut Office's Mission 
Development Branch (1990-1991). Appointed in 1985 to the Presidential 
National Commission on Space. NASA awards and commendations include 
Medal for Outstanding Leadership, Exceptional Service Medal (twice) and 
Spaceflight Medal (three times), plus numerous group and personal 
achievement awards.

    Spaceflight experience: STS-41G (Challenger, 1984).

    First American woman to walk in space, performing an orbital 
refueling engineering demonstration. Lead astronaut for a suite of 
Earth remote sensing experiments, including the SIR-B synthetic 
aperture radar; Co-Investigator on SIR-B experiments. STS-31 
(Discovery, 1990): EVA (space walk) specialist for Hubble Space 
Telescope deployment mission; leading role 1985-1990 developing over 97 
specialized tools and dozens of procedures needed for Hubble on-orbit 
repair and servicing. STS-45 (Atlantis, 1992): Payload Commander for 
ATLAS-1 earth and atmospheric sciences Spacelab mission; led four-
person scientific crew through all aspects of training, mission 
preparation and flight operations.

    Naval Reserve (1988 to present).

    Direct commission into Oceanography program (1805) and designation 
as Naval Astronaut (Specialist) in April 1988. Key posts held include 
Commanding Officer, NORA 1570 (NAS Dallas, 1990-1992) and Commanding 
Officer SPAWAR 0466 (Washington, D.C. 1996-1997). Active duty 
assignments have included Mediterranean anti-submarine warfare 
operations, environmental support to the Persian Gulf Theater during 
Operation Desert Storm, joint-service exercises aboard USS Kitty Hawk 
and R&D program management. Awards include the Navy Commendation Medal, 
National Defense Service Medal and Overseas Service Ribbon. Current 
rank: Captain.
Education
        Ph.D. (Geology), Dalhousie University, Nova Scotia, 1978
        B.S. (Honors, Earth Sciences), U.C. Santa Cruz, 1973
Honors and Awards
        Explorers Medal, Explorers Club of New York (2007)

        AW&ST Aerospace Legends Hall of Fame (Aviation Week & Space 
        Technology, 2005)

        Astronaut Hall of Fame (2004)

        Leader in Space Science, Adler Planetarium (2004)

        National Science Board Public Service Award (2003)

        Girl Scouts USA Juliette Award for Women of Distinction (2002)

        Ohio Women's Hall of Fame (2002)

        Ohio Veteran's Hall of Fame (2001)

        Lone Sailor Award, U.S. Navy Memorial Foundation (1997)

        NASA Medal for Outstanding Leadership (1992)

        NASA Exceptional Service Medal (1988, 1991)

        NASA Space Flight Medal (1984, 1991, 1992)

        Vic Prather Award (American Astronautical Society, 1992)

        Haley Space Flight Medal (American Institute of Aeronautics and 
        Astronautics, 1990)

        National Air and Space Museum Trophy (1985)

        Ten Outstanding Young Americans Award, U.S. Jaycees (1987)

        Ten Outstanding Young People of the World, Jaycees 
        International (1987)

        Honorary Degrees:

                Kent State University (2002)

                Ohio Dominican College (1998)

                Stevens Institute of Technology (1992)

                State University of New York, Utica (1991)

                Dalhousie University (1985)
Key Boards and Committees

        National Science Board (Vice Chair, 2006-2008)

        American Association for the Advancement of Science (AAAS)

        Wood's Hole Oceanographic Institution

        American Electric Power

        Noblis

        Pew Oceans Commission (2000-2003)

        Giant Screen Theaters Association (2001-2004)

        Advisory Committee, Federal Commission for the Centennial of 
        Flight (2000-2003)

        Ohio Aerospace & Defense Council (Chair, 2002-2003; BRAC 
        Subcommittee 2003)
Memberships and Affiliations

        American Association for the Advancement of Science (Fellow)

        American Institute of Aeronautics and Astronautics (Fellow)

        Association of Space Explorers

        The Explorer's Club (Lowell Thomas Medalist)

        Society of Woman Geographers (Gold Medallist)

        Naval Reserve Association (Life Member)

        Girl Scouts USA (Life Member)
Personal Data

        Certified SCUBA diver

        Licensed Private pilot (power and glider)

        Fluent in French and Norwegian; functional in German, Swedish, 
        Danish

        Hobbies: SCUBA diving, dabbling at golf, flying, reading.
Selected Speeches and Appearances

        American Electric Power

        Anderson Consulting

        Bermuda Underwater Exploration Institution

        Cunard Line

        CNN

        Discovery Tours (American Museum of Natural History)

        Honda America Research & Development

        Huntington National Bank

        KPMG

        Kent State University

        Lindblad Expeditions

        National Science Board

        Ohio Manufacturer's Association

        The Ohio State University

        Silversea Cruises

        St. Bonaventure University

        University of California, San Diego

        University of California, Santa Cruz

        WBNS 10TV (Columbus, Ohio)

        World Economic Forum
Publications

        ``Generative Leadership: Shaping New Futures for Today's 
        Schools'' With Karl J. Klimek and Elsie Ritzenhein. Corwin 
        Press (2008).

        ``Women Leading the Way: Reflections on Life and Leadership'' 
        (2005), The Academy for Leadership & Governance, Columbus Ohio.

        ``America's Living Oceans: Charting a Course for Sea Change'' 
        (2003), Pew Oceans Commission final report.

        ``A Glimpse of Home'' (2002), Time Magazine Special Report on 
        the Environment (August 26 edition, A4-A5).

        ``Technology and the City's Future'' (1997), Task Force Report 
        prepared for Columbus Mayor Greg Lashutka (Co-Chair and lead 
        author).

        The Atmospheric Laboratory for Applications and Science-1: A 
        Shuttle Mission (1992), with M.R. Torr; EOS, Transactions of 
        the American Geophysical Union.

        Geography Reaches New Heights: An Astronaut's View of Earth 
        (1991), In: Update, National Geographic Society, Washington, 
        D.C.

        Earth Observations During Space Shuttle Flight STS-31: The 
        Earth from 600 Kilometers (1991), with Evans et al; Geocarto 
        International 6(3), 99-112.

        Geology of the Venus Lowlands: Guinevere and Sedna Planitia 
        (1984), with J.W. Head; Lunar and Planetary Science Conference 
        Proceedings, Houston, Texas.

        Elysium Planitia, Mars: Regional Geology, Volcanology and 
        Evidence for Volcano/Ground-Ice Interactions (1984), with P. 
        Mouginis-Mark; Earth, Moon and Planets 30, 149-173.

        The Newfoundland Basin: Ocean-Continent Boundary and Mesozoic 
        Seafloor Spreading History (1983); Earth and Planetary Science 
        Letters 62, 321-339.

        Radar and Infrared Remote Sensing of Geothermal Features at 
        Pilgrim Springs, Alaska (1982), with K.G. Dean, R.B. Forbes, 
        D.L. Turner and F.D. Eaton; Remote Sensing of Environment 12, 
        391-405.

        The Potential for Manned Earth Observations in the Space 
        Shuttle Era (1979), International Union of Geodesy and 
        Geophysics, 17th General Assembly, Canberra, Australia.

        The Structure and Composition of the Linear Volcanic Chains of 
        the Western North Atlantic (1979), with R. Houghton; Hawaii 
        Symposium on Intra-Plate Volcanism, Hilo, Hawaii.

        Geologist in Space (1979), in: GEOS, Dept, Energy, Mines and 
        Resources, Ottawa, Canada, 5-7.

        On the Nature of the Crust in the Vicinity of the Southeast 
        Newfoundland Ridge (1978), with C.E. Keen; Canadian Journal of 
        Earth Sciences 15(9), 1462-1471.

        Mesozoic Evolution of the Newfoundland Basin (1977), with C.E. 
        Keen and B.R. Hall; Earth and Planetary Science Letters, 37, 
        307-320.

        Newfoundland Seamounts: Petrology and Geochemistry (1977), with 
        C.E. Keen; Geological Association of Canada, Special Paper 16, 
        461-476.

        Deep-Drill Investigations of the Oceanic Crust in the North 
        Atlantic (1975), with F. Aumento; in: Geodynamics of Iceland & 
        the North Atlantic, NATO Advanced Study Institute, Reykjavik, 
        83-104.

    The Chairman. Thank you very much, Dr. Sullivan.
    And, Dr. Gulland.

            STATEMENT OF DR. FRANCES M.D. GULLAND, 
           MEMBER-DESIGNATE, MARINE MAMMAL COMMISSION

    Dr. Gulland. Chairman Rockefeller, Ranking Member 
Hutchison, members of the Committee, I am deeply honored to be 
nominated by President Obama to serve as a Member of the Marine 
Mammal Commission, and I am also honored to appear before you 
today and address any questions that you may have.
    As a veterinarian, I took an oath to dedicate my 
professional life to the care of animals, including marine 
mammals, so it really is a true and special privilege to be 
considered for this position.
    I was born in England and grew up in Italy, where my father 
worked for the United Nations in international fisheries 
management. He was a founding member of the International 
Whaling Commission's Scientific Committee, so from an early age 
I was exposed to the sometimes competing demands of fisheries 
management and whale conservation. My father instilled in me a 
sense of duty and taught me the value of science-based policy 
in resource management. My mother received one of the first 
degrees awarded to women from the University of Cambridge, and 
she taught me the values of education, respect, and dignity.
    Both my parents have since passed away, but they would have 
been immensely proud to see me here today as a nominee for the 
Marine Mammal Commission. I hope to continue to apply the 
values and principles I learned from my parents to the 
conservation of marine mammals for this country.
    I trained as a veterinarian at the University of Cambridge, 
where I also completed a Ph.D. in zoology. After working at the 
Zoological Society of London, I moved to the United States in 
1994 and became a citizen in 2006. Since 1994, I have worked as 
the Director of the Veterinary Science program at the Marine 
Mammal Center, which is a private NGO in California dedicated 
to the veterinary care of marine mammals, and also to research 
and education. There I have witnessed firsthand the changes in 
marine mammal health over the past two decades, as the Center 
has treated more than 10,000 sick and injured marine mammals 
during my employment.
    In addition to my work as a clinical veterinarian, I have 
conducted research into the factors impacting the health of 
marine mammals, such as pollutants and increasing harmful algal 
blooms or red tides. There I have also supervised students and 
collaborated with scientists from multiple disciplines at a 
variety of universities and from several state and federal 
agencies, particularly those at NOAA and the Department of the 
Interior. This has really taught me the value of 
interdisciplinary investigations and the need for innovative 
approaches to understand the current and future changes in our 
marine ecosystems.
    I have also served on federal and state advisory teams, 
including the recovery teams for the Hawaiian monk seal and the 
southern sea otter, the California Oiled Wildlife Care Network, 
and California's new Ocean Protection Council. I have served as 
a scientific advisor to the Marine Mammal Commission since 
2000.
    Serving on these advisory teams has strengthened my 
understanding of the factors that pose risks to marine mammals 
and their ecosystems, and the complex scientific, social and 
economic issues that must be addressed to ensure their 
conservation.
    Many of the risk factors that threaten marine mammals, 
including environmental contamination and bioaccumulation of 
harmful chemicals, also pose significant risks to human health, 
and thus warrant additional research so we can understand and 
minimize their potential impacts.
    The Marine Mammal Protection Act created the legal 
framework for addressing these threats as they pertain to 
marine mammals and, more generally, for conserving their 
ecosystems.
    I would be truly honored to serve as a Commissioner to 
further the goals and policies of this Act, and work with the 
administration and Congress, as well as scientists, industries, 
conservationists, students and the public, to ensure that 
marine mammals are conserved for future generations.
    Solutions will require collaboration from a broad cross 
section of society, as well as an understanding of the need to 
balance the increasing demands of human populations and 
globalization with ecosystem conservation. One of the greatest 
challenges that the Marine Mammal Commission is facing is 
working with the appropriate agencies to coordinate and 
integrate scientific management activities to conserve marine 
mammals while still allowing sustainable use of marine 
resources.
    I believe that I have the experience, knowledge and 
commitment to serve the Marine Mammal Commission in these 
challenging times. If confirmed, I would serve the Commission 
and our nation to the very best of my abilities.
    Again, thank you for the honor of appearing before you, and 
I would be pleased to address any questions.
    [The prepared statement and biographical information of Dr. 
Gulland follows:]

   Prepared Statement of Dr. Frances M.D. Gulland, Member-Designate, 
                        Marine Mammal Commission
    Chairman Rockefeller, Ranking Member Hutchison, and members of the 
Committee, I am deeply honored to have been nominated by President 
Obama to serve as a Member of the Marine Mammal Commission, and I also 
am honored to appear before you to discuss my nomination and to address 
your questions. As a veterinarian, I took an oath to dedicate my 
professional life to the care of animals including marine mammals, so 
it is a true and special privilege to be considered for this position.
    I was born in England and grew up in Italy, where my father worked 
for the United Nations in international fisheries management. He was a 
founding member of the International Whaling Commission's Scientific 
Committee, so from an early age I was exposed to the sometimes 
competing demands of fisheries management and whale conservation. My 
father instilled in me a sense of duty and taught me the value of 
science-based policy and resource management. My mother received one of 
the first degrees awarded to women from the University of Cambridge, 
and she taught me the values of education, respect, and dignity. Both 
my parents have passed away, but they would have been immensely proud 
to see me here today as a nominee for the Marine Mammal Commission. I 
hope to continue to apply the values and principles I learned from my 
parents to the conservation of marine mammals.
    I trained as a veterinarian at the University of Cambridge, where I 
also completed a Ph.D. in zoology. Thus, I combined my fascination and 
life-long interest in medicine with scientific research in mammalian 
ecology. I view the latter to be an essential foundation for conserving 
mammals. After working at the Zoological Society of London as a surgeon 
and field researcher, I moved to the United States in 1994 and became a 
citizen in 2006. Since 1994, I have worked as the Director of the 
Veterinary Science program at The Marine Mammal Center, a private 
nongovernmental organization dedicated to the veterinary care of marine 
mammals, research, and education. I have witnessed first hand the 
changes in marine mammal health over the past two decades, as the 
Center has treated more than 10,000 sick and injured marine mammals 
during my employment. In addition to my work as a clinical 
veterinarian, I have conducted research into the factors impacting the 
health of marine mammals, such as pollutants and increasing harmful 
algal blooms. To conduct these studies I have supervised students and 
collaborated with scientists at a number of universities and from 
several state and federal agencies, particularly those in the 
Departments of Commerce and the Interior. To carry out my studies, I 
have collaborated with scientists from multiple disciplines, such as 
oceanography, toxicology, epidemiology, ecology, and marine mammal 
biology. This research has deepened my understanding of the impacts of 
changes in coastal waters on marine mammal health and disease, 
including cancer and impaired reproduction resulting from increasing 
red tides and pollutants. It also has taught me the value of 
interdisciplinary investigations and the need for innovative approaches 
to understand current and future changes in marine ecosystems.
    I have served on federal and state advisory teams including the 
recovery teams for the Hawaiian monk seal and the southern sea otter, 
the Oiled Wildlife Care Network established by the California 
Department of Fish and Game, and the California Ocean Protection 
Council, which was created under California's Ocean Protection Act to 
coordinate activities of state agencies with ocean-related 
responsibilities. I have served as a scientific advisor to the Marine 
Mammal Commission since 2000. Serving on these advisory teams has 
strengthened my understanding of the factors that pose risks to marine 
mammals and marine ecosystems and the complex scientific, social, and 
economic issues that must be addressed to ensure their conservation.
    As human populations expand and globalization continues, the 
demands on marine resources and the impacts on the marine environment 
are ever increasing. Marine mammals, both as populations and 
individuals, are valuable indicators of the health of our marine 
ecosystems in ways that are sometimes obvious, such as whales lacerated 
by the propellers of large ships or animals entangled and dead in 
fishing gear, or more subtle, such as animals sickened by the toxins of 
harmful algal blooms. Many of the risk factors that threaten marine 
mammals, including environmental contamination and bioaccumulation of 
harmful chemicals, also pose significant risks to human health and 
warrant additional research so that we can understand and minimize the 
potential impacts.
    The Marine Mammal Protection Act created a legal framework for 
addressing these threats as they pertain to marine mammals and, more 
generally, for conserving marine mammals and their ecosystems. I would 
be honored to serve as a Commissioner to further the goals and policies 
of this Act and work with the administration and Congress, as well as 
scientists, industries, conservationists, students, and the public, to 
ensure that marine mammals are conserved for future generations. 
Solutions will require collaboration from a broad cross-section of 
society, as well as an understanding of the need to balance the demands 
of increasing human populations and globalization with ecosystem 
conservation. One of the greatest challenges for the Marine Mammal 
Commission is working with the appropriate agencies to coordinate and 
integrate scientific and management activities to conserve marine 
mammals while allowing sustainable use of marine resources.
    I believe that I have the experience, knowledge, and commitment to 
serve the Marine Mammal Commission well in these challenging times. If 
confirmed, I would serve the Commission, and our nation, to the very 
best of my abilities. Again, thank you for the honor of appearing 
before you. I would be pleased to address any questions the Committee 
may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Frances Mary Dorothea Gulland.

    2. Position to which nominated: Commissioner, Marine Mammal 
Commission.
    3. Date of Nomination: 5 January 2011.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 2000 Bunker Road, Sausalito, CA 94965.

    5. Date and Place of Birth: 25 February 1960; Ditchingham, United 
Kingdom (UK).
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Andrew James Draper, Engineer, MWH (Montgomery Watson 
        Harza), Sacramento, California.

    7. List all college and graduate degrees. Provide year and school 
attended.

        1991, Ph.D. University of Cambridge, UK.

        1986, M.A. University of Cambridge, UK.

        1984, Vet. M.B., University of Cambridge, UK.

        1981, B.A. Natural Sciences, University of Cambridge, UK.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        1994 to present--Director of Veterinary Services, The Marine 
        Mammal Center, Sausalito, CA, USA (managerial position).

        1993--Research assistant. Serengeti Rabies Project, Tanzania.

        1992-1993--Research Fellow in Wildlife Diseases, Zoological 
        Society of London, UK.

        1988-1991--Graduate student, University of Cambridge, UK.

        1985-1988--House Surgeon, Zoological Society of London, UK.

        1984-1985--House Surgeon, Royal School Veterinary Medicine, 
        Edinburgh, UK.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with federal, state, or local governments, other 
than those listed above, within the last 5 years.

        2008 to present--Science Adviser, California Ocean Protection 
        Council.

        2006 to present--Member, Advisory Board for California's Oiled 
        Wildlife Care Network.

        2004-2008--Chair, Southern Sea Otter Recovery Implementation 
        Team.

        2000 to present--Member, Committee of Scientific Advisors on 
        Marine Mammals, Marine Mammal Commission.

        1998 to present--Working Group on Unusual Marine Mammal 
        Mortality Events, National Marine Fisheries Service, 1998-2000, 
        Member; 2001-2005 Chair, 2006 to present, Emeritus member.

        2001 to present--Member, Hawaiian Monk Seal Recovery Team.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years: None.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Member, Wildlife Disease Association, 1993 to present.

        Member, International Association for Aquatic Animal Medicine, 
        1995 to present, (President 2001-2002).

        Member, Society for Marine Mammalogy, 1998 to present.

        Member, American Association of Zoo Animal Veterinarians.

    None of these organizations restrict membership on the basis of 
sex, race, color, religion, national origin, age, or handicap.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period: None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
    Society of Marine Mammalogy award for scientific presentation, 
1999.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Reports

        Burek, K.A., F.M.D. Gulland, G. Sheffield, E. Keyes, T.R. 
        Spraker, A.W. Smith, D.E. Skilling, J. Evermann, J.L. Stott, 
        and A.W. Trites. 2003. Disease agents in Steller sea lions in 
        Alaska: A review and analysis of serology data from 1975-2000. 
        Fisheries Centre Research Reports, Vol. 11, No. 4, 26 pp.

        Gulland, F. 2000. Domoic acid toxicity in California sea lions 
        (Zalophus californianus) stranded along the central California 
        coast, May-October 1998, U.S. Department of Commerce NOAA 
        Technical Memorandum, NMFS-OPR, 17, 45 pp.

        Gulland, F., H.M. Perez-Cortes, J.R. Urban, L. Rojas-Bracho, G. 
        Ylitalo, J. Weir, S.A. Norman, M.M. Muto, D.J. Rugh, C. 
        Kreuder, and T. Rowles. 2005. Eastern North Pacific Gray Whale 
        (Eschrichtius robustus) Unusual Mortality Event, 19992000: A 
        Compilation. U.S. Department of Commerce. NOAA Technical 
        Memorandum NMFS-AFSC-150, 33 pp.

        Gulland, F.M.D. 2006. Review of the Marine Mammal Unusual 
        Mortality Event Response Program of the National Marine 
        Fisheries Service. U.S. Department of Commerce, NOAA Technical 
        Memorandum NMFS-OPR-33, 37 pp.
Books and Book Chapters

        Dierauf, L.A., and F.M.D. Gulland (eds.). 2001. CRC Handbook of 
        Marine Mammal Medicine, Second edition, CRC Press, Boca Raton, 
        FL, 1063 pp.

        Gulland, F.M.D., and A.J. Hall. 2005. The role of disease in 
        influencing status and trends. Pp. 47-62 in J. Reynolds, W. 
        Perrin, R. Reeves, S. Montgomery and T. Ragen (eds.), Marine 
        Mammal Research: Conservation Beyond Crisis. The John Hopkins 
        University Press. Baltimore, Maryland.

        Kim, K., A.P. Dobson, and F.M.D. Gulland. 2005. Diseases and 
        the Conservation of Marine Biodiversity. Pp. 149-166 in E.A. 
        Norse and L.B. Crowder (eds.) Marine Conservation Biology: The 
        Science of Maintaining the Sea's Biodiversity. Island Press, 
        Washington, D.C.

        Wilson, K., B.T. Grenfell, J.G. Pilkington, H.E.G. Boyd, and 
        F.M.D. Gulland. 2004. Parasites and their impacts. Pp. 113-165 
        in T.H. Clutton-Brock and J.M. Pemberton (eds.), Soay Sheep. 
        Dynamics and Selection in an Island Population. Cambridge 
        University Press, Cambridge, UK.

        Van Dolah, F.M., G.J. Doucette, F. Gulland, T. Rowles, and G. 
        Bossart. 2003. Impacts of algal toxins on marine mammals. Pp. 
        247-270 in J.G. Vos, G.D. Bossart, M. Fournier, and T. O'Shea 
        (eds.), Toxicology of Marine Mammals. Taylor & Francis, London.

        Gulland, F.M.D., L.A. Dierauf, and T.K. Rowles. 2001. Marine 
        Mammal Stranding Networks. Pp. 45-68 in L. Dierauf and F.M.D. 
        Gulland (eds.), CRC Handbook of Marine Mammal Medicine, Second 
        edition. CRC Press, Boca Raton, Florida.

        Gulland, F.M.D., L. Lowenstine, and T. Spraker. 2001. 
        Noninfectious Diseases. Pp. 521-550 in L. Dierauf and F.M.D. 
        Gulland (eds.) CRC Handbook of Marine Mammal Medicine, Second 
        edition. CRC Press, Boca Raton, Florida.

        Gulland, F.M.D., M. Haulena, and L. Dierauf. 2001. Seals and 
        Sea Lions. Pp. 907926 in L. Dierauf and F.M.D. Gulland (eds.), 
        CRC Handbook of Marine Mammal Medicine, Second edition. CRC 
        Press, Boca Raton, Florida.

        Gulland, F.M.D. 1998. Leptospirosis in marine mammals. Pp 469-
        471 in M. Fowler and R.E. Miller (eds.), Zoo and Wild Animal 
        Medicine. W.B. Saunders, Philadelphia, Pennsylvania.

        Gulland, F.M.D. 1995. Impact of infectious diseases on wild 
        animal populations--a review. Pp. 20-51 in B.T. Grenfell and 
        A.P. Dobson (eds.), Ecology of Infectious Diseases in Natural 
        Populations, Cambridge University Press, Cambridge, UK.

        Gulland, F.M.D., and C.M. Hawkey. 1990. Avian Haematology. Pp. 
        126-136 in C.S.G. Grunsell and M.E. Raw (eds.), The Veterinary 
        Annual. Butterworth, London.
Journal Articles

        Berman-Kowalewski, M., F.M.D. Gulland, S. Wilkin, J. 
        Calambokidis, B. Mate, J. Cordaro, D. Rotstein, J. St. Leger, 
        P. Collins, K. Fahy, and S. Dover. 2010. Association between 
        blue whale (Balaenoptera musculus) mortality and ship strikes 
        along the California Coast. Aquatic Mammals 36(1):59-66.

        Gill, S., T. Goldstein, D. Situ, T.S. Zabka, F.M.D. Gulland, 
        and R.W. Mueller. 2010. Cloning and characterization of 
        glutamate receptors in California sea lions (Zalophus 
        californianus). Marine Drugs 8(5):1637-1649.

        Dennison, S.E., F.M.D. Gulland, and W.E. Braselton. 2010. 
        Standardized protocols for plasma clearance of iohexol are not 
        appropriate for determination of glomerular filtration rates in 
        anesthetized California sea lions (Zalophus californianus). 
        Journal of Zoo and Wildlife Medicine 4:144-147.

        Jacobsen, J.K., L. Massey, and F. Gulland. 2010. Fatal 
        ingestion of floating marine debris by two sperm whales 
        (Physeter macrocephalus). Marine Pollution Bulletin 60:765-767.

        Nollens H.H., J.F.X. Wellehan, L. Archer, L.J. Lowenstine, and 
        F.M.D. Gulland. In Press. Detection of a respiratory 
        coronavirus during a pneumonia epizootic in free-ranging 
        Pacific harbor seals (Phoca vitulina richardsii). Diseases of 
        Aquatic Organisms.

        Levin, M., D. Joshi, A. Draghi, F.M.D. Gulland, D. Jessup, and 
        S. De Guise. 2010. Immunomodulatory effects upon in vivo 
        exposure of California sea lion and southern sea otter 
        peripheral blood leukocytes to domoic acid. Journal of Wildlife 
        Diseases 46:541-550.

        Lefebvre, K.A., A. Robertson, E.R. Frame, K.M. Colegrove, S. 
        Nance, K.A. Baugh, H. Weidenhoft, and F.M.D. Gulland. 2010. 
        Clinical signs and histopathology associated with domoic acid 
        poisoning in northern fur seals (Callorhinus ursinus) and 
        comparison of toxin detection methods. Harmful Algae 9:374-383.

        Lynn, B.L., C. Reichmuth, R.J. Schusterman, and F.M.D. Gulland. 
        2010. Filial imprinting in a Steller sea lion (Eumetopias 
        jubatus). Aquatic Mammals 36:79-83.

        Moore, M., M. Walsh, J. Bailey, D. Brunson, F. Gulland, S. 
        Landry, D. Mattila, C. Mayo, C. Slay, J. Smith, and T. Rowles. 
        2010. Sedation at sea of entangled North Atlantic right whales 
        (Eubalaena glacialis) to enhance disentanglement. PLOS One 5:1-
        9.

        Jang, S., L. Wheeler, R.B. Carey, B. Jensen, C.M. Crandall, 
        K.N. Schrader, D. Jessup, K. Colegrove, and F.M.D. Gulland. 
        2010. Pleuritis and suppurative pneumonia associated with a 
        hypermucoviscosity phenotype of Klebsiella pneumoniae in 
        California sea lions (Zalophus californianus). Veterinary 
        Microbiology 141:174-177.

        Thomas, K., J.T. Harvey, T. Goldstein, and F. Gulland. 2010. 
        Movement, dive behavior, and survival of California sea lions 
        (Zalophus californianus) posttreatment for domoic acid 
        toxicosis. Marine Mammal Science 26 (1):36-52.

        Ng, T.F.F., W.K. Suedmeyer, E. Wheeler, F. Gulland, and M. 
        Breitbart. 2009. Novel anellovirus discovered from a mortality 
        event of captive California sea lions. Journal of General 
        Virology 90:1256-1261.

        Montie, E.W., N. Pussini, G. Schneider, T.W.K. Battey, S. 
        Dennison, J. Barakos, and F. Gulland. 2009. Neuroanatomy and 
        volumes of brain structures of a live California sea lion 
        (Zalophus californianus) from magnetic resonance images. The 
        Anatomical Record 292:1523-1547.

        Colegrove, K.M., F.M.D. Gulland, D.K. Naydan, and L.J. 
        Lowenstine. 2009. Tumor morphology an immunohistochemical 
        expression of estrogen receptor, progesterone receptor, p53, 
        and Ki67 in urogenital carcinomas of California sea lions 
        (Zalophus californianus). Veterinary Pathology 46:642-655.

        Dau, B.K., K.V.K. Gilardi, F.M.D. Gulland, A. Higgins, J.B. 
        Holcomb, J. St.Leger, and M.H. Ziccardi. 2009. Fishing gear-
        related injury in California marine wildlife. Journal of 
        Wildlife Diseases 45(2):355-362.

        Zuerner, R.L, C. Cameron, S. Raverty, S. Robinson, K. 
        Colegrove, S. Norman, D. Lambourn, S. Jeffries, D.P. Alt, and 
        F.M.D. Gulland. 2009. Geographical dissemination of Leptospira 
        interrogans serovar Pomona during seasonal migration of 
        California sea lions. Veterinary Microbiology 137:105-110.

        Goldstein, T., T. Zabka, R. DeLong, L. Wheeler, G. Ylitalo, S. 
        Bargu, M. Silver, T. Leighfield, F. Van Dolah, G. Langlois, I. 
        Sidor, L. Dunn, and F.M.D. Gulland. 2009. The role of domoic 
        acid in abortion and premature parturition of California sea 
        lions (Zalophus californianus) on San Miguel Island, 
        California. Journal of Wildlife Diseases 45:91-108.

        Colegrove, K.M., F.M.D. Gulland, K. Harr, D.K. Naydan, and L.J. 
        Lowenstine. 2009. Pathological features of amyloidosis in 
        stranded California sea lions (Zalophus californianus). Journal 
        of Comparative Pathology 140:105-112.

        Zabka, T.S., T. Goldstein, C. Cross, R.W. Mueller, C. Kreuder-
        Johnson, S. Gill, and F.M.D. Gulland. 2009. Characterization of 
        a degenerative cardiomyopathy associated with domoic acid 
        toxicity in California sea lions (Zalophus californianus). 
        Veterinary Pathology 46:105-119.

        Torres de la Riva, G., C. Kreuder Johnson, F.M.D. Gulland, G.W. 
        Langlois, J.E. Heyning, T.K. Rowles, and J.A.K. Mazet. 2009. 
        Association of an unusual marine mammal mortality event with 
        Pseudo-nitzschia spp. blooms along the southern California 
        coastline. Journal of Wildlife Diseases 45(1):109-121.

        Green, J.A., M. Haulena, I.L. Boyd, D., Calkins, F. Gulland, 
        A.J. Woakes, and P.J. Butler. 2009. Trial implantation of heart 
        rate data loggers in pinnipeds. Journal of Wildlife Management 
        73: 115-121.

        Stoddard, R.A., E.R. Atwill, P.A. Conrad, B.A. Byrne, S. Jang, 
        J. Lawrence, B. McCowan, and F.M.D. Gulland. 2009. The effects 
        of rehabilitation of northern elephant seals (Mirounga 
        angustirostris) on antimicrobial resistance of commensal 
        Escherichia coli. Veterinary Microbiology 133:264-271.

        Dennison, S.E., L. Forrest, and F.M.D. Gulland. 2009. Normal 
        thoracic radiographic anatomy of immature California sea lions 
        (Zalophus californianus) and immature northern elephant seals 
        (Mirounga angustirostris). Aquatic Mammals 35 (1):36-42.

        Nollens, H.H., C. Ruiz, M.T. Walsh, F.M.D. Gulland, G. Bossart, 
        E.D. Jensen, J.F. McBain, and J.F.X. Wellehan. 2008. Cross-
        reactivity between Immunoglobin G antibodies of whales and 
        dolphins correlates with evolutionary distance. Clinical and 
        Vaccine Immunology 15(10):1547-1554.

        Norman, S.A., R.F. DiGiacomo, F.M.D. Gulland, J.S. Meschke, and 
        M.S. Lowry. 2008. Risk factors for an outbreak of leptospirosis 
        in California sea lions (Zalophus californianus) in California, 
        2004. Journal of Wildlife Diseases 44(4):837-844.

        Stoddard, R.A., E.R. Atwill, F.M.D. Gulland, M.A. Miller, H.A. 
        Dabritz, D.M. Paradies, K.R. Worcester, S. Jang, J. Lawrence, 
        B.A. Byrne, and P.A. Conrad. 2008. Risk factors for infection 
        with pathogenic and antimicrobial-resistant fecal bacteria in 
        northern elephant seals in California. Public Health Reports 
        123:360-370.

        Stoddard, R.A., R.L. DeLong, B.A. Byrne, S. Jang, and F.M.D. 
        Gulland. 2008. Prevalence and characterization of Salmonella 
        spp. among marine animals in the Channel Islands, California. 
        Diseases of Aquatic Organisms 81:5-11.

        Holmes, A.L., S.S. Wise, C.E.C. Goertz, J.L. Dunn, F.M.D. 
        Gulland, T. Gelatt, K.B. Beckmen, K. Burek, S. Atkinson, M. 
        Bozza, R. Taylor, T. Zheng, Y. Zhang, A.-M. Aboueissa, and J.P. 
        Wise, Sr. 2008. Metal tissue levels in Steller sea lion 
        (Eumetopias jubatus) pups. Marine Pollution Bulletin 56:1416-
        1421.

        Gulland, F.M.D., F. Nutter, K. Dixon, J. Calambokidis, G. 
        Schorr, J. Barlow, T. Rowles, S. Wilkin, T. Spradlin, L. Gage, 
        J. Mulsow, C. Reichmuth, M. Moore, J. Smith, P. Folkens, S.F. 
        Hamer, S. Jang, and C.S. Baker. 2008. Health assessment, 
        antibiotic treatment, and behavioral responses to herding 
        efforts of a cow-calf pair of humpback whales (Megaptera 
        novaeangliae) in the Sacramento River Delta, California. 
        Aquatic Mammals 34(2):182-192.

        Sarran, D., D.J. Greig, C.A. Rios, T.S. Zabka, and F.M.D. 
        Gulland. 2008. Evaluation of aqueous humor as a surrogate for 
        serum biochemistry in California sea lions (Zalophus 
        californianus). Aquatic Mammals 34(2):157-165.

        Hall, A.J., F.M.D. Gulland, G.M. Ylitalo, D.J. Greig, and L.J. 
        Lowenstine. 2008. Changes in blubber contaminant concentrations 
        in California sea lions (Zalophus californianus) associated 
        with weight loss and gain during rehabilitation. Environmental 
        Science and Technology 42(11):4181-4187.

        Burek, K.A., F.M.D. Gulland, and T.M. O'Hara. 2008. Effects of 
        climate change on arctic marine mammal health. Ecological 
        Applications 18(2):S126-134.

        Cameron, C.E., R.L. Zuerner, S. Raverty, K.M. Colegrove, S.A. 
        Norman, D.M. Lambourn, S.J. Jeffries, and F.M.D. Gulland. 2008. 
        Detection of pathogenic Leptospira bacteria in pinniped 
        populations via PCR and identification of a source of 
        transmission for zoonotic leptospirosis in the marine 
        environment. Journal of Clinical Microbiology 46(5):1728-1733.

        Fauquier, D.A., J.A.K. Mazet, F.M.D. Gulland, T.R. Spraker, and 
        M.M. Christopher. 2008. Distribution of tissue enzymes in three 
        species of pinnipeds. Journal of Zoo and Wildlife Medicine 
        39(1):1-5.

        Hunt, T.D., M.H. Ziccardi, F.M.D. Gulland, P.K. Yochem, D.W. 
        Hird, T. Rowles, and J.A.K. Mazet. 2008. Health risks for 
        marine mammal workers. Disease of Aquatic Organisms 81:81-92.

        Nollens, H.H., F.M.D. Gulland, E.R. Jacobson, J.A. Hernandez, 
        P.A. Klein, M.T. Walsh, and R.C. Condit. 2008. In vitro 
        susceptibility of sea lion poxvirus to cidofovir. Antiviral 
        Research 80:77-80.

        MacLean, R.A., D. Imai, C. Dold, M. Haulena, and F.M.D. 
        Gulland. 2008. Persistent right aortic arch and cribiform plate 
        aplasia in a northern elephant seal (Mirounga angustirostris). 
        Journal of Wildlife Diseases 44(22):499-504.

        Petrauskas, L., S. Atkinson, F. Gulland, J. Mellish, and M. 
        Horning. 2008. Monitoring glucocorticoid response to 
        rehabilitation and research procedures in California and 
        Steller sea lions. Journal of Experimental Zoology 309A:73-82.

        Yochem, P.K., F. Gulland, B.S. Stewart, M. Haulena, J. Mazet, 
        and W.M. Boyce. 2008. Thyroid function testing in elephant 
        seals in health and disease. General and Comparative 
        Endocrinology 155:627-632.

        Goldstein, T., J.A.K. Mazet, T.S. Zabka, G. Langlois, K.M. 
        Colegrove, M. Silver, S. Bargu Ates, F. Van Dolah, T. 
        Leighfield, P.A. Conrad, J. Barakos, D.C. Williams, S. 
        Dennison, M.A. Haulena, and F.M.D. Gulland. 2008. Novel 
        symptomatology and changing epidemiology of domoic acid 
        toxicosis in California sea lions (Zalophus californianus): an 
        increasing risk to marine mammal health. Proceedings of the 
        Royal Society B 275:267-276.

        Bejarano, A.C., F.M. Van Dolah, F.M.D. Gulland, T.K. Rowles, 
        and L.H. Schwacke. 2008. Production and toxicity of the marine 
        biotoxin domoic acid and its effects on wildlife: a review. 
        Human and Ecological Risk Assessment 14:544-567.

        Dennison, S., M. Haulena, D.C. Williams, J. Dawson, B.S. 
        Yandell, and F.M.D. Gulland 2008. Determination of a sedative 
        protocol for use in California sea lions (Zalophus 
        californianus) with neurologic abnormalities undergoing 
        electroencephalographic examination. Journal of Zoo and 
        Wildlife Medicine 39(4):542-547.

        Lloyd-Smith, J.0., D.J. Greig, S. Hietala, G.S. Ghneim, L. 
        Palmer, J. St. Leger, B.T. Grenfell, and F.M.D. Gulland. 2007. 
        Cyclical changes in seroprevalence of leptospirosis in 
        California sea lions: endemic and epidemic disease in one host 
        species? BMC Infectious Disease 7:125.

        Moore, M., G. Early, K. Touhey, S. Barco, F. Gulland, and R. 
        Wells. 2007. Rehabilitation and release of marine mammals in 
        the United States: risks and benefits. Marine Mammal Science 
        23(4):731-750.

        Gulland, F.M.D., and A.J. Hall. 2007. Is marine mammal health 
        deteriorating? EcoHealth 4:135-150.

        Stoddard, R.A., W.G. Miller, J.E. Foley, J. Lawrence, F.M.D. 
        Gulland, P.A. Conrad, and B.A. Byrne. 2007. Campylobacter 
        insulaenigrae isolates from northern elephant seals (Mirounga 
        angustirostris) in California. Applied and Environmental 
        Microbiology 73(6):1729-1735.

        Bejarano, A.C., F.M. VanDolah, F.M. Gulland, and L. Schwacke. 
        2007. Exposure assessment of the biotoxin domoic acid in 
        California sea lions: Application of a bioenergetic model. 
        Marine Ecology Progress Series 345:293-304.

        Buckles, E.L., L.J. Lowenstine, R.L. DeLong, S.R. Melin, R.K. 
        Vittore, H. Wong, G.L. Ross, J.A. St Leger, D.J. Greig, R.S. 
        Duerr, F.M.D. Gulland, and J.L. Stott. 2007. Age-prevalence of 
        otarine herpesvirus-1, a tumor-associated virus, and 
        possibility of its sexual transmission in California sea lions. 
        Veterinary Microbiology 120:1-8.

        Dennison, S., F. Gulland, M. Haulena, H. De Morais, and K. 
        Colegrove. 2007. Urate nephrolithaisis in a northern elephant 
        seal (Mirounga angustirostris) and a California sea lion 
        (Zalophus californianus). Journal of Zoo and Wildlife Medicine 
        38(1):114120.

        Goldstein, T., L.J. Lowenstine, T.P. Lipscomb, J.A.K. Mazet, J. 
        Novak, J.L. Stott and F.M.D. Gulland. 2007. Identification of a 
        gamma herpesviral infection in northern elephant seals 
        (Mirounga angustirostris). Journal of Wildlife Diseases 
        42(4):830-835.

        Greig, D.J., K.L. Mashburn, M. Rutishauser, F.M.D. Gulland, 
        T.M. Williams, and S. Atkinson. 2007. Seasonal changes in 
        circulating progesterone and estrogen concentrations in the 
        California sea lion (Zalophus californianus). Journal of 
        Mammalogy 88(1):67-72.

        Greig, D.J., G.M. Ylitalo, A.J. Hall, D.A. Fauquier, and F.M.D. 
        Gulland. 2007. Transplacental transfer of organochlorines in 
        California sea lions (Zalophus californianus). Environmental 
        Toxicology and Chemistry 26(1):37-44.

        Acevedo-Whitehouse, K., T.R. Spraker, E. Lyons, S.R. Melin, F. 
        Gulland, R.L. Delong, and W. Amos. 2006. Contrasting effects of 
        heterozygosity on survival and hookworm resistance in 
        California sea lion pups. Molecular Ecology 15(7):19731982.

        Aldridge, B.M., L. Bowen, B.R. Smith, G.A. Antonelis, F. 
        Gulland, and J.L. Stott. 2006. Paucity of class 1 MHC gene 
        heterogeneity between individuals in the endangered Hawaiian 
        monk seal population. Immunogenetics 58(2-3):203-215.

        Bowen, L., B.M. Aldridge, R. DeLong, S. Melin, C. Godinez, A. 
        Zavala, F. Gulland, L. Lowenstine, J.L. Stott, and M.L. 
        Johnson. 2006. MHC gene configuration variation in 
        geographically disparate populations of California sea lions 
        (Zalophus californianus). Molecular Ecology 15(2):529-533.

        El-Zein, R.A., D.A. Hastings-Smith, M.M. Ammenheuser, M. 
        Treinen-Moslen, F.M.D. Gulland, and J.B. Ward, Jr. 2006. 
        Evaluation of two different biomarkers for use in the 
        assessment of toxic chemical exposure in California sea lions 
        (Zalophus californianus). Marine Pollution Bulletin 52(1):108-
        113.

        Stapleton, H.M., N.G. Dodder, J.R. Kucklick, C.M. Reddy, M.M. 
        Schantz, P.R. Becker, F. Gulland, B.J. Porter, and S.A. Wise. 
        2006. Determination of HBCD, PBDEs and MeO-BDEs in California 
        sea lions (Zalophus californianus) stranded between 1993 and 
        2003. Marine Pollution Bulletin 52(5):522-531.

        Zagzebski, K., F.M.D. Gulland, M. Haulena, M. Lander, D.J. 
        Greig, L. Gage, B.M. Hanson, P.K. Yochem, and B. Stewart. 2006. 
        Twenty-five years of rehabilitation of odontocetes stranded in 
        central and northern California, 1977 to 2002. Aquatic Mammals 
        32(3):334-345.

        Buckles, E.L., F.M.D. Gulland, B.M. Aldridge, T.S. Gelatt, P.S. 
        Ross, M. Haulena, and L.J. Lowenstine. Fetus in Fetu in a 
        harbor seal (Phoca vitulina richardi): Histopathologic, 
        genetic, and toxicologic analysis. Veterinary Pathology 43:541-
        544.

        Brodie, E., F.M.D. Gulland, D.J. Greig, M. Hunter, J. Jaakola, 
        J. St Leger, T.A. Leighfield, and F.M. Van Dolah. 2006. Domoic 
        acid causes reproductive failure in California sea lions 
        (Zalophus californianus). Marine Mammal Science 22(3):700707.

        Buckles, E.L., L.J. Lowenstine, C. Funke, R.K. Vittore, H.-W. 
        Wong, J.A. St Leger, D.J. Greig, R.S. Duerr, F.M.D. Gulland, 
        and J.L. Stott. 2006. Otarine herpesvirus-1, not 
        papillomavirus, is associated with endemic tumours in 
        California sea lions (Zalophus californianus). Journal of 
        Comparative Pathology 135:183-189.

        Haulena, M., F.M.D. Gulland, J.A. Lawrence, D.A. Fauquier, S. 
        Jang, B. Aldridge, T. Spraker, L.C. Thomas, D.R. Brown, L. 
        Wendland, and M.K. Davidson. 2006. Lesions associated with a 
        novel mycoplasma sp. in California sea lions (Zalophus 
        californianus) undergoing rehabilitation. Journal of Wildlife 
        Diseases 42(1):40-45.

        Goldstein, T., F.M.D. Gulland, R.C. Braun, G.A. Antonelis, L. 
        Kashinsky, T.K. Rowles, J.A.K. Mazet, L.M. Dalton, B.M. 
        Aldridge, and J.L. Stott. 2006. Molecular identification of a 
        novel gamma herpesvirus in the endangered Hawaiian monk seal 
        (Monachus schauinslandi). Marine Mammal Science 22(2):465-471.

        Johnson, S., L. Lowenstine, F. Gulland, S. Jang, D. Imai, F. 
        Almy, R. DeLong, and I. Gardner. 2006. Aerobicbacterial flora 
        of the vagina and prepuce of California sea lions (Zalophus 
        californianus) and investigation of associations with 
        urogenital carcinoma. Veterinary Microbiology 114:94-103.

        Nollens, H.H., F.M.D. Gulland, J.A. Hernandez, R.C. Condit, 
        P.A. Klein, M.T. Walsh, and E.R. Jacobson. 2006. 
        Seroepidemiology of parapoxvirus infections in captive and 
        free-ranging California sea lions (Zalophus californianus.) 
        Diseases of Aquatic Organisms 69:153-161.

        Nollens, H.H., F.M.D. Gulland, E.R. Jacobson, J.A. Hernandez, 
        P.A. Klein, M.T. Walsh, and R.C. Condit. 2006. Parapoxviruses 
        of seals and sea lions make up a distinct Glade within the 
        genus Parapoxvirus. Virology 349:316-324.

        Nollens, H.H., E.R. Jacobson, F.M.D. Gulland, D.O. Beusse, G.D. 
        Bossart, J.A. Hernandez, P.A. Klein, and R.C. Condit. 2006. 
        Preliminary characterization of a parapoxvirus isolated from a 
        California sea lion (Zalophus californianus). Journal of 
        Wildlife Diseases 42(1):23-32.

        Zabka, T.S., M. Haulena, B. Puschner, F.M.D. Gulland, P. 
        Conrad, and L.J. Lowenstine. 2006. Acute, fatal lead toxicosis 
        in a harbor seal (Phoca vitulina richardsi) consequent to 
        ingestion of a lead fishing sinker. Journal of Wildlife 
        Diseases 42(3):651-657.

        Zagzebski, K.A., F.M.D. Gulland, M. Haulena, M.E. Lander, D.J. 
        Greig, L. Gage, M.B. Hanson, P.K. Yochem, and B.S. Stewart. 
        2006. Twenty-five years of rehabilitation of odontocetes 
        stranded in central and northern California, 1977 to 2002. 
        Aquatic Mammals 32(3):334-345.

        Nollens, H.H., J.A. Hernandez, E.R. Jacobson, M. Haulena, and 
        F.M.D. Gulland. 2005. Risk factors associated with poxvirus 
        lesions in hospitalized California sea lions (Zalophus 
        californianus). Journal of the American Veterinary Medical 
        Association 227:467-473.

        Stoddard R.A., F.M.D. Gulland, E.R. Atwill, J. Lawrence, S. 
        Jang, and P.A. Conrad. 2005. Salmonella and Campylobacter spp. 
        in northern elephant seals, California. Emerging Infectious 
        Diseases 11:1967-1969.

        Burek, A., F.M.D. Gulland, G. Sheffield, K.B. Beckmen, E. 
        Keyes, T.R. Spraker, A.W. Smith, D.E. Skilling, J.F. Evermann, 
        J.L. Stott, J.T. Saliki, and A.W. Trites. 2005. Infectious 
        disease and decline of Steller sea lions (Eumetopias jubatus) 
        in Alaska, USA: Insight from serological data. Journal of 
        Wildlife Diseases 41(3):512524.

        Conrad, P.A., M.A. Miller, C. Kreuder, E.R. James, J. Mazet, H. 
        Dabritz, D.A. Jessup, F. Gulland, and M.E. Griggs. 2005. 
        Transmission of Toxoplasma: clues from the study of sea otter 
        as sentinels of Toxoplasma gondii flow into the marine 
        environment. International Journal for Parasitology 35:1155-
        1168.

        Kelly, T.R., D. Greig, K.M. Colegrove, L.J. Lowenstine, M. 
        Dailey, F.M. Gulland, and M. Haulena. 2005. Megastrongyloid 
        nematode (Otostrongylus circumlitus) infection in a stranded 
        California sea lion (Zalophus californianus)--a new host-
        parasite association. Journal of Wildlife Diseases 41(3):593-
        598.

        McKnight, C.A., T.L. Reynolds, M. Haulena, A. deLahunta, and 
        F.M.D. Gulland. 2005. Congenital anomaly in a stranded Pacific 
        harbor seal (Phoca vitulina richardsi). Journal of Wildlife 
        Diseases 41(3):654-658.

        Colegrove, K.M., L.J. Lowenstine, and F.M.D. Gulland. 2005. 
        Leptospirosis in northern elephant seals (Mirounga 
        angustirostris) stranded along the California coast. Journal of 
        Wildlife Diseases 41:426-430.

        Silvagni, P.A., L.J. Lowenstine, T. Spraker, T.P. Lipscomb, and 
        F.M. Gulland. 2005. Pathology of domoic acid toxicity in 
        California sea lions (Zalophus californianus). Veterinary 
        Pathology 42(2):184-191.

        Lander, M.E., M. Haulena, F.M.D. Gulland, and J.T. Harvey. 2005 
        Implantation of subcutaneous radio transmitters in the harbor 
        seal (Phoca vitulina). Marine Mammal Science 21(1):154-161.

        Bowen, L., B.M. Aldridge, R. DeLong, S. Melin, E.L. Buckles, F. 
        Gulland, L.J. Lowenstine, J. Stott, and M.L. Johnson. 2005. An 
        immunogenetic basis for the high prevalence of urogenital 
        cancer in a free-ranging population of California sea lions 
        (Zalophus californianus). Immunogenetics 56:846-848.

        Debier, K., G.M. Ylitalo, M. Weise, F. Gulland, D.P. Costa, 
        B.J. LeBoeuf, T. deTillesse, and Y. Larondelle. 2005. PCBs and 
        DDTs in the serum of juvenile California sea lions: 
        associations with vitamins A and E and thyroid hormones. 
        Environmental Pollution 134:323-332.

        Neale, J.C.C., K.R. Schmelzer, F.M.D. Gulland, E.A. Berg, and 
        R.S. Tjeerdema. 2005. Organohalogen levels in harbor seal 
        (Phoca vitulina) pups increase with duration of nursing. 
        Journal of Toxicology and Environmental Health, Part A, 68:687-
        691.

        Neale, J.C.C., F.M.D. Gulland, K.R. Schmelzer, J.T. Harvey, 
        E.A. Berg, S.G. Allen, D.J. Greig, E.K. Grigg, and R.S. 
        Tjeerdema. 2005. Contaminant loads and hematological correlates 
        in the harbor seal (Phoca vitulina) of San Francisco Bay, 
        California. Journal of Toxicology and Environmental Health, 
        Part A, 68:617-633.

        Goldstein, T., J.A.K. Mazet, L.J. Lowenstine, F.M.D. Gulland, 
        T. Rowles, D.P. King, B.M. Aldridge, and J.L. Stott. 2005. 
        Tissue Distribution of Phocine Herpesvirus-1 (PhHV-1) in 
        Infected harbour seals (Phoca vitulina) from the central 
        Californian coast and a comparison of diagnostic methods. 
        Journal of Comparative Pathology 133:175-183.

        Colegrove, K.M., D. Greig, and F.M.D. Gulland. 2005. Causes of 
        stranding of phocids (northern elephant seals (Mirounga 
        angustirostris) and Pacific harbor seals (Phoca vitulina)) 
        along the central California coast, 1992-2001. Aquatic Mammals 
        31(1):1-10.

        Ylitalo, G.M., J.E. Stein, T.E. Hom, L.J. Johnson, K.L. 
        Tilbury, A.J. Hall, T. Rowles, D. Greig, L.J. Lowenstine, and 
        F. Gulland. 2005. The role of organochlorines in cancer-
        associated mortality in California sea lions (Zalophus 
        californianus). Marine Pollution Bulletin 50:30-39.

        Greig, D.J., F.M.D. Gulland, and C. Kreuder. 2005. A decade of 
        live California sea lion (Zalophus californianus) strandings 
        along the central California coast: causes and trends, 1991-
        2000. Aquatic Mammals 31(1):40-51.

        Travecchia, G., T. Coulson, B.J.T. Morgan, J.M. Pemberton, J.C. 
        Pilkington, F.M.D. Gulland, and T.H. Clutton-Brock. 2005. 
        Predictors of reproductive cost in female Soay sheep. Journal 
        of Animal Ecology 74:201-213.

        Bowen L., B.M. Aldridge, F. Gulland, W. Van Bonn, R. DeLong, S. 
        Melin, L.J. Lowenstine, J.L. Stott, and M.L. Johnson. 2004. 
        Class II multiformity generated by variable MHC-DRB region 
        configurations in the California sea lion (Zalophus 
        californianus). Immunogenetics 56(1):12-27.

        Elson-Riggins, J.G., S.A. Riggins, F.M.D. Gulland, and E.G. 
        Platzer. 2004. Immunoglobulin responses of northern elephant 
        and Pacific harbor seals naturally infected with Otostrongylus 
        circumlitus. Journal of Wildlife Diseases 40(3):466-475.

        Fauquier, D., F.M.D. Gulland, M. Haulena, M. Dailey, R.L. 
        Rietcheck, and T.P. Lipscomb. 2004. Meningoencephalitis in two 
        stranded California sea lions (Zalophus californianus) caused 
        by aberrant trematode migration. Journal of Wildlife Disease 
        40(4):816-819.

        Acevedo-Whitehouse, K., H. de la Cueva, F.M.D. Gulland, D. 
        Aurioles-Gamboa, F. Arellano-Carbajal, and F. Suarez-Guemes. 
        2003. Evidence of Leptospira interrogans infection in 
        California sea lion pups from the Gulf of California. Journal 
        of Wildlife Diseases 39(1):145-151.

        Zabka, T.S., E.L. Buckles, F.M.D. Gulland, M. Haulena, D.K. 
        Naydan, and L.J. Lowenstine. 2003. Pleomorphic rhabdomyosarcoma 
        with pulmonary metastasis in a stranded Steller (northern) sea 
        lion (Eumetopias jubatus). Journal of Comparative Pathology 
        130:195-198.

        Fauquier, D.A., F. Gulland, M. Haulena, and T. Spraker. 2003. 
        Biliary adenocarcinoma in a stranded northern elephant seal 
        (Mirounga angustirostris). Journal of Wildlife Diseases 
        39(3):723-726.

        Duffield, D.A., N.B. Barros, E.O. Espinoza, S. Ploen, F.M.D. 
        Gulland, and J. Heyning. 2003. Identifying pygmy and dwarf 
        sperm whales (genus Kogia) using electrospray ionization mass 
        spectrometry of myoglobin and hemoglobin. Marine Mammal Science 
        19:395-399.

        Johnson, S.P., S. Jong, F.M.D. Gulland, M. Miller, D. Casper, 
        J. Lawrence, and J. Herrera. 2003. Characterization and 
        clinical manifestations of Arcanobacterium phocae infections in 
        marine mammals stranded along the central California coast. 
        Journal of Wildlife Diseases 39:136-144.

        Goldstein, T., F.M.D. Gulland, B. Aldridge, J.T. Harvey, T, 
        Rowles, D.M. Lambourn, S.J. Jeffries, L. Measures, P.K. Yochem, 
        B.S. Stewart, R.J. Small, D.P. King, J.L. Stott, and J.A.K. 
        Mazet. 2003. Antibodies to phocine herpesvirus-1 are common in 
        North American harbor seals (Phoca vitulina). Journal of 
        Wildlife Diseases 39(3):487-494.

        Hanni, K.D, J.A.K. Mazet, F.M.D. Gulland, J. Estes, M. 
        Staedler, M. Murray, M. Miller, and D.A. Jessup. 2003. Clinical 
        pathology and assessment of pathogen exposure in southern and 
        Alaskan sea otters. Journal of Wildlife Diseases 39(4):837850.

        Lander, M.E., J.T. Harvey, and F.M.D. Gulland. 2003. Hematology 
        and serum chemistry comparisons between free-ranging and 
        rehabilitated harbor seal (Phoca vitulina richardsi) pups. 
        Journal of Wildlife Diseases 39(3):600-609.

        Gulland, F.M.D., M. Haulena, D. Fauquier, G. Langlois, M.E. 
        Lander, T. Zabka, and R. Duerr. 2002. Domoic acid toxicity in 
        Californian sea lions (Zalophus californianus): clinical signs, 
        treatment and survival. Veterinary Record 150:475-480.

        King, D.P., M.C. Hure, T. Goldstein, B.M. Aldridge, F.M.D. 
        Gulland, J.T. Saliki, E.L. Buckles, L.J. Lowenstine, and J.L. 
        Stott. 2002. Otarine herpesvirus-1: a novel gammaherpesvirus 
        associated with urogenital carcinoma in California sea lions 
        (Zalophus californianus). Veterinary Microbiology 2277:131-137.

        Haulena, M., E. Buckles, F.M.D. Gulland, J.A. Lawrence, A. 
        Wong, S. Jang, M.M. Christopher, and L.J. Lowenstine. 2002. 
        Systemic mycosis caused by Scedosporium apiospermum in a 
        stranded Northern elephant seal (Mirounga angustirostris) 
        undergoing rehabilitation. Journal of Zoo and Wildlife Medicine 
        33(2):166-171.

        Bowen, L., B.M. Aldridge, F. Gulland, J. Woo, W. Van Bonn, R. 
        DeLong, J.L. Stott, and M.L. Johnson. 2002. Molecular 
        characterization of expressed DQA and DQB genes in the 
        California sea lion (Zalophus californianus). Immunogenetics 
        54:332347.

        Colagross-Schouten, A.M., J.A.K. Mazet, F.M.D. Gulland, M.A. 
        Miller, and S. Hietala. 2002. Diagnosis and seroprevalence of 
        leptospirosis in California sea lions from coastal California. 
        Journal of Wildlife Diseases 38:7-17.

        Larson, S.R., M. Haulena, C.B. Grindem, and F.M.D. Gulland. 
        2002. Blood values of juvenile northern elephant seals 
        (Mirounga angustirostris) obtained using a portable clinical 
        analyzer. Veterinary Clinical Pathology 31(2):106-110.

        Moore, S.E., J.R. Urban, W. Perryman, F. Gulland, H. Peres-
        Cortes, P. Wade, L. Rojas Bracho, and T. Rowles. 2001. Are gray 
        whales hitting ``K'' hard? Marine Mammal Science 17:954-958.

        Miller, M.A., K. Sverlow, P.R. Crosbie, B.C. Barr, L.J. 
        Lowenstine, F.M.D. Gulland, A. Packham, and P. Conrad. 2001. 
        Isolation and characterization of two parasitic protozoa from a 
        Pacific harbor seal (Phoca vitulina richardsi) with 
        meningoencephalitis. Journal of Parasitology 87:816-822.

        Lyons, E.T., S.R. Melin, R.L. DeLong, A.J. Orr, F.M.D. Gulland, 
        and S.C. Tolliver. 2001. Current prevalence of adult Uncinaria 
        spp. in northern fur seal (Callorhinus ursinus) and California 
        sea lion (Zalophus californianus) pups on San Miguel Island, 
        California, with notes on the biology of these hookworms. 
        Veterinary Parasitology 97:309-318.

        Kajiwara, N., K. Kaman, M. Muraoka, M. Watanabe, S. Takahashi, 
        F. Gulland, H. Olsen, A.L. Blankenship, P.D. Jones, S. Tanabe, 
        and J.P. Giesy. 2001. Organochlorine pesticides, 
        polychlorinated biphenyls, and butyltin compounds in blubber 
        and livers of stranded California sea lions, elephant seals, 
        and harbor seals from coastal California, USA. Archives of 
        Environmental Contamination and Toxicology 41:90-99.

        King, D.P., A.R. Lie, T. Goldstein, B.M. Aldridge, F.M.D. 
        Gulland, M. Haulena, M.A. Adkinson, L.J. Lowenstine, and J.L. 
        Stott. 2001. Humoral immune responses to phocine herpesvirus-1 
        in Pacific harbor seals (Phoca vitulina richardsii) during an 
        outbreak of clinical disease. Veterinary Microbiology 80:1-8.

        Dailey, M.D., F.M.D. Gulland, L.J. Lowenstine, P. Silvagni, and 
        D. Howard. 2000. Prey, parasites and pathology associated with 
        the mortality of a juvenile gray whale (Eschrichtius robustus) 
        stranded along the northern California coast. Diseases of 
        Aquatic Organisms 42:111-117.

        Gulland, F.M., M.K. Stoskopf, S.P. Johnson, J. Riviere, and 
        M.G. Papich. 2000. Amoxicillin pharmacokinetics in harbor seals 
        (Phoca vitulina) and northern elephant seals (Mirounga 
        angustirostris) following single dose intravenous 
        administration: implications for interspecific dose scaling. 
        Journal of Veterinary Pharmacology and Therapeutics 23:223-228.

        Lipscomb, T.P., D.P. Scott, R.L. Garber, A.E. Krafft, M.M. 
        Tsai, J.H. Lichy, J.K. Taubenberger, F.Y. Schulman, and F.M.D. 
        Gulland. 2000. Common metastatic carcinoma of California sea 
        lions (Zalophus californianus): Evidence of genital origin and 
        association with novel gammaherpesvirus. Veterinary Pathology 
        37:609-617.

        Lander, M.E., F.M.D. Gulland, and R.L. DeLong. 2000. Satellite 
        tracking a rehabilitated Guadelupe fur seal (Arctocephalus 
        townsendii). Aquatic Mammals 26:137-142.

        Scholin, C.A., F. Gulland, G.J. Doucette, S. Benson, M. Busman, 
        F.P. Chavez, J. Cordaro, R. DeLong, A. DeVogelaere, J. Harvey, 
        M. Haulena, K. Lefebvre, T. Lipscomb, S. Loscutoff, L.J. 
        Lowenstine, R. Marin, III, P.E. Miller, W.A. McLellan, P.D.R. 
        Moeller, C.L. Powell, T. Rowles, P. Silvagni, M. Silver, T. 
        Spraker, V. Trainer, and F.M. Van Dolah. 2000. Mortality of sea 
        lions along the central California coast linked to a toxic 
        diatom bloom. Nature 403:80-84.

        Lyons, E.T., R.L. DeLong, F.M.D. Gulland, S.R. Melin, S.C. 
        Tolliver, and T. Spraker. 2000. Comparative biology of 
        Uncinaria spp. in the California sea lion (Zalophus 
        californianus) and the northern fur seal (Callorhinus ursinus) 
        in California. Journal of Parasitology 86:1348-1352.

        Wilkinson, I.S., S.J. Childerhouse, P.J. Duignan, and F.M.D. 
        Gulland. 2000. Infanticide and cannibalism in the New Zealand 
        sea lion, Phocarctos hookeri. Marine Mammal Science 16:494-500.

        Haulena, M., F.M.D. Gulland, D.G. Calkins, and T.R. Spraker. 
        2000. Immobilization of California sea lions using medetomidine 
        plus ketamine with and without isoflurane and reversal with 
        atipamezole. Journal of Wildlife Diseases 36:124-130.

        Goldstein, T., S.P. Johnson, A.V. Phillips, K. Hanni, D.A. 
        Fauquier, and F.M.D. Gulland. 1999. Human related injuries 
        observed in live stranded pinnipeds along the central 
        California coast 1986-1998. Aquatic Mammals 25(1):43-51.

        Gulland, F.M.D., M. Haulena, L.J. Lowenstine, C. Munro, P.A. 
        Graham, J. Bauman, and J. Harvey. 1999. Adrenal function in 
        wild and rehabilitated Pacific harbor seals (Phoca vitulina 
        richardsii) and in seals associated with Phocine herpesvirus 
        associated adrenal necrosis. Marine Mammal Science 15:810-827.

        Gulland, F.M.D. 1999. Stranded seals: Important sentinels. 
        Journal of the American Veterinary Medicine Association 
        214:1191-1192.

        Gulland, F.M.D., M. Haulena, L. Gage, and S. Thornton. 1999. 
        Anesthesia of juvenile Pacific harbor seals using propofol 
        alone and in combination with isoflurane. Marine Mammal Science 
        15:234-238.

        Ham-Lamme, K.D., D.P. King, B.C. Taylor, C. House, D.A. Jessup, 
        S. Jeffries, P. Yochem, F.M.D. Gulland, D.A. Ferrick, and J.L. 
        Stott. 1999. The application of immuno-assays for serological 
        detection of morbillivirus exposure in free ranging harbor 
        seals (Phoca vitulina) and sea otters (Enhydra lutris) from the 
        western coast of the United States. Marine Mammal Science 
        15:601-608.

        Stevens, E., T.P. Lipscomb, and F.M.D. Gulland. 1999. An 
        additional case of leptospirosis in a harbor seal. Journal of 
        Wildlife Diseases 35:150.

        Lapointe, J.M., F.M.D. Gulland, D.M. Haines, B.C. Barr, and 
        P.J. Duignan. 1999. Placentitis due to Coxiella burnetti in a 
        Pacific harbor seal (Phoca vitulina richardsi). Journal of 
        Veterinary Diagnostic Investigations 11:541-543.

        King, D.P., R. Parselles, F.M.D. Gulland, J.M. LaPointe, L.J. 
        Lowentine, D.A. Ferrick, and J.L. Stott. 1998. Antigenic and 
        nucleotide characterization of a herpesvirus isolated from 
        Pacific harbor seals (Phoca vitulina richardsi). Archives of 
        Virology 143:1-7.

        Lapointe, J.M., P.J. Duignan, A.E. Marsh, F.M.D. Gulland, B.C. 
        Barr, D.K. Naydan, D.P. King, C. Farman, K.A. Burek Huntingdon, 
        and L.J. Lowenstine. 1998. Meningoencephalitis due to a 
        Sarcocystis neurona-like protozoan in Pacific harbor seals 
        (Phoca vitulina richardsi). Journal of Parasitology 84:1184-
        1189.

        Stamper, M.A., F.M.D. Gulland, and T. Spraker. 1998. 
        Leptospirosis in rehabilitated Pacific Harbor seals from 
        California. Journal of Wildlife Diseases 34:407-410.

        Thornton, S.M., S. Nolan, and F.M.D. Gulland. 1998. Bacterial 
        isolates from California sea lions (Zalophus californianus), 
        harbor seals (Phoca vitulina), and northern elephant seals 
        (Mirounga angustirostris) admitted to a rehabilitation center 
        along the central California coast, 1994-1995. Journal of Zoo 
        and Wildlife Medicine 29:171-176.

        Johnson, S.P., S. Nolan, and F.M.D. Gulland. 1998. Isolation 
        and antimicrobial susceptibility of bacteria from pinnipeds 
        stranded in central and northern California. Journal of Zoo and 
        Wildlife Medicine 29:288-294.

        Gulland, F.M.D., K. Beckmen, K. Burek, L. Lowenstine, L. 
        Werner, T. Spraker, and E. Harris. 1997. Otostrongylus 
        circumlitus infestation of northern elephant seals (Mirounga 
        angustirostris) stranded in central California. Marine Mammal 
        Science 13:446-459.

        Trupkiewicz, J.G., F.M.D. Gulland, and L.J. Lowenstine. 1997. 
        Congenital defects in northern elephant seals (Mirounga 
        angustirostris) stranded along the central California coast 
        1988-1995. Journal of Wildlife Diseases 33:220-225.

        Gulland, F.M.D., L.J. Lowenstine, J.M. Lapointe, T. Spraker, 
        and D.P. King. 1997. Herpesvirus infection in stranded Pacific 
        harbor seals of coastal California. Journal of Wildlife 
        Diseases 33:450-458.

        Gulland, F.M.D. 1997. The impact of parasites on wild animal 
        populations. Parassitologia 39:287-291.

        Fauquier, D.A., F.M.D. Gulland, J.G. Trupkiewicz, T.R. Spraker, 
        and L.J. Lowenstine. 1996. Coccidioidomycosis in free-living 
        California sea lions (Zalophus californianus) in central 
        California. Journal of Wildlife Diseases 32:707-710.

        Gulland, F.M.D., M. Koski, L.J. Lowenstine, A. Colagrass, L. 
        Morgan, and T. Spraker. 1996. Leptospirosis in California sea 
        lions (Zalophus californianus) stranded along the central 
        California coast, 1981-1994. Journal of Wildlife Diseases 
        32:572580.

        Gulland, F.M.D., J.G. Trupkiewicz, T.R. Spraker, and L.J. 
        Lowenstine. 1996. Metastatic carcinoma of probable transitional 
        cell origin in free-living California sea lions (Zalophus 
        californianus): 64 Cases (1979-1994). Journal of Wildlife 
        Diseases 32:250-258.

        Gulland, F.M.D., L. Werner, S. O'Neill, L. Lowenstine, J. 
        Trupkiewicz, D. Smith, B. Royal, and I. Strubel. 1996. Baseline 
        coagulation assay values for northern elephant seals (Mirounga 
        angustirostris), and the diagnosis of a case of disseminated 
        intravascular coagulation in this species. Journal of Wildlife 
        Diseases, 32:536-540.

        Grenfell, B.T., and Gulland, F.M.D. 1995. Introduction: 
        Ecological impact of parasitism on wildlife host populations. 
        Parasitology 111:S3-S14.

        Torgerson, P.R., J Pilkington, F.M.D. Gulland, and M.A. 
        Gemmell. 1995. Further evidence for long distance dispersal of 
        taeniid eggs. International Journal for Parasitology 25:265-
        267.

        Parada, L., P. Cabrera, C. Burges, A. Acuna, C. Barcelona, M.K. 
        Laurenson, F.M.D. Gulland, J. Agulla, S. Parietti, E. Paolillo, 
        and B. Botta. 1995. Echinococcus granulosus infections of dogs 
        in the Durazno region of Uruguay. Veterinary Record 136:389-
        391.

        Gasser, R.B., L. Parada, A. Acuna, C. Burgess, M.K. Laurenson, 
        F.M.D. Gulland. M.P. Reichel, and E. Paulillo. 1994. 
        Immunological assessment of exposure to Echinococcus granulosus 
        in a rural dog population in Uruguay. Acta Tropica 58:179185.

        Gulland, F.M.D. 1994. Wildlife situations. Veterinary 
        Parasitology 54:283-286.

        Gulland, F.M.D., S.D. Albon, J.M. Pemberton, P.R. Moorcroft, 
        and T.H. Clutton-Brock. 1993. Parasite-associated polymorphism 
        in a cyclic ungulate population. Proceedings of the Royal 
        Society of London Series B 254:7-13.

        Gulland, F.M.D. 1992. The role of nematode parasites in Soay 
        sheep (Ovis aries L.) mortality during a population crash. 
        Parasitology 105:493-503.

        Gulland, F.M.D., and M. Fox. 1992. Epidemiology of nematode 
        infections of Soay sheep (Ovis aries L.) on St Kilda. 
        Parasitology 105:481-492.

        Torgerson, P.R., F.M.D. Gulland, and M.A. Gemmell. 1992. 
        Observations on the epidemiology of Taenia hydatigena in Soay 
        sheep on St Kilda. Veterinary Record 131:218-219.

        Loudon, A.S.I., B.R. Brinklow, F.M.D. Gulland, J. Boyle, and 
        A.P.F. Flint. 1990. Roles of prolactin and the uterus in the 
        control of luteal regression in the Bennet's wallaby (Macropus 
        rufogriseus rufogriseus). Reproduction Fertility and 
        Development 2:71-78.

        Gulland, F.M.D., H.W. Reid, D. Buxton, J.C.M. Lewis, R.A. Kock, 
        and J.K. Kirkwood. 1989. Malignant catarrhal fever in a roan 
        antelope (Hippotragus equinus) at Regents Park. Veterinary 
        Record 124:42-43.

        Lewis, J.C.M., A.J. Fitzgerald, F.M.D. Gulland, C.M. Hawkey, P. 
        Kertesz, J.K. Kirkwood, and R.A. Kock. 1989. Observations on 
        the treatment of necrobacillosis in wallabies. British 
        Veterinary Journal 145:394-396.

        Kock, R.A., M. Jago, F.M.D. Gulland, and J.C.M. Lewis. 1989. 
        The use of Idazoxan and its analogue RX 821002A in zoo and wild 
        animals. Journal of the Association of Veterinary Anaesthetists 
        16:4-10.

        Gulland, F.M.D., K. Gebremeskel, G. Williams, and P.J.S. Olney. 
        1988. Plasma vitamins A and E, total lipid and cholesterol 
        concentrations in captive jackass penguins (Spheniscus 
        demersus). Veterinary Record 123:666-667.

        Hawkey, C.M., and F.M.D. Gulland. 1988. Haematology of 
        clinically normal and abnormal captive llamas (Lama glama) and 
        guanacoes (L. guanicoe). Veterinary Record 122:232-234.

        Henderson, G.M., F.M.D. Gulland, and C.M. Hawkey. 1988. 
        Hematologic findings in budgerigars with megabacterium and 
        trichomonas infections associated with ``going light.'' 
        Veterinary Record 123:492-494.

        Kirkwood, J.K., F.M.D. Gulland, J.R. Needham, and M.G. Vogler. 
        1988. Pharmacokinetics of oxytetracycline in clinical cases in 
        the red-necked wallaby (Macropus rufogriseus). Research in 
        Veterinary Science 44:335-337.

        Gulland, F.M.D., and P.C. Cowardine. 1987. Plasma metronidazole 
        levels in an Indian elephant (Elephus maximus) after rectal 
        administration. Veterinary Record 120:440.

        Gulland, F.M.D., D.L. Doxey, and G.R. Scott. 1987. The effects 
        of Eperythrozoon ovis in sheep. Research in Veterinary Science 
        43:85-87.

        Gulland, F M.D., D.L. Doxey, and G.R. Scott. 1987. Changing 
        morphology of Eperythrozoon ovis. Research in Veterinary 
        Science 43:88-91.

        Gulland, F.M.D., and R. Parsons. 1987. Clostridium glycolicum 
        in an addax. Veterinary Record 120:287.

        Kertesz, P., and F.M.D. Gulland. 1987. The surgical and 
        restorative dental treatment of a bactrian camel (Camelus 
        bactrianus). Journal of Zoo Animal Medicine 18:73-78.

        Gulland, F.M.D., J.C.M. Lewis, R.A. Kock, and J.K. Kirkwood. 
        1987. Vaccination against lumpy jaw in wallabies. Veterinary 
        Record 120:311.

        Pearce, P.C., G. Gustavo, F. Gulland, and J. Knight. 1985. 
        Immobilisation of a pygmy hippopotamus (Choeropsis 
        liberiensis). Journal of Zoo Animal Medicine 16:104-106.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have 17 years of experience working directly on the health of 
marine mammals as a veterinarian and am recognized as a leading expert 
on the health risks faced by wild, and to some extent, captive marine 
mammals. I have served on multiple federal advisory groups convened to 
study and make recommendations to promote the conservation of marine 
mammals and the ecosystems of which they are a part. I wish to serve on 
the Marine Mammal Commission so that I can strive to ensure that marine 
mammals are protected and conserved in accordance with the Marine 
Mammal Protection Act, particularly with regard to factors that pose 
risks to their health.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I would share responsibility with the other two Commissioners to 
oversee agency operations and would work closely with the Commission's 
Executive Director and General Counsel to ensure proper management and 
accounting controls are in place.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe the top three challenges facing the Commission are: (1) 
ensuring that the other federal agencies to which it makes 
recommendations have the information and tools necessary to meet their 
responsibilities to conserve marine mammals and key ecosystems, given 
increasing utilization of marine resources including pressures posed by 
fisheries, shipping, and oil and gas operations; (2) facilitating 
research needed to understand the impacts of climate change on marine 
mammals and to identify actions that can be taken to minimize those 
impacts; and (3) working with other agencies, state and tribal 
governments, the scientific community, and other stakeholders and 
interested parties to understand how local and regional changes in 
coastal waters, such as increasing harmful algal blooms, affect marine 
mammal health and how to mitigate those health risks.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Salary from The Marine Mammal Center, retirement plans with Valic 
and PayChex.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    I will continue to work for The Marine Mammal Center and to serve 
as an unpaid science advisor to the California Ocean Protection Council 
in accordance with the terms of my ethics agreement.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    My affiliations with The Marine Mammal Center and the California 
Ocean Protection Council, which have been addressed in an ethics 
agreement to avoid potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Marine Mammal Commission's designated agency ethics official to 
identify potential conflicts of interest. Any potential conflicts of 
interest will be resolved in accordance with the terms of an ethics 
agreement that I have entered into with the Commission's designated 
agency ethics official and that has been provided to this Committee.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of an ethics agreement that I have entered into with the 
Commission's designated agency ethics official and that has been 
provided to this Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any federal, state, or other law enforcement authority of any federal, 
state, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                resume of frances mary dorothea gulland
Education

        1991. Ph.D. University of Cambridge ``The role of parasites in 
        the population dynamics of Soay sheep on St. Kilda.''

        1986. M.A. University of Cambridge.

        1984. Vet. M.B., M.R.C.V.S. University of Cambridge.

        1981. B.A. Natural Sciences. University of Cambridge.
Employment

        1994 to present--Director of Veterinary Services, The Marine 
        Mammal Center, Sausalito, CA, USA.

        1993--Research Assistant, Serengeti Rabies Project, Tanzania.

        1992-1993--Research Fellow in Wildlife Diseases, Zoological 
        Society of London, UK.

        1988-1991--Graduate student, University of Cambridge, UK.

        1985-1988--House Surgeon, Zoological Society of London, UK.

        1984-1985--House Surgeon, Royal (Dick) School Veterinary 
        Medicine, Edinburgh, UK.
Professional and Academic Affiliations

        2008 to present--Science Adviser, California Ocean Protection 
        Council.

        2007 to present--Associate Editor, Journal of Wildlife Disease.

        2006 to present--Member, Advisory Board for California's Oiled 
        Wildlife Care Network.

        2005-2007--Associate Editor, Marine Mammal Science.

        2004-2008--Chair, Southern Sea Otter Recovery Implementation 
        team.

        2001 to present--Member, Hawaiian Monk Seal Recovery Team.

        2001-2002--President, International Association for Aquatic 
        Animal Medicine.

        2000 to present--Scientific Advisor, Marine Mammal Commission.

        1998 to present--Working Group on Unusual Marine Mammal 
        Mortality Events, National Marine Fisheries Service, 1998-
        2000--Member; 2001-2005--Chair, 2006 to present--Emeritus 
        member.

        1996-2004--Scientific Advisor, Oiled Wildlife Care Network.
Publications
Reports

        Burek, K.A., F.M.D. Gulland, G. Sheffield, E. Keyes, T.R. 
        Spraker, A.W. Smith, D.E. Skilling, J. Evermann, J.L. Stott, 
        and A.W. Trites. 2003. Disease agents in Steller sea lions in 
        Alaska: A review and analysis of serology data from 1975-2000. 
        Fisheries Centre Research Reports, Vol. 11, No. 4, 26 pp.

        Gulland, F. 2000. Domoic acid toxicity in California sea lions 
        (Zalophus californianus) stranded along the central California 
        coast, May-October 1998, U.S. Department of Commerce NOAA 
        Technical Memorandum, NMFS-OPR, 17, 45 pp.

        Gulland, F., H.M. Perez-Cortes, J.R. Urban, L. Rojas-Bracho, G. 
        Ylitalo, J. Weir, S.A. Norman, M.M. Muto, D.J. Rugh, C. 
        Kreuder, and T. Rowles. 2005. Eastern North Pacific Gray Whale 
        (Eschrichtius robustus) Unusual Mortality Event, 1999-2000: A 
        Compilation. U.S. Department of Commerce. NOAA Technical 
        Memorandum NMFS-AFSC-150, 33 pp.

        Gulland, F.M.D. 2006. Review of the Marine Mammal Unusual 
        Mortality Event Response Program of the National Marine 
        Fisheries Service. U.S. Department of Commerce, NOAA Technical 
        Memorandum NMFS-OPR-33, 37 pp.
Books and Book Chapters

        Dierauf, L.A., and F.M.D. Gulland (eds.). 2001. CRC Handbook of 
        Marine Mammal Medicine, Second edition, CRC Press, Boca Raton, 
        FL, 1063 pp.

        Gulland, F.M.D., and A.J. Hall. 2005. The role of disease in 
        influencing status and trends. Pp. 47-62 in J. Reynolds, W. 
        Perrin, R. Reeves, S. Montgomery and T. Ragen (eds.), Marine 
        Mammal Research: Conservation Beyond Crisis. The John Hopkins 
        University Press. Baltimore, Maryland.

        Kim, K., A.P. Dobson, and F.M.D. Gulland. 2005. Diseases and 
        the Conservation of Marine Biodiversity. Pp. 149-166 in E.A. 
        Norse and L.B. Crowder (eds.) Marine Conservation Biology: The 
        Science of Maintaining the Sea's Biodiversity. Island Press, 
        Washington, D.C.

        Wilson, K., B.T. Grenfell, J.G. Pilkington, H.E.G. Boyd, and 
        F.M.D. Gulland. 2004. Parasites and their impacts. Pp. 113-165 
        in T.H. Clutton-Brock and J.M. Pemberton (eds.), Soay Sheep. 
        Dynamics and Selection in an Island Population. Cambridge 
        University Press, Cambridge, UK.

        Van Dolah, F.M., G.J. Doucette, F. Gulland, T. Rowles, and G. 
        Bossart. 2003. Impacts of algal toxins on marine mammals. Pp. 
        247-270 in J.G. Vos, G.D. Bossart, M. Fournier, and T. O'Shea 
        (eds.), Toxicology of Marine Mammals. Taylor & Francis, London.

        Gulland, F.M.D., L.A. Dierauf, and T.K. Rowles. 2001. Marine 
        Mammal Stranding Networks. Pp. 45-68 in L. Dierauf and F.M.D. 
        Gulland (eds.), CRC Handbook of Marine Mammal Medicine, Second 
        edition. CRC Press, Boca Raton, Florida.

        Gulland, F.M.D., L. Lowenstine, and T. Spraker. 2001. 
        Noninfectious Diseases. Pp. 521-550 in L. Dierauf and F.M.D. 
        Gulland (eds.) CRC Handbook of Marine Mammal Medicine, Second 
        edition. CRC Press, Boca Raton, Florida.

        Gulland, F.M.D., M. Haulena, and L. Dierauf. 2001. Seals and 
        Sea Lions. Pp. 907-926 in L. Dierauf and F.M.D. Gulland (eds.), 
        CRC Handbook of Marine Mammal Medicine, Second edition. CRC 
        Press, Boca Raton, Florida.

        Gulland, F.M.D. 1998. Leptospirosis in marine mammals. Pp 469-
        471 in M. Fowler and R.E. Miller (eds.), Zoo and Wild Animal 
        Medicine. W.B. Saunders, Philadelphia, Pennsylvania.

        Gulland, F.M.D. 1995. Impact of infectious diseases on wild 
        animal populations--a review. Pp. 20-51 in B.T. Grenfell and 
        A.P. Dobson (eds.), Ecology of Infectious Diseases in Natural 
        Populations, Cambridge University Press, Cambridge, UK.

        Gulland, F.M.D., and C.M. Hawkey. 1990. Avian Haematology. Pp. 
        126-136 in C.S.G. Grunsell and M.E. Raw (eds.), The Veterinary 
        Annual. Butterworth, London.
Journal Articles

        Berman-Kowalewski, M., F.M.D. Gulland, S. Wilkin, J. 
        Calambokidis, B. Mate, J. Cordaro, D. Rotstein, J. St. Leger, 
        P. Collins, K. Fahy, and S. Dover. 2010. Association between 
        blue whale (Balaenoptera musculus) mortality and ship strikes 
        along the California Coast. Aquatic Mammals 36(1):59-66.

        Gill, S., T. Goldstein, D. Situ, T.S. Zabka, F.M.D. Gulland, 
        and R.W. Mueller. 2010. Cloning and characterization of 
        glutamate receptors in California sea lions (Zalophus 
        californianus). Marine Drugs 8(5):1637-1649.

        Dennison, S.E., F.M.D. Gulland, and W.E. Braselton. 2010. 
        Standardized protocols for plasma clearance of iohexol are not 
        appropriate for determination of glomerular filtration rates in 
        anesthetized California sea lions (Zalophus californianus). 
        Journal of Zoo and Wildlife Medicine 4:144-147.

        Jacobsen, J.K., L. Massey, and F. Gulland. 2010. Fatal 
        ingestion of floating marine debris by two sperm whales 
        (Physeter macrocephalus). Marine Pollution Bulletin 60:765-767.

        Nollens H.H., J.F.X. Wellehan, L. Archer, L.J. Lowenstine, and 
        F.M.D. Gulland. In Press. Detection of a respiratory 
        coronavirus during a pneumonia epizootic in free-ranging 
        Pacific harbor seals (Phoca vitulina richardsii). Diseases of 
        Aquatic Organisms.

        Levin, M., D. Joshi, A. Draghi, F.M.D. Gulland, D. Jessup, and 
        S. De Guise. 2010. Immunomodulatory effects upon in vivo 
        exposure of California sea lion and southern sea otter 
        peripheral blood leukocytes to domoic acid. Journal of Wildlife 
        Diseases 46:541-550.

        Lefebvre, K.A., A. Robertson, E.R. Frame, K.M. Colegrove, S. 
        Nance, K.A. Baugh, H. Weidenhoft, and F.M.D. Gulland. 2010. 
        Clinical signs and histopathology associated with domoic acid 
        poisoning in northern fur seals (Callorhinus ursinus) and 
        comparison of toxin detection methods. Harmful Algae 9:374-383.

        Lynn, B.L., C. Reichmuth, R.J. Schusterman, and F.M.D. Gulland. 
        2010. Filial imprinting in a Steller sea lion (Eumetopias 
        jubatus). Aquatic Mammals 36:79-83.

        Moore, M., M. Walsh, J. Bailey, D. Brunson, F. Gulland, S. 
        Landry, D. Mattila, C. Mayo, C. Slay, J. Smith, and T. Rowles. 
        2010. Sedation at sea of entangled North Atlantic right whales 
        (Eubalaena glacialis) to enhance disentanglement. PLOS One 5:1-
        9.

        Jang, S., L. Wheeler, R.B. Carey, B. Jensen, C.M. Crandall, 
        K.N. Schrader, D. Jessup, K. Colegrove, and F.M.D. Gulland. 
        2010. Pleuritis and suppurative pneumonia associated with a 
        hypermucoviscosity phenotype of Klebsiella pneumoniae in 
        California sea lions (Zalophus californianus). Veterinary 
        Microbiology 141:174-177.

        Thomas, K., J.T. Harvey, T. Goldstein, and F. Gulland. 2010. 
        Movement, dive behavior, and survival of California sea lions 
        (Zalophus californianus) posttreatment for domoic acid 
        toxicosis. Marine Mammal Science 26 (1):36-52.

        Ng, T.F.F., W.K. Suedmeyer, E. Wheeler, F. Gulland, and M. 
        Breitbart. 2009. Novel anellovirus discovered from a mortality 
        event of captive California sea lions. Journal of General 
        Virology 90:1256-1261.

        Montie, E.W., N. Pussini, G. Schneider, T.W.K. Battey, S. 
        Dennison, J. Barakos, and F. Gulland. 2009. Neuroanatomy and 
        volumes of brain structures of a live California sea lion 
        (Zalophus californianus) from magnetic resonance images. The 
        Anatomical Record 292:1523-1547.

        Colegrove, K.M., F.M.D. Gulland, D.K. Naydan, and L.J. 
        Lowenstine. 2009. Tumor morphology an immunohistochemical 
        expression of estrogen receptor, progesterone receptor, p53, 
        and Ki67 in urogenital carcinomas of California sea lions 
        (Zalophus californianus). Veterinary Pathology 46:642-655.

        Dau, B.K., K.V.K. Gilardi, F.M.D. Gulland, A. Higgins, J.B. 
        Holcomb, J. St.Leger, and M.H. Ziccardi. 2009. Fishing gear-
        related injury in California marine wildlife. Journal of 
        Wildlife Diseases 45(2):355-362.

        Zuerner, R.L, C. Cameron, S. Raverty, S. Robinson, K. 
        Colegrove, S. Norman, D. Lambourn, S. Jeffries, D.P. Alt, and 
        F.M.D. Gulland. 2009. Geographical dissemination of Leptospira 
        interrogans serovar Pomona during seasonal migration of 
        California sea lions. Veterinary Microbiology 137:105-110.

        Goldstein, T., T. Zabka, R. DeLong, L. Wheeler, G. Ylitalo, S. 
        Bargu, M. Silver, T. Leighfield, F. Van Dolah, G. Langlois, I. 
        Sidor, L. Dunn, and F.M.D. Gulland. 2009. The role of domoic 
        acid in abortion and premature parturition of California sea 
        lions (Zalophus californianus) on San Miguel Island, 
        California. Journal of Wildlife Diseases 45:91-108.

        Colegrove, K.M., F.M.D. Gulland, K. Harr, D.K. Naydan, and L.J. 
        Lowenstine. 2009. Pathological features of amyloidosis in 
        stranded California sea lions (Zalophus californianus). Journal 
        of Comparative Pathology 140:105-112.

        Zabka, T.S., T. Goldstein, C. Cross, R.W. Mueller, C. Kreuder-
        Johnson, S. Gill, and F.M.D. Gulland. 2009. Characterization of 
        a degenerative cardiomyopathy associated with domoic acid 
        toxicity in California sea lions (Zalophus californianus). 
        Veterinary Pathology 46:105-119.

        Torres de la Riva, G., C. Kreuder Johnson, F.M.D. Gulland, G.W. 
        Langlois, J.E. Heyning, T.K. Rowles, and J.A.K. Mazet. 2009. 
        Association of an unusual marine mammal mortality event with 
        Pseudo-nitzschia spp. blooms along the southern California 
        coastline. Journal of Wildlife Diseases 45(1):109-121.

        Green, J.A., M. Haulena, I.L. Boyd, D., Calkins, F. Gulland, 
        A.J. Woakes, and P.J. Butler. 2009. Trial implantation of heart 
        rate data loggers in pinnipeds. Journal of Wildlife Management 
        73:115-121.

        Stoddard, R.A., E.R. Atwill, P.A. Conrad, B.A. Byrne, S. Jang, 
        J. Lawrence, B. McCowan, and F.M.D. Gulland. 2009. The effects 
        of rehabilitation of northern elephant seals (Mirounga 
        angustirostris) on antimicrobial resistance of commensal 
        Escherichia coli. Veterinary Microbiology 133:264-271.

        Dennison, S.E., L. Forrest, and F.M.D. Gulland. 2009. Normal 
        thoracic radiographic anatomy of immature California sea lions 
        (Zalophus californianus) and immature northern elephant seals 
        (Mirounga angustirostris). Aquatic Mammals 35 (1):36-42.

        Nollens, H.H., C. Ruiz, M.T. Walsh, F.M.D. Gulland, G. Bossart, 
        E.D. Jensen, J.F. McBain, and J.F.X. Wellehan. 2008. Cross-
        reactivity between Immunoglobin G antibodies of whales and 
        dolphins correlates with evolutionary distance. Clinical and 
        Vaccine Immunology 15(10):1547-1554.

        Norman, S.A., R.F. DiGiacomo, F.M.D. Gulland, J.S. Meschke, and 
        M.S. Lowry. 2008. Risk factors for an outbreak of leptospirosis 
        in California sea lions (Zalophus californianus) in California, 
        2004. Journal of Wildlife Diseases 44(4):837-844.

        Stoddard, R.A., E.R. Atwill, F.M.D. Gulland, M.A. Miller, H.A. 
        Dabritz, D.M. Paradies, K.R. Worcester, S. Jang, J. Lawrence, 
        B.A. Byrne, and P.A. Conrad. 2008. Risk factors for infection 
        with pathogenic and antimicrobial-resistant fecal bacteria in 
        northern elephant seals in California. Public Health Reports 
        123:360-370.

        Stoddard, R.A., R.L. DeLong, B.A. Byrne, S. Jang, and F.M.D. 
        Gulland. 2008. Prevalence and characterization of Salmonella 
        spp. among marine animals in the Channel Islands, California. 
        Diseases of Aquatic Organisms 81:5-11.

        Holmes, A.L., S.S. Wise, C.E.C. Goertz, J.L. Dunn, F.M.D. 
        Gulland, T. Gelatt, K.B. Beckmen, K. Burek, S. Atkinson, M. 
        Bozza, R. Taylor, T. Zheng, Y. Zhang, A.-M. Aboueissa, and J.P. 
        Wise, Sr. 2008. Metal tissue levels in Steller sea lion 
        (Eumetopias jubatus) pups. Marine Pollution Bulletin 56:1416-
        1421.

        Gulland, F.M.D., F. Nutter, K. Dixon, J. Calambokidis, G. 
        Schorr, J. Barlow, T. Rowles, S. Wilkin, T. Spradlin, L. Gage, 
        J. Mulsow, C. Reichmuth, M. Moore, J. Smith, P. Folkens, S.F. 
        Hanser, S. Jang, and C.S. Baker. 2008. Health assessment, 
        antibiotic treatment, and behavioral responses to herding 
        efforts of a cow-calf pair of humpback whales (Megaptera 
        novaeangliae) in the Sacramento River Delta, California. 
        Aquatic Mammals 34(2):182-192.

        Sarran, D., D.J. Greig, C.A. Rios, T.S. Zabka, and F.M.D. 
        Gulland. 2008. Evaluation of aqueous humor as a surrogate for 
        serum biochemistry in California sea lions (Zalophus 
        californianus). Aquatic Mammals 34(2):157-165.

        Hall, A.J., F.M.D. Gulland, G.M. Ylitalo, D.J. Greig, and L.J. 
        Lowenstine. 2008. Changes in blubber contaminant concentrations 
        in California sea lions (Zalophus californianus) associated 
        with weight loss and gain during rehabilitation. Environmental 
        Science and Technology 42(11):4181-4187.

        Burek, K.A., F.M.D. Gulland, and T.M. O'Hara. 2008. Effects of 
        climate change on arctic marine mammal health. Ecological 
        Applications 18(2):S126-134.

        Cameron, C.E., R.L. Zuerner, S. Raverty, K.M. Colegrove, S.A. 
        Norman, D.M. Lambourn, S.J. Jeffries, and F.M.D. Gulland. 2008. 
        Detection of pathogenic Leptospira bacteria in pinniped 
        populations via PCR and identification of a source of 
        transmission for zoonotic leptospirosis in the marine 
        environment. Journal of Clinical Microbiology 46(5):1728-1733.

        Fauquier, D.A., J.A.K. Mazet, F.M.D. Gulland, T.R. Spraker, and 
        M.M. Christopher. 2008. Distribution of tissue enzymes in three 
        species of pinnipeds. Journal of Zoo and Wildlife Medicine 
        39(1):1-5.

        Hunt, T.D., M.H. Ziccardi, F.M.D. Gulland, P.K. Yochem, D.W. 
        Hird, T. Rowles, and J.A.K. Mazet. 2008. Health risks for 
        marine mammal workers. Disease of Aquatic Organisms 81:81-92.

        Nollens, H.H., F.M.D. Gulland, E.R. Jacobson, J.A. Hernandez, 
        P.A. Klein, M.T. Walsh, and R.C. Condit. 2008. In vitro 
        susceptibility of sea lion poxvirus to cidofovir. Antiviral 
        Research 80:77-80.

        MacLean, R.A., D. Imai, C. Dold, M. Haulena, and F.M.D. 
        Gulland. 2008. Persistent right aortic arch and cribiform plate 
        aplasia in a northern elephant seal (Mirounga angustirostris). 
        Journal of Wildlife Diseases 44(22):499-504.

        Petrauskas, L., S. Atkinson, F. Gulland, J. Mellish, and M. 
        Horning. 2008. Monitoring glucocorticoid response to 
        rehabilitation and research procedures in California and 
        Steller sea lions. Journal of Experimental Zoology 309A:73-82.

        Yochem, P.K., F. Gulland, B.S. Stewart, M. Haulena, J. Mazet, 
        and W.M. Boyce. 2008. Thyroid function testing in elephant 
        seals in health and disease. General and Comparative 
        Endocrinology 155:627-632.

        Goldstein, T., J.A.K. Mazet, T.S. Zabka, G. Langlois, K.M. 
        Colegrove, M. Silver, S. Bargu Ates, F. Van Dolah, T. 
        Leighfield, P.A. Conrad, J. Barakos, D.C. Williams, S. 
        Dennison, M.A. Haulena, and F.M.D. Gulland. 2008. Novel 
        symptomatology and changing epidemiology of domoic acid 
        toxicosis in California sea lions (Zalophus californianus): an 
        increasing risk to marine mammal health. Proceedings of the 
        Royal Society B 275:267-276.

        Bejarano, A.C., F.M. Van Dolah, F.M.D. Gulland, T.K. Rowles, 
        and L.H. Schwacke. 2008. Production and toxicity of the marine 
        biotoxin domoic acid and its effects on wildlife: a review. 
        Human and Ecological Risk Assessment 14:544-567.

        Dennison, S., M. Haulena, D.C. Williams, J. Dawson, B.S. 
        Yandell, and F.M.D. Gulland. 2008. Determination of a sedative 
        protocol for use in California sea lions (Zalophus 
        californianus) with neurologic abnormalities undergoing 
        electroencephalographic examination. Journal of Zoo and 
        Wildlife Medicine 39(4):542-547.

        Lloyd-Smith, J.O., D.J. Greig, S. Hietala, G.S. Ghneim, L. 
        Palmer, J. St. Leger, B.T. Grenfell, and F.M.D. Gulland. 2007. 
        Cyclical changes in seroprevalence of leptospirosis in 
        California sea lions: endemic and epidemic disease in one host 
        species? BMC Infectious Disease 7:125.

        Moore, M., G. Early, K. Touhey, S. Barco, F. Gulland, and R. 
        Wells. 2007. Rehabilitation and release of marine mammals in 
        the United States: risks and benefits. Marine Mammal Science 
        23(4):731-750.

        Gulland, F.M.D., and A.J. Hall. 2007. Is marine mammal health 
        deteriorating? EcoHealth 4:135-150.

        Stoddard, R.A., W.G. Miller, J.E. Foley, J. Lawrence, F.M.D. 
        Gulland, P.A. Conrad, and B.A. Byrne. 2007. Campylobacter 
        insulaenigrae isolates from northern elephant seals (Mirounga 
        angustirostris) in California. Applied and Environmental 
        Microbiology 73(6):1729-1735.

        Bejarano, A.C., F.M. VanDolah, F.M. Gulland, and L. Schwacke. 
        2007. Exposure assessment of the biotoxin domoic acid in 
        California sea lions: Application of a bioenergetic model. 
        Marine Ecology Progress Series 345:293-304.

        Buckles, E.L., L.J. Lowenstine, R.L. DeLong, S.R. Melin, R.K. 
        Vittore, H. Wong, G.L. Ross, J.A. St Leger, D.J. Greig, R.S. 
        Duerr, F.M.D. Gulland, and J.L. Stott. 2007. Age-prevalence of 
        otarine herpesvirus-1, a tumor-associated virus, and 
        possibility of its sexual transmission in California sea lions. 
        Veterinary Microbiology 120:1-8.

        Dennison, S., F. Gulland, M. Haulena, H. De Morais, and K. 
        Colegrove. 2007. Urate nephrolithaisis in a northern elephant 
        seal (Mirounga angustirostris) and a California sea lion 
        (Zalophus californianus). Journal of Zoo and Wildlife Medicine 
        38(1):114-120.

        Goldstein, T., L.J. Lowenstine, T.P. Lipscomb, J.A.K. Mazet, J. 
        Novak, J.L. Stott and F.M.D. Gulland. 2007. Identification of a 
        gamma herpesviral infection in northern elephant seals 
        (Mirounga angustirostris). Journal of Wildlife Diseases 
        42(4):830-835.

        Greig, D.J., K.L. Mashburn, M. Rutishauser, F.M.D. Gulland, 
        T.M. Williams, and S. Atkinson. 2007. Seasonal changes in 
        circulating progesterone and estrogen concentrations in the 
        California sea lion (Zalophus californianus). Journal of 
        Mammalogy 88(1):67-72.

        Greig, D.J., G.M. Ylitalo, A.J. Hall, D.A. Fauquier, and F.M.D. 
        Gulland. 2007. Transplacental transfer of organochlorines in 
        California sea lions (Zalophus californianus). Environmental 
        Toxicology and Chemistry 26(1):37-44.

        Acevedo-Whitehouse, K., T.R. Spraker, E. Lyons, S.R. Melin, F. 
        Gulland, R.L. Delong, and W. Amos. 2006. Contrasting effects of 
        heterozygosity on survival and hookworm resistance in 
        California sea lion pups. Molecular Ecology 15(7):1973-1982.

        Aldridge, B.M., L. Bowen, B.R. Smith, G.A. Antonelis, F. 
        Gulland, and J.L. Stott. 2006. Paucity of class 1 MHC gene 
        heterogeneity between individuals in the endangered Hawaiian 
        monk seal population. Immunogenetics 58(2-3):203-215.

        Bowen, L., B.M. Aldridge, R. DeLong, S. Melin, C. Godinez, A. 
        Zavala, F. Gulland, L. Lowenstine, J.L. Stott, and M.L. 
        Johnson. 2006. MHC gene configuration variation in 
        geographically disparate populations of California sea lions 
        (Zalophus californianus). Molecular Ecology 15(2):529-533.

        El-Zein, R.A., D.A. Hastings-Smith, M.M. Ammenheuser, M. 
        Treinen-Moslen, F.M.D. Gulland, and J.B. Ward, Jr. 2006. 
        Evaluation of two different biomarkers for use in the 
        assessment of toxic chemical exposure in California sea lions 
        (Zalophus californianus). Marine Pollution Bulletin 52(1):108-
        113.

        Stapleton, H.M., N.G. Dodder, J.R. Kucklick, C.M. Reddy, M.M. 
        Schantz, P.R. Becker, F. Gulland, B.J. Porter, and S.A. Wise. 
        2006. Determination of HBCD, PBDEs and MeO-BDEs in California 
        sea lions (Zalophus californianus) stranded between 1993 and 
        2003. Marine Pollution Bulletin 52(5):522-531.

        Zagzebski, K., F.M.D. Gulland, M. Haulena, M. Lander, D.J. 
        Greig, L. Gage, B.M. Hanson, P.K. Yochem, and B. Stewart. 2006. 
        Twenty-five years of rehabilitation of odontocetes stranded in 
        central and northern California, 1977 to 2002. Aquatic Mammals 
        32(3):334-345.

        Buckles, E.L., F.M.D. Gulland, B.M. Aldridge, T.S. Gelatt, P.S. 
        Ross, M. Haulena, and L.J. Lowenstine. Fetus in Fetu in a 
        harbor seal (Phoca vitulina richardi): Histopathologic, 
        genetic, and toxicologic analysis. Veterinary Pathology 43:541-
        544.

        Brodie, E., F.M.D. Gulland, D.J. Greig, M. Hunter, J. Jaakola, 
        J. St Leger, T.A. Leighfield, and F.M. Van Dolah. 2006. Domoic 
        acid causes reproductive failure in California sea lions 
        (Zalophus californianus). Marine Mammal Science 22(3):700-707.

        Buckles, E.L., L.J. Lowenstine, C. Funke, R.K. Vittore, H.-W. 
        Wong, J.A. St Leger, D.J. Greig, R.S. Duerr, F.M.D. Gulland, 
        and J.L. Stott. 2006. Otarine herpesvirus-1, not 
        papillomavirus, is associated with endemic tumours in 
        California sea lions (Zalophus californianus). Journal of 
        Comparative Pathology 135:183-189.

        Haulena, M., F.M.D. Gulland, J.A. Lawrence, D.A. Fauquier, S. 
        Jang, B. Aldridge, T. Spraker, L.C. Thomas, D.R. Brown, L. 
        Wendland, and M.K. Davidson. 2006. Lesions associated with a 
        novel mycoplasma sp. in California sea lions (Zalophus 
        californianus) undergoing rehabilitation. Journal of Wildlife 
        Diseases 42(1):40-45.

        Goldstein, T., F.M.D. Gulland, R.C. Braun, G.A. Antonelis, L. 
        Kashinsky, T.K. Rowles, J.A.K. Mazet, L.M. Dalton, B.M. 
        Aldridge, and J.L. Stott. 2006. Molecular identification of a 
        novel gamma herpesvirus in the endangered Hawaiian monk seal 
        (Monachus schauinslandi). Marine Mammal Science 22(2):465-471.

        Johnson, S., L. Lowenstine, F. Gulland, S. Jang, D. Imai, F. 
        Almy, R. DeLong, and I. Gardner. 2006. Aerobicbacterial flora 
        of the vagina and prepuce of California sea lions (Zalophus 
        californianus) and investigation of associations with 
        urogenital carcinoma. Veterinary Microbiology 114:94-103.

        Nollens, H.H., F.M.D. Gulland, J.A. Hernandez, R.C. Condit, 
        P.A. Klein, M.T. Walsh, and E.R. Jacobson. 2006. 
        Seroepidemiology of parapoxvirus infections in captive and 
        free-ranging California sea lions (Zalophus californianus). 
        Diseases of Aquatic Organisms 69:153-161.

        Nollens, H.H., F.M.D. Gulland, E.R. Jacobson, J.A. Hernandez, 
        P.A. Klein, M.T. Walsh, and R.C. Condit. 2006. Parapoxviruses 
        of seals and sea lions make up a distinct clade within the 
        genus Parapoxvirus. Virology 349:316-324.

        Nollens, H.H., E.R. Jacobson, F.M.D. Gulland, D.O. Beusse, G.D. 
        Bossart, J.A. Hernandez, P.A. Klein, and R.C. Condit. 2006. 
        Preliminary characterization of a parapoxvirus isolated from a 
        California sea lion (Zalophus californianus). Journal of 
        Wildlife Diseases 42(1):23-32.

        Zabka, T.S., M. Haulena, B. Puschner, F.M.D. Gulland, P. 
        Conrad, and L.J. Lowenstine. 2006. Acute, fatal lead toxicosis 
        in a harbor seal (Phoca vitulina richardsi) consequent to 
        ingestion of a lead fishing sinker. Journal of Wildlife 
        Diseases 42(3):651-657.

        Zagzebski, K.A., F.M.D. Gulland, M. Haulena, M.E. Lander, D.J. 
        Greig, L. Gage, M.B. Hanson, P.K. Yochem, and B.S. Stewart. 
        2006. Twenty-five years of rehabilitation of odontocetes 
        stranded in central and northern California, 1977 to 2002. 
        Aquatic Mammals 32(3):334-345.

        Nollens, H.H., J.A. Hernandez, E.R. Jacobson, M. Haulena, and 
        F.M.D. Gulland. 2005. Risk factors associated with poxvirus 
        lesions in hospitalized California sea lions (Zalophus 
        californianus). Journal of the American Veterinary Medical 
        Association 227:467-473.

        Stoddard R.A., F.M.D. Gulland, E.R. Atwill, J. Lawrence, S. 
        Jang, and P.A. Conrad. 2005. Salmonella and Campylobacter spp. 
        in northern elephant seals, California. Emerging Infectious 
        Diseases 11:1967-1969.

        Burek, A., F.M.D. Gulland, G. Sheffield, K.B. Beckmen, E. 
        Keyes, T.R. Spraker, A.W. Smith, D.E. Skilling, J.F. Evermann, 
        J.L. Stott, J.T. Saliki, and A.W. Trites. 2005. Infectious 
        disease and decline of Steller sea lions (Eumetopias jubatus) 
        in Alaska, USA: Insight from serological data. Journal of 
        Wildlife Diseases 41(3):512-524.

        Conrad, P.A., M.A. Miller, C. Kreuder, E.R. James, J. Mazet, H. 
        Dabritz, D.A. Jessup, F. Gulland, and M.E. Griggs. 2005. 
        Transmission of Toxoplasma: clues from the study of sea otter 
        as sentinels of Toxoplasma gondii flow into the marine 
        environment. International Journal for Parasitology 35:1155-
        1168.

        Kelly, T.R., D. Greig, K.M. Colegrove, L.J. Lowenstine, M. 
        Dailey, F.M. Gulland, and M. Haulena. 2005. Megastrongyloid 
        nematode (Otostrongylus circumlitus) infection in a stranded 
        California sea lion (Zalophus californianus)--a new host-
        parasite association. Journal of Wildlife Diseases 41(3):593-
        598.

        McKnight, C.A., T.L. Reynolds, M. Haulena, A. deLahunta, and 
        F.M.D. Gulland. 2005. Congenital anomaly in a stranded Pacific 
        harbor seal (Phoca vitulina richardsi). Journal of Wildlife 
        Diseases 41(3):654-658.

        Colegrove, K.M., L.J. Lowenstine, and F.M.D. Gulland. 2005. 
        Leptospirosis in northern elephant seals (Mirounga 
        angustirostris) stranded along the California coast. Journal of 
        Wildlife Diseases 41:426-430.

        Silvagni, P.A., L.J. Lowenstine, T. Spraker, T.P. Lipscomb, and 
        F.M. Gulland. 2005. Pathology of domoic acid toxicity in 
        California sea lions (Zalophus californianus). Veterinary 
        Pathology 42(2):184-191.

        Lander, M.E., M. Haulena, F.M.D. Gulland, and J.T. Harvey. 
        2005. Implantation of subcutaneous radio transmitters in the 
        harbor seal (Phoca vitulina). Marine Mammal Science 21(1):154-
        161.

        Bowen, L., B.M. Aldridge, R. DeLong, S. Melin, E.L. Buckles, F. 
        Gulland, L.J. Lowenstine, J. Stott, and M.L. Johnson. 2005. An 
        immunogenetic basis for the high prevalence of urogenital 
        cancer in a free-ranging population of California sea lions 
        (Zalophus californianus). Immunogenetics 56:846-848.

        Debier, K., G.M. Ylitalo, M. Weise, F. Gulland, D.P. Costa, 
        B.J. LeBoeuf, T. deTillesse, and Y. Larondelle. 2005. PCBs and 
        DDTs in the serum of juvenile California sea lions: 
        associations with vitamins A and E and thyroid hormones. 
        Environmental Pollution 134:323-332.

        Neale, J.C.C., K.R. Schmelzer, F.M.D. Gulland, E.A. Berg, and 
        R.S. Tjeerdema. 2005. Organohalogen levels in harbor seal 
        (Phoca vitulina) pups increase with duration of nursing. 
        Journal of Toxicology and Environmental Health, Part A, 68:687-
        691.

        Neale, J.C.C., F.M.D. Gulland, K.R. Schmelzer, J.T. Harvey, 
        E.A. Berg, S.G. Allen, D.J. Greig, E.K. Grigg, and R.S. 
        Tjeerdema. 2005. Contaminant loads and hematological correlates 
        in the harbor seal (Phoca vitulina) of San Francisco Bay, 
        California. Journal of Toxicology and Environmental Health, 
        Part A, 68:617-633.

        Goldstein, T., J.A.K. Mazet, L.J. Lowenstine, F.M.D. Gulland, 
        T. Rowles, D.P. King, B.M. Aldridge, and J.L. Stott. 2005. 
        Tissue Distribution of Phocine Herpesvirus-1 (PhHV-1) in 
        Infected harbour seals (Phoca vitulina) from the central 
        Californian coast and a comparison of diagnostic methods. 
        Journal of Comparative Pathology 133:175-183.

        Colegrove, K.M., D. Greig, and F.M.D. Gulland. 2005. Causes of 
        stranding of phocids (northern elephant seals (Mirounga 
        angustirostris) and Pacific harbor seals (Phoca vitulina)) 
        along the central California coast, 1992-2001. Aquatic Mammals 
        31(1):1-10.

        Ylitalo, G.M., J.E. Stein, T.E. Hom, L.J. Johnson, K.L. 
        Tilbury, A.J. Hall, T. Rowles, D. Greig, L.J. Lowenstine, and 
        F. Gulland. 2005. The role of organochlorines in cancer-
        associated mortality in California sea lions (Zalophus 
        californianus). Marine Pollution Bulletin 50:30-39.

        Greig, D.J., F.M.D. Gulland, and C. Kreuder. 2005. A decade of 
        live California sea lion (Zalophus californianus) strandings 
        along the central California coast: causes and trends, 1991-
        2000. Aquatic Mammals 31(1):40-51.

        Travecchia, G., T. Coulson, B.J.T. Morgan, J.M. Pemberton, J.C. 
        Pilkington, F.M.D. Gulland, and T.H. Clutton-Brock. 2005. 
        Predictors of reproductive cost in female Soay sheep. Journal 
        of Animal Ecology 74:201-213.

        Bowen L., B.M. Aldridge, F. Gulland, W. Van Bonn, R. DeLong, S. 
        Melin, L.J. Lowenstine, J.L. Stott, and M.L. Johnson. 2004. 
        Class II multiformity generated by variable MHC-DRB region 
        configurations in the California sea lion (Zalophus 
        californianus). Immunogenetics 56(1):12-27.

        Elson-Riggins, J.G., S.A. Riggins, F.M.D. Gulland, and E.G. 
        Platzer. 2004. Immunoglobulin responses of northern elephant 
        and Pacific harbor seals naturally infected with Otostrongylus 
        circumlitus. Journal of Wildlife Diseases 40(3):466-475.

        Fauquier, D., F.M.D. Gulland, M. Haulena, M. Dailey, R.L. 
        Rietcheck, and T.P. Lipscomb. 2004. Meningoencephalitis in two 
        stranded California sea lions (Zalophus californianus) caused 
        by aberrant trematode migration. Journal of Wildlife Disease 
        40(4):816-819.

        Acevedo-Whitehouse, K., H. de la Cueva, F.M.D. Gulland, D. 
        Aurioles-Gamboa, F. ArellanoCarbajal, and F. Suarez-Guemes. 
        2003. Evidence of Leptospira interrogans infection in 
        California sea lion pups from the Gulf of California. Journal 
        of Wildlife Diseases 39(1):145-151.

        Zabka, T.S., E.L. Buckles, F.M.D. Gulland, M. Haulena, D.K. 
        Naydan, and L.J. Lowenstine. 2003. Pleomorphic rhabdomyosarcoma 
        with pulmonary metastasis in a stranded Steller (northern) sea 
        lion (Eumetopias jubatus). Journal of Comparative Pathology 
        130:195-198.

        Fauquier, D.A., F. Gulland, M. Haulena, and T. Spraker. 2003. 
        Biliary adenocarcinoma in a stranded northern elephant seal 
        (Mirounga angustirostris). Journal of Wildlife Diseases 
        39(3):723-726.

        Duffield, D.A., N.B. Barros, E.O. Espinoza, S. Ploen, F.M.D. 
        Gulland, and J. Heyning. 2003. Identifying pygmy and dwarf 
        sperm whales (genus Kogia) using electrospray ionization mass 
        spectrometry of myoglobin and hemoglobin. Marine Mammal Science 
        19:395-399.

        Johnson, S.P., S. Jang, F.M.D. Gulland, M. Miller, D. Casper, 
        J. Lawrence, and J. Herrera. 2003. Characterization and 
        clinical manifestations of Arcanobacterium phocae infections in 
        marine mammals stranded along the central California coast. 
        Journal of Wildlife Diseases 39:136-144.

        Goldstein, T., F.M.D. Gulland, B. Aldridge, J.T. Harvey, T, 
        Rowles, D.M. Lambourn, S.J. Jeffries, L. Measures, P.K. Yochem, 
        B.S. Stewart, R.J. Small, D.P. King, J.L. Stott, and J.A.K. 
        Mazet. 2003. Antibodies to phocine herpesvirus-1 are common in 
        North American harbor seals (Phoca vitulina). Journal of 
        Wildlife Diseases 39(3):487-494.

        Hanni, K.D, J.A.K. Mazet, F.M.D. Gulland, J. Estes, M. 
        Staedler, M. Murray, M. Miller, and D.A. Jessup. 2003. Clinical 
        pathology and assessment of pathogen exposure in southern and 
        Alaskan sea otters. Journal of Wildlife Diseases 39(4):837-850.

        Lander, M.E., J.T. Harvey, and F.M.D. Gulland. 2003. Hematology 
        and serum chemistry comparisons between free-ranging and 
        rehabilitated harbor seal (Phoca vitulina richardsi) pups. 
        Journal of Wildlife Diseases 39(3):600-609.

        Gulland, F.M.D., M. Haulena, D. Fauquier, G. Langlois, M.E. 
        Lander, T. Zabka, and R. Duerr. 2002. Domoic acid toxicity in 
        Californian sea lions (Zalophus californianus): clinical signs, 
        treatment and survival. Veterinary Record 150:475-480.

        King, D.P., M.C. Hure, T. Goldstein, B.M. Aldridge, F.M.D. 
        Gulland, J.T. Saliki, E.L. Buckles, L.J. Lowenstine, and J.L. 
        Stott. 2002. Otarine herpesvirus-1: a novel gammaherpesvirus 
        associated with urogenital carcinoma in California sea lions 
        (Zalophus californianus). Veterinary Microbiology 2277:131-137.

        Haulena, M., E. Buckles, F.M.D. Gulland, J.A. Lawrence, A. 
        Wong, S. Jang, M.M. Christopher, and L.J. Lowenstine. 2002. 
        Systemic mycosis caused by Scedosporium apiospermum in a 
        stranded Northern elephant seal (Mirounga angustirostris) 
        undergoing rehabilitation. Journal of Zoo and Wildlife Medicine 
        33(2):166-171.

        Bowen, L., B.M. Aldridge, F. Gulland, J. Woo, W. Van Bonn, R. 
        DeLong, J.L. Stott, and M.L. Johnson. 2002. Molecular 
        characterization of expressed DQA and DQB genes in the 
        California sea lion (Zalophus californianus). Immunogenetics 
        54:332-347.

        Colagross-Schouten, A.M., J.A.K. Mazet, F.M.D. Gulland, M.A. 
        Miller, and S. Hietala. 2002. Diagnosis and seroprevalence of 
        leptospirosis in California sea lions from coastal California. 
        Journal of Wildlife Diseases 38:7-17.

        Larson, S.R., M. Haulena, C.B. Grindem, and F.M.D. Gulland. 
        2002. Blood values of juvenile northern elephant seals 
        (Mirounga angustirostris) obtained using a portable clinical 
        analyzer. Veterinary Clinical Pathology 31(2):106-110.

        Moore, S.E., J.R. Urban, W. Perryman, F. Gulland, H. Peres-
        Cortes, P. Wade, L. Rojas Bracho, and T. Rowles. 2001. Are gray 
        whales hitting ``K'' hard? Marine Mammal Science 17:954-958.

        Miller, M.A., K. Sverlow, P.R. Crosbie, B.C. Barr, L.J. 
        Lowenstine, F.M.D. Gulland, A. Packham, and P. Conrad. 2001. 
        Isolation and characterization of two parasitic protozoa from a 
        Pacific harbor seal (Phoca vitulina richardsi) with 
        meningoencephalitis. Journal of Parasitology 87:816-822.

        Lyons, E.T., S.R. Melin, R.L. DeLong, A.J. Orr, F.M.D. Gulland, 
        and S.C. Tolliver. 2001. Current prevalence of adult Uncinaria 
        spp. in northern fur seal (Callorhinus ursinus) and California 
        sea lion (Zalophus californianus) pups on San Miguel Island, 
        California, with notes on the biology of these hookworms. 
        Veterinary Parasitology 97:309-318.

        Kajiwara, N., K. Kannan, M. Muraoka, M. Watanabe, S. Takahashi, 
        F. Gulland, H. Olsen, A.L. Blankenship, P.D. Jones, S. Tanabe, 
        and J.P. Giesy. 2001. Organochlorine pesticides, 
        polychlorinated biphenyls, and butyltin compounds in blubber 
        and livers of stranded California sea lions, elephant seals, 
        and harbor seals from coastal California, USA. Archives of 
        Environmental Contamination and Toxicology 41:90-99.

        King, D.P., A.R. Lie, T. Goldstein, B.M. Aldridge, F.M.D. 
        Gulland, M. Haulena, M.A. Adkinson, L.J. Lowenstine, and J.L. 
        Stott. 2001. Humoral immune responses to phocine herpesvirus-1 
        in Pacific harbor seals (Phoca vitulina richardsii) during an 
        outbreak of clinical disease. Veterinary Microbiology 80:1-8.

        Dailey, M.D., F.M.D. Gulland, L.J. Lowenstine, P. Silvagni, and 
        D. Howard. 2000. Prey, parasites and pathology associated with 
        the mortality of a juvenile gray whale (Eschrichtius robustus) 
        stranded along the northern California coast. Diseases of 
        Aquatic Organisms 42:111-117.

        Gulland, F.M., M.K. Stoskopf, S.P. Johnson, J. Riviere, and 
        M.G. Papich. 2000. Amoxicillin pharmacokinetics in harbor seals 
        (Phoca vitulina) and northern elephant seals (Mirounga 
        angustirostris) following single dose intravenous 
        administration: implications for interspecific dose scaling. 
        Journal of Veterinary Pharmacology and Therapeutics 23:223-228.

        Lipscomb, T.P., D.P. Scott, R.L. Garber, A.E. Krafft, M.M. 
        Tsai, J.H. Lichy, J.K. Taubenberger, F.Y. Schulman, and F.M.D. 
        Gulland. 2000. Common metastatic carcinoma of California sea 
        lions (Zalophus californianus): Evidence of genital origin and 
        association with novel gammaherpesvirus. Veterinary Pathology 
        37:609-617.

        Lander, M.E., F.M.D. Gulland, and R.L. DeLong. 2000. Satellite 
        tracking a rehabilitated Guadelupe fur seal (Arctocephalus 
        townsendii). Aquatic Mammals 26:137-142.

        Scholin, C.A., F. Gulland, G.J. Doucette, S. Benson, M. Busman, 
        F.P. Chavez, J. Cordaro, R. DeLong, A. DeVogelaere, J. Harvey, 
        M. Haulena, K. Lefebvre, T. Lipscomb, S. Loscutoff, L.J. 
        Lowenstine, R. Marin, III, P.E. Miller, W.A. McLellan, P.D.R. 
        Moeller, C.L. Powell, T. Rowles, P. Silvagni, M. Silver, T. 
        Spraker, V. Trainer, and F.M. Van Dolah. 2000. Mortality of sea 
        lions along the central California coast linked to a toxic 
        diatom bloom. Nature 403:80-84.

        Lyons, E.T., R.L. DeLong, F.M.D. Gulland, S.R. Melin, S.C. 
        Tolliver, and T. Spraker. 2000. Comparative biology of 
        Uncinaria spp. in the California sea lion (Zalophus 
        californianus) and the northern fur seal (Callorhinus ursinus) 
        in California. Journal of Parasitology 86:1348-1352.

        Wilkinson, I.S., S.J. Childerhouse, P.J. Duignan, and F.M.D. 
        Gulland. 2000. Infanticide and cannibalism in the New Zealand 
        sea lion, Phocarctos hookeri. Marine Mammal Science 16:494-500.

        Haulena, M., F.M.D. Gulland, D.G. Calkins, and T.R. Spraker. 
        2000. Immobilization of California sea lions using medetomidine 
        plus ketamine with and without isoflurane and reversal with 
        atipamezole. Journal of Wildlife Diseases 36:124-130.

        Goldstein, T., S.P. Johnson, A.V. Phillips, K. Hanni, D.A. 
        Fauquier, and F.M.D. Gulland. 1999. Human related injuries 
        observed in live stranded pinnipeds along the central 
        California coast 1986-1998. Aquatic Mammals 25(1):43-51.

        Gulland, F.M.D., M. Haulena, L.J. Lowenstine, C. Munro, P.A. 
        Graham, J. Bauman, and J. Harvey. 1999. Adrenal function in 
        wild and rehabilitated Pacific harbor seals (Phoca vitulina 
        richardsii) and in seals associated with Phocine herpesvirus 
        associated adrenal necrosis. Marine Mammal Science 15:810-827.

        Gulland, F.M.D. 1999. Stranded seals: Important sentinels. 
        Journal of the American Veterinary Medicine Association 
        214:1191-1192

        Gulland, F.M.D., M. Haulena, L. Gage, and S. Thornton. 1999. 
        Anesthesia of juvenile Pacific harbor seals using propofol 
        alone and in combination with isoflurane. Marine Mammal Science 
        15:234-238.

        Ham-Lamme, K.D., D.P. King, B.C. Taylor, C. House, D.A. Jessup, 
        S. Jeffries, P. Yochem, F.M.D. Gulland, D.A. Ferrick, and J.L. 
        Stott. 1999. The application of immuno-assays for serological 
        detection of morbillivirus exposure in free ranging harbor 
        seals (Phoca vitulina) and sea otters (Enhydra lutris) from the 
        western coast of the United States. Marine Mammal Science 
        15:601-608.

        Stevens, E., T.P. Lipscomb, and F.M.D. Gulland. 1999. An 
        additional case of leptospirosis in a harbor seal. Journal of 
        Wildlife Diseases 35:150.

        Lapointe, J.M., F.M.D. Gulland, D.M. Haines, B.C. Barr, and 
        P.J. Duignan. 1999. Placentitis due to Coxiella burnetti in a 
        Pacific harbor seal (Phoca vitulina richardsi). Journal of 
        Veterinary Diagnostic Investigations 11:541-543.

        King, D.P., R. Parselles, F.M.D. Gulland, J.M. LaPointe, L.J. 
        Lowentine, D.A. Ferrick, and J.L. Stott. 1998. Antigenic and 
        nucleotide characterization of a herpesvirus isolated from 
        Pacific harbor seals (Phoca vitulina richardsi). Archives of 
        Virology 143:1-7.

        Lapointe, J.M., P.J. Duignan, A.E. Marsh, F.M.D. Gulland, B.C. 
        Barr, D.K. Naydan, D.P. King, C. Farman, K.A. Burek Huntingdon, 
        and L.J. Lowenstine. 1998. Meningoencephalitis due to a 
        Sarcocystis neurona-like protozoan in Pacific harbor seals 
        (Phoca vitulina richardsi). Journal of Parasitology 84:1184-
        1189.

        Stamper, M.A., F.M.D. Gulland, and T. Spraker. 1998. 
        Leptospirosis in rehabilitated Pacific Harbor seals from 
        California. Journal of Wildlife Diseases 34:407-410.

        Thornton, S.M., S. Nolan, and F.M.D. Gulland. 1998. Bacterial 
        isolates from California sea lions (Zalophus californianus), 
        harbor seals (Phoca vitulina), and northern elephant seals 
        (Mirounga angustirostris) admitted to a rehabilitation center 
        along the central California coast, 1994-1995. Journal of Zoo 
        and Wildlife Medicine 29:171-176.

        Johnson, S.P., S. Nolan, and F.M.D. Gulland. 1998. Isolation 
        and antimicrobial susceptibility of bacteria from pinnipeds 
        stranded in central and northern California. Journal of Zoo and 
        Wildlife Medicine 29:288-294.

        Gulland, F.M.D., K. Beckmen, K. Burek, L. Lowenstine, L. 
        Werner, T. Spraker, and E. Harris. 1997. Otostrongylus 
        circumlitus infestation of northern elephant seals (Mirounga 
        angustirostris) stranded in central California. Marine Mammal 
        Science 13:446-459.

        Trupkiewicz, J.G., F.M.D. Gulland, and L.J. Lowenstine. 1997. 
        Congenital defects in northern elephant seals (Mirounga 
        angustirostris) stranded along the central California coast 
        1988-1995. Journal of Wildlife Diseases 33:220-225.

        Gulland, F.M.D., L.J. Lowenstine, J.M. Lapointe, T. Spraker, 
        and D.P. King. 1997. Herpesvirus infection in stranded Pacific 
        harbor seals of coastal California. Journal of Wildlife 
        Diseases 33:450-458.

        Gulland, F.M.D. 1997. The impact of parasites on wild animal 
        populations. Parassitologia 39:287-291.

        Fauquier, D.A., F.M.D. Gulland, J.G. Trupkiewicz, T.R. Spraker, 
        and L.J. Lowenstine. 1996. Coccidioidomycosis in free-living 
        California sea lions (Zalophus californianus) in central 
        California. Journal of Wildlife Diseases 32:707-710.

        Gulland, F.M.D., M. Koski, L.J. Lowenstine, A. Colagrass, L. 
        Morgan, and T. Spraker. 1996. Leptospirosis in California sea 
        lions (Zalophus californianus) stranded along the central 
        California coast, 1981-1994. Journal of Wildlife Diseases 
        32:572-580.

        Gulland, F.M.D., J.G. Trupkiewicz, T.R. Spraker, and L.J. 
        Lowenstine. 1996. Metastatic carcinoma of probable transitional 
        cell origin in free-living California sea lions (Zalophus 
        californianus): 64 Cases (1979-1994). Journal of Wildlife 
        Diseases 32:250-258.

        Gulland, F.M.D., L. Werner, S. O'Neill, L. Lowenstine, J. 
        Trupkiewicz, D. Smith, B. Royal, and I. Strubel. 1996. Baseline 
        coagulation assay values for northern elephant seals (Mirounga 
        angustirostris), and the diagnosis of a case of disseminated 
        intravascular coagulation in this species. Journal of Wildlife 
        Diseases, 32:536-540.

        Grenfell, B.T., and Gulland, F.M.D. 1995. Introduction: 
        Ecological impact of parasitism on wildlife host populations. 
        Parasitology 111:S3-S14.

        Torgerson, P.R., J. Pilkington, F.M.D. Gulland, and M.A. 
        Gemmell. 1995. Further evidence for long distance dispersal of 
        taeniid eggs. International Journal for Parasitology 25:265-
        267.

        Parada, L., P. Cabrera, C. Burges, A. Acuna, C. Barcelona, M.K. 
        Laurenson, F.M.D. Gulland, J. Agulla, S. Parietti, E. Paolillo, 
        and B. Botta. 1995. Echinococcus granulosus infections of dogs 
        in the Durazno region of Uruguay. Veterinary Record 136:389-
        391.

        Gasser, R.B., L. Parada, A. Acuna, C. Burgess, M.K. Laurenson, 
        F.M.D. Gulland, M.P. Reichel, and E. Paulillo. 1994. 
        Immunological assessment of exposure to Echinococcus granulosus 
        in a rural dog population in Uruguay. Acta Tropica 58:179-185.

        Gulland, F.M.D. 1994. Wildlife situations. Veterinary 
        Parasitology 54:283-286.

        Gulland, F.M.D., S.D. Albon, J.M. Pemberton, P.R. Moorcroft, 
        and T.H. Clutton-Brock. 1993. Parasite-associated polymorphism 
        in a cyclic ungulate population. Proceedings of the Royal 
        Society of London Series B 254:7-13.

        Gulland, F.M.D. 1992. The role of nematode parasites in Soay 
        sheep (Ovis aries L.) mortality during a population crash. 
        Parasitology 105:493-503.

        Gulland, F.M.D., and M. Fox. 1992. Epidemiology of nematode 
        infections of Soay sheep (Ovis aries L.) on St Kilda. 
        Parasitology 105:481-492.

        Torgerson, P.R., F.M.D. Gulland, and M.A. Gemmell. 1992. 
        Observations on the epidemiology of Taenia hydatigena in Soay 
        sheep on St Kilda. Veterinary Record 131:218-219.

        Loudon, A.S.I., B.R. Brinklow, F.M.D. Gulland, J. Boyle, and 
        A.P.F. Flint. 1990. Roles of prolactin and the uterus in the 
        control of luteal regression in the Bennet's wallaby (Macropus 
        rufogriseus rufogriseus). Reproduction Fertility and 
        Development 2:71-78.

        Gulland, F.M.D., H.W. Reid, D. Buxton, J.C.M. Lewis, R.A. Kock, 
        and J.K. Kirkwood. 1989. Malignant catarrhal fever in a roan 
        antelope (Hippotragus equinus) at Regents Park. Veterinary 
        Record 124:42-43.

        Lewis, J.C.M., A.J. Fitzgerald, F.M.D. Gulland, C.M. Hawkey, P. 
        Kertesz, J.K. Kirkwood, and R.A. Kock. 1989. Observations on 
        the treatment of necrobacillosis in wallabies. British 
        Veterinary Journal 145:394-396.

        Kock, R.A., M. Jago, F.M.D. Gulland, and J.C.M. Lewis. 1989. 
        The use of Idazoxan and its analogue RX 821002A in zoo and wild 
        animals. Journal of the Association of Veterinary Anaesthetists 
        16:4-10.

        Gulland, F.M.D., K. Gebremeskel, G. Williams, and P.J.S. Olney. 
        1988. Plasma vitamins A and E, total lipid and cholesterol 
        concentrations in captive jackass penguins (Spheniscus 
        demersus). Veterinary Record 123:666-667.

        Hawkey, C.M., and F.M.D. Gulland. 1988. Haematology of 
        clinically normal and abnormal captive llamas (Lama glama) and 
        guanacoes (L. guanicoe). Veterinary Record 122:232-234.

        Henderson, G.M., F.M.D. Gulland, and C.M. Hawkey. 1988. 
        Hematologic findings in budgerigars with megabacterium and 
        trichomonas infections associated with ``going light.'' 
        Veterinary Record 123:492-494.

        Kirkwood, J.K., F.M.D. Gulland, J.R. Needham, and M.G. Vogler. 
        1988. Pharmacokinetics of oxytetracycline in clinical cases in 
        the red-necked wallaby (Macropus rufogriseus). Research in 
        Veterinary Science 44:335-337.

        Gulland, F.M.D., and P.C. Cowardine. 1987. Plasma metronidazole 
        levels in an Indian elephant (Elephus maximus) after rectal 
        administration. Veterinary Record 120:440.

        Gulland, F.M.D., D.L. Doxey, and G.R. Scott. 1987. The effects 
        of Eperythrozoon ovis in sheep. Research in Veterinary Science 
        43:85-87.

        Gulland, F M.D., D.L. Doxey, and G.R. Scott. 1987. Changing 
        morphology of Eperythrozoon ovis. Research in Veterinary 
        Science 43:88-91.

        Gulland, F.M.D., and R. Parsons. 1987. Clostridium glycolicum 
        in an addax. Veterinary Record 120:287.

        Kertesz, P., and F.M.D. Gulland. 1987. The surgical and 
        restorative dental treatment of a bactrian camel (Camelus 
        bactrianus). Journal of Zoo Animal Medicine 18:73-78.

        Gulland, F.M.D., J.C.M. Lewis, R.A. Kock, and J.K. Kirkwood. 
        1987. Vaccination against lumpy jaw in wallabies. Veterinary 
        Record 120:311.

        Pearce, P.C., G. Gustavo, F. Gulland, and J. Knight. 1985. 
        Immobilisation of a pygmy hippopotamus (Choeropsis 
        liberiensis). Journal of Zoo Animal Medicine 16:104-106.

    The Chairman. Thank you very much, Dr. Gulland.
    Senator Hutchison, if it's OK with you, can I just start 
with questions.
    Senator Hutchison. Sure.
    The Chairman. And I'd like to start, actually, with you, 
Dr. Gulland.
    After the oil spill incident of recent times, there were 
about, I think maybe 15 dead dolphins that washed up on the 
shores of the Gulf. And now I think this past year it was 50. 
And so, that sort of symbolizes a question which I think is 
almost impossible to ask, because I want to see how well you do 
in answering it.
    [Laughter.]
    The Chairman. We always do these things, you're going to be 
balanced in the way you look at everything. I'm not sure that 
your position calls for you to be balanced, and some of us 
discussed that honestly. There must be some way, whether it's 
ANWR or whatever it is. There's always, well--we can balance 
the needs of the natural order on Earth and the needs of our 
country economically, et cetera. Is that possible in what you 
will be doing?
    Dr. Gulland. That's a great question, Senator.
    [Laughter.]
    Dr. Gulland. And I think you're right, that my role is 
maybe not to be balanced, but to do my best for the 
conservation of the marine mammals and their ecosystem. And I 
think that's the key part of both the MMPA and the ESA--that 
they emphasize conserving the ecosystem as well as the marine 
mammals. And the ecosystem does actually include the fisheries, 
the food chain, the environment and, in my mind, the people as 
well. So, we strive to do that.
    The balance--if we're considering oil and gas development, 
maybe navy exercises, shipping--is in trying to minimize risk, 
trying to safeguard that ecosystem. And with the tragedy of the 
Deepwater Horizon, where there was also regrettable loss of 
human life--it's not just 50 dead dolphins--I think we all 
actually have a common interest. It's not as if there are a 
group of conservationists striving for just the dolphins. We 
also care about human safety on oil and gas rigs. So, we don't 
want there to be explosions, losses. We don't want there to be 
spills. This damages fishing, recreation, and causes economic 
losses.
    So, really, we all want the same thing. We might just be 
emphasizing different parts of it.
    So, to achieve balance, to come back to your question, I 
think there has to be a good dialogue between the different 
stakeholders. There has to be integration amongst agencies. And 
most of all, we need strong science to guide us.
    The Chairman. Let me pursue that. Your answer's a good one. 
I read this in the Washington Post, so it doesn't necessarily 
make it true or untrue, but they may have referred to a 
scientific study, and I think they probably did. And that is, 
that we've lost 80 percent, in the last 10 or 20 years, 80 
percent of the predator fish in all of our worldwide oceans, 
and that the remaining 20 percent will disappear within the 
next 10 years, which I think completely undoes the balance in 
the oceans and leaves us with billions of minnows, and not much 
else.
    Again, I mean, how does one address that? Or does one say 
that it's just too late? Or does one say that we ban all nets 
on all continents everywhere by all countries? Do we go after 
the Japanese? I mean, what do you do with a situation like 
this?
    Dr. Gulland. Another excellent question. I come from an 
area of expertise in marine mammals' medicine and health, 
rather than in fisheries management. But as I mentioned in my 
testimony, I have been exposed to fisheries management since I 
was a child. And many of these fisheries biologists that are 
talking about loss of 70 percent or the last 10 percent left 
aren't in complete agreement.
    There are actually two very strong camps, which is why that 
type of news does hit the front page of the Washington Post. 
There are strong opinions that it's too late, and there are 
also equally strong opinions from very good fishery scientists, 
strong mathematicians, that say, no, it's not.
    Ecosystems are extremely resilient. And fish do have much 
shorter life spans than marine mammals. So, if we can address 
the changes that are causing declines, they can come back. And 
there's an extremely interesting example currently in the 
Northwest Hawaiian Islands.
    The Northwest Hawaiian Islands are now one of the largest 
marine protected areas on the planet as seen from space, the 
[Papahanaumokuakea Marine] National Monument. And on those far 
islands we have an extremely endangered marine mammal, the 
Hawaiian monk seal. Only about 1,000 animals are left, and 
declining dramatically. There is a lot of concern about their 
extinction.
    Those animals out on the Northwest Hawaiian Islands are now 
in an area that is completely protected. There is no fishing, 
there is no tourism, there are no potentials of oil spills. 
It's really one of the most pristine-looking protected areas. 
There are also monk seals on the main Hawaiian Islands--only a 
few hundred, and they're gradually increasing around the main 
Hawaiian Islands. So, what we're seeing is a decrease in this 
highly threatened monk seal population out in the 
Northwesterns, and then a few hundred animals on the main 
Hawaiian Islands--where we still have fishing, we have 
recreational fishing, we have tourism, we have runoff from 
sewage--where we have introduced animals. Those animals are 
doing great. They're fat. They're reproducing. And everyone 
looks at me and goes, what do you mean they're in danger? I saw 
two on Poipu Beach.
    So, what's happening up on the Northwesterns--there appears 
to be a huge abundance of predatory fish. There are massive 
ulua, that are big carnivorous fish. And as the monk seals go 
to feed, they'll turn a rock over--and there's fantastic video 
footage of this, with cameras attached to monk seals' heads--
and they'll turn this rock over. Little fish come out, and 
these predatory fish will come and compete with the monk seal 
for those small fish.
    So we have a situation that seems to have done the opposite 
of what you have read in the Washington Post in that there's 
actually an abundance of predatory fish, to such an extent that 
they are competing with a mammal the size of a seal, and there 
are relatively few small fish. And in contrast, on the main 
Hawaiian Islands, we have fewer predatory fish, and a greater 
abundance in the food chain of small fish. So, the situation 
isn't black and white. There are places that there are plenty 
of larger fish. And fish are rapidly reproducing and resilient, 
compared to something like a right whale.
    So the bottom line is, if we can understand what is 
changing numbers in fish, we can--well, we've caused dramatic 
changes. We've done that through extensive fishing efforts. But 
if we can understand what's driving them, we can put measures 
in place to change balance. We're very good at changing 
balances. We just need to do it in the right direction in the 
future.
    The Chairman. I thank you for that answer very much.
    And I apologize. I've run over my time.
    Senator Hutchison.
    Senator Hutchison. Well, it was very interesting, the 
questions and the answers. So, thank you.
    I'm going to focus on Mr. Coyle and Dr. Sullivan, because I 
know Ann so well, and I think you have been very forthcoming.
    Mr. Coyle, I want to get right to it with you. Last year 
you were asked about statements that you have made in the past 
about the nation's missile defense technology program, 
questioning its readiness for deployment, and the testing 
program. My question to you is, where does your status of 
thinking now stand on the missile defense program in our 
country?
    Mr. Coyle. Thank you, Senator Hutchison.
    My job is to be a champion for science and technology in 
all areas of national security, and that includes missile 
defense. OSTP is not involved in operational matters having to 
do with missile defense. OSTP is not involved in deployment 
issues or things of that sort, and I am not either. So, in the 
job in which I'm serving now, the kind of things that I 
commented about when I was in the Pentagon are just not my 
direct responsibility.
    Senator Hutchison. Mr. Coyle, if I could just interrupt 
you, your view of our missile defense system, however, is going 
to make a difference, because you do have a purview of national 
security--it is a different area, but your comments in the past 
have raised questions about your view of missile defense, which 
I think is going to be important in the decision about your 
posture in national defense issues. So, that's why I'm asking 
the question and giving you a chance to answer.
    Mr. Coyle. Yes. And I understand. And my point of view is 
that missile defense should have the best science and 
engineering that it can have, and I will work to make sure that 
it does, as in any other area of national security. I've said 
publicly that if the threat were to go away entirely--if Iran 
would start behaving differently, if North Korea would start 
behaving different--if the threat would go away entirely, I 
would still advocate for a strong research and development 
program in missile defense, if for no other reason than to 
avoid technological surprise in the future.
    Senator Hutchison. So, may I ask you, do you support, then, 
the deployment of a missile defense system if you consider that 
it is scientifically ready?
    Mr. Coyle. Yes----
    Senator Hutchison. Considering the threats that we have 
with Iran and North Korea.
    Mr. Coyle. Yes. Of course. And I've publicly supported the 
administration's Phased Adaptive Approach when I was not in 
this position.
    Senator Hutchison. Phased Adaptive Approach. I just want to 
make sure that you----
    Mr. Coyle. Yes.
    Senator Hutchison. You are saying you support missile 
defense because of the threats that we have, and that even if 
we didn't have the threats that we have, you would still 
encourage having the research and technology to have a 
deployable missile defense system--I'm putting words in your 
mouth but----
    Mr. Coyle. Well, you're not. That's correct.
    Senator Hutchison. OK.
    Mr. Coyle. I do support, you know, a robust research and 
development program for missile defense. And the comments I've 
made in the past were really not aimed at anything different 
from that.
    Senator Hutchison. But you do support deployment as well?
    Mr. Coyle. I do. It just isn't my area. But, yes. And I've 
supported the deployments which are taking place now of the 
system that's called the ``Phased Adaptive Approach'' in 
Europe, which is just one piece of the country's efforts in 
missile defense.
    Senator Hutchison. Thank you.
    Dr. Sullivan, over the past four congresses I've introduced 
legislation to establish a weather modification research 
program. We've not yet passed that bill. Previous versions of 
my legislation did direct NOAA to conduct this research. NOAA 
actually did research until a couple of decades ago on weather 
modification, and the National Academy of Sciences has 
recommended in 2003 that the country needs a national program 
to study weather modification.
    What I am envisioning--and I want to know your view on it, 
if you think it is something that is worth pursuing--is that we 
would have the data and the research to study weather 
modification programs that go on. I mean, we know there's cloud 
seeding for snow in the Rockies that could affect the rainfall 
elsewhere, that sort of thing. And then also that, perhaps the 
efforts to contain hurricanes with certain weather modification 
efforts--does it affect something more down the road, or in 
other areas of the country or the world?
    My question is, do you think that we should be pursuing 
this type of research--or, at least, data collection--and, if 
so, how would you go about that at NOAA, and if not, why not?
    Dr. Sullivan. Thank you, Senator.
    Anyone who has ever ridden out a hurricane, as I know many 
of your constituents have done and as I had the adventurous 
time of doing just this past October in the southern Caribbean, 
certainly goes through moments of wishing that someone knew how 
to at least hurry hurricanes along, so that that really intense 
and frightening period passed more quickly, and certainly----
    Senator Hutchison. Or possibly lessening the intensity.
    Dr. Sullivan.--or lessening the intensity. And certainly 
the people of Saint Lucia would have been grateful for either 
of those effects.
    I think you've put your finger on the point as a scientist 
that would concern me. But my concern would be at a fairly 
fundamental level, of being sure we really understand richly 
the underlying processes that give rise to the weather 
phenomena that we're concerned about, that shape their 
structure, their intensity, their trajectory. My concern about 
a general weather modification effort would be that, absent 
that fundamental understanding, I don't think we would be 
properly equipped to assess properly, make good judgments about 
which methods could be used or not use.
    So, I see the challenge, really, as being a deeper, earlier 
stage of understanding. I think many of NOAA's climate research 
and weather research programs are continuing to build that 
foundation. So, some of the questions that you have posed I 
believe can be answered from the research base that we have at 
hand. And I would certainly encourage that we do that.
    It's important to understand what consequences, as you 
pointed out, any effect or change in one region might have upon 
another. And certainly, with respect to a larger, highly 
intense system such as hurricanes, hurricanes serve important 
purposes in our atmosphere of moving heat and energy, as you 
all know. And as Dr. Gulland has said, I think we should be 
sure we're wisely informed before we go making alterations to 
such large balance systems.
    Senator Hutchison. Do you think that we should be doing 
more, and it is worth pursuing more of an effort, to get the 
data collection on what does happen now and its effects on 
other areas, to begin to look at whether it is the right thing 
to do, to try to modify, say, hurricane intensity? Because I 
don't disagree with what you're saying. We don't know what the 
effects are. But, to find out better what the effects might be, 
should we be focusing more on either data collection or 
research? There's not even data collection right now on a 
national level.
    Dr. Sullivan. Senator, the last time I was deeply 
conversant with NOAA's research portfolio is now 15 years ago, 
so I'm not in a good position to comment on what applicability 
the activities currently in the portfolio may have on your 
question. If confirmed, I would certainly be pleased to get 
back to you on that and would pledge to work closely with 
NOAA's chief scientists to be sure that we understand the 
questions that you're interested in pursuing and we're making 
the best possible use of NOAA's observing systems and research 
capability, to get at the highest priority scientific 
questions.
    Senator Hutchison. OK. Well, I understand that you can't 
answer the question. Because I do think you're qualified. But I 
don't think you're answering the question. And I understand 
perhaps that you don't have the capability, or the information, 
rather, from the agency.
    I guess my last question would be, would you work with me 
and my staff to determine what areas we might pursue to upgrade 
our information in a positive way?
    Dr. Sullivan. I would absolutely pledge to do that, 
Senator. Gladly.
    Senator Hutchison. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hutchison.
    And, Mr. Coyle, your answer to Senator Hutchison's question 
was interesting. Let me just say that you cannot find in this 
Senate anybody who's more opposed to a missile defense system 
than I am. But that makes absolutely no difference to me with 
respect to your position, because OSTP has absolutely nothing 
to do with missile defense. You don't work on it. You don't 
study it. You have nothing to do with it. So, if I felt that 
you did, you probably wouldn't get my vote--[Laughter.]
    The Chairman.--because I think it's absurd and 
unaffordable. But you are going to get my vote, because OSTP 
does not work on this, and you work for OSTP. In fact, you 
can't bring your previous thoughts into your job, as I see it--
and I want you to correct me and say that I'm right or wrong in 
how I analyze it. What you work on are the responsibilities of 
the Department of Defense and the National Security Council and 
others, but OSTP champions science and technology. I don't 
think of it in terms of a missile defense system or not. It's 
just never, the thought would never occur to me, because OSTP 
doesn't do that. That's not what he works on.
    So, is it not fair to say that you have absolutely no 
responsibility for operations, acquisitions or deployments of 
things such as the missile defense system?
    Mr. Coyle. Senator, that is correct. I have absolutely no 
responsibility----
    The Chairman. I'm trying to come to your defense.
    [Laughter.]
    Mr. Coyle.--I have absolutely no responsibility for 
acquisition or deployments, or operational matters, and I tried 
to answer Senator Hutchison to make that point in the first 
part of my answer.
    The Chairman. Yes. Sort of. I mean, this is a tricky place, 
and you ought to know that after five administrations. People 
fasten on one sentence out of a 10-paragraph, or a 10-chapter 
book. I want you to be nominated, so I think your leading 
sentence ought to be, ``I have nothing to do with missile 
defense in my new position if I am confirmed.'' I think that's 
a great opening sentence for you.
    Mr. Coyle. The reason I didn't say that is because I really 
do believe that for our national security America really should 
have the very best science and engineering, and that would 
include missile defense. So, if General O'Reilly, the head of 
the Missile Defense Agency, was having a problem where he 
needed OSTP's help in identifying science and technology that 
could make a difference I would help him.
    The Chairman. Well, you're a very honest man. But you may 
have just lost my vote.
    [Laughter.]
    The Chairman. I mean, I'm going to talk with Dr. Holdren. 
We're not a bunch of monkeys up here, and you ought to, after 
all your time in Washington, understand the nuances of how this 
place works. And what you're basically saying is, you're 
connecting yourself to missile defense. Some think missile 
defense is great. Some people are neutral about it. I don't 
happen to be, on the basis of the cost of it, now or 30 years 
from now. I guess we'll have to let that one just rest where it 
is. But I am going to talk to Dr. Holdren about what you said. 
Because what you imply is that you would have missile defense 
system in mind as you were doing science and technology 
research. And if that's the case, I can't deny that that's your 
right to so say and so believe, because it is what you believe. 
But I can be concerned, you know, if that system becomes a 
matter of national interest--which I don't foresee because we 
can't possibly afford it in the years to come--that you would 
be ready to apply your science and technology out of OSTP. I 
mean, it's confusing to me and a little bit discouraging. So, I 
will be talking with Dr. John Holdren about this.
    Mr. Coyle. If I could just add a comment.
    The Chairman. You sure can. And I hope you do better.
    Mr. Coyle. My view would be no different if you asked me 
about a tank or a truck or an airplane or a helicopter or a 
satellite system, or any other system that was important to 
U.S. national security. If the Pentagon came to OSTP and said, 
we're having a problem with this tanker truck or ship----
    The Chairman. Then say that. Which you are. Say that.
    Mr. Coyle. Well, that's what I've been trying to say.
    The Chairman. No. It isn't what you were trying to say. 
What you were trying to say is that you have a deep belief in a 
missile defense system and you always have, and you will 
continue to have that, and you didn't say, ``If I have to work 
on tanks, if I have to work on, I'll, I do whatever I'm 
required to do.'' Obviously, if President Obama suddenly shifts 
into a missile defense mode, which I see not happening in any 
way, shape, or form, then you would have to respond to that. I 
understand that. But, look, you're trying to get confirmed, and 
make it as easy as possible on yourself and on us. OK?
    Mr. Coyle. Yes, sir. My, as I say, my view is America 
should have the best science and technology that it can, and I 
see it as my job to make sure that that happens in all areas.
    The Chairman. Well, you're a very honest man.
    Let me see. I can't pass up Ann Begeman.
    [Laughter.]
    The Chairman. But I'm going to for the moment.
    [Laughter.]
    The Chairman. And, Dr. Sullivan, the, NOAA's very 
proactive. Its satellite program is very proactive. And Senator 
Hutchison mentioned some of this.
    [Laughter.]
    The Chairman. I had an experience last week where I was put 
on the news in a local TV station in West Virginia on the 
weather section. I've never been interviewed as a matter of 
news on the weather section. But this person is so ferocious in 
his commitment to weather, and he's looking at budgets where 
he's just being, in one case, cut by one-third, and he says 
that means that we won't be able to predict, I think he said, 
twisters and hurricanes with anywhere near the degree of 
accuracy which Senator Hutchison was referring to in her 
experience in Texas. We won't be able to do it. And, as a 
meteorologist, I'm offended, shocked, fearful of that in terms 
of the safety of the people that I report to.
    Now, that isn't my question, but that is my experience on 
that. NOAA's satellites are so crucial in directly saving lives 
and minimizing property damage and doing all kinds of things 
which nobody else is working on. I mean, NOAA ought to be as 
well-known as NASA. It isn't. But the work it's done may be as 
important. Of course, NASA discovers the cure for MRSA, in 
which case they'll have my support forever and ever. And one 
other that goes along with that. What else are they doing up 
there? Another huge disease.
    Dr. Sullivan. I don't know, Senator.
    The Chairman. I'll come to that.
    Anyway, this Administration has worked very swiftly to 
restructure the polar orbiting satellite program. And it's had 
a history of lots of cost overruns and lots of delays. And I 
supported the administration's plan when it was announced. But 
I am deeply concerned that needed appropriated funding to 
implement the plan is very much in question right now and, 
frankly, one of the reasons is that NOAA has not been 
responsive to this committee in terms of funding.
    I met with Jane Lubchenco yesterday or the day before. NOAA 
has alerted the Committee that we risk losing the forecasting 
of weather that I talked about, but there are no new satellites 
in place, and I have to say that the White House hasn't been 
particularly responsive to us. NOAA has not yet provided the 
Committee with any alternative plans or options that might be 
available to the agency to cover some of the essential 
satellite functions should appropriate funding now work, and 
there's a very good chance that it won't. There's a high 
probability that it won't--that we're going to have some very, 
very grim years. So therefore, filling in the missing gaps 
becomes an art and a science, and a necessity.
    So, you've got the JPSS system--what is your advice to us 
and to the Committee, so that we have as much functionality as 
possible on this?
    Dr. Sullivan. Senator, I completely share your concern 
about the potential erosion of forecast capability--timely 
accuracy, timeliness, accuracy, coverage at high latitudes. 
They're absolutely essential to protection of life and 
property, as you said. But as you also know very well, timely, 
accurate weather information has now become woven into the 
operating fabric of countless sectors of our economy as part of 
their means to obtaining higher productivity. Now, that, too, 
would be lost if we suffer a severe gap.
    I don't know the technical answer to what alternatives 
may--I don't currently know the technical answer to the 
question of what alternative ways of dealing with a gap, should 
one occur, might exist. But I share your view that it's 
imperative that the agency begin to work in that direction and 
find such solutions,.
    The best I can say sitting here today, Senator, only aware 
of the issue to the degree I've been able to follow it in the 
trade press, is that, if confirmed, I would pledge to work very 
closely with you and your staff, and find every measure we can 
to mitigate the consequences to our country, to our citizens, 
to those very critical life and safety functions of whatever 
cycle, whatever timeline the budgets eventually appropriated 
might enable us to carry out.
    The Chairman. I just think that every agency is faced with 
this.
    Dr. Sullivan. Yes.
    The Chairman. I'm not going to vote that way. But I think 
the majority, certainly in the House and probably in the 
Senate, will. That is with some Democrats bleeding over into 
the Republican side on that. Whether it's the Veterans 
Administration or anything, people are going to have to be 
looking at how to fill in gaps which heretofore have not 
existed psychologically or actually.
    People don't plan for problems that don't exist. Now all of 
a sudden we have a problem which has already passed the House, 
and another one that's passed the Senate, but both of them have 
insufficient votes to become reality. So we have to try and 
compromise at a time when nobody appears to be willing to 
compromise. In fact, the act of not compromising is sort of a 
virtue, which is a new twist to democracy, and one that I don't 
welcome. But it's one that I think you're going to be faced 
with. So, I would just hope that you would be very strong about 
that, to protect your programs you're going into NOAA to do and 
to be very realistic with them.
    Dr. Sullivan. I promise you, Senator, we will be.
    The Chairman. OK. And I believe you. Because I think you'll 
be scared out of your wits when you get there.
    [Laughter.]
    The Chairman. Ms. Begeman, a couple questions. And you have 
absolutely no idea what they're going to be about, do you?
    Ms. Begeman. Not missile defense.
    [Laughter.]
    Ms. Begeman. I'm hoping.
    The Chairman. They are going to cut this, you know, they 
may not know what it is. That's our hope. That they don't know 
what the, they think it's still the ICC. They're looking around 
for the ICC and they can't find it, so they can't cut it.
    [Laughter.]
    The Chairman. That may be the way out. No budget cuts for 
Ms. Begeman.
    But, as you know, I've been working 26 years on this 
question of captive shipping. And it's a tough one, because on 
the one hand, I want to see railroads do well. I want to see 
the high speed railroads. I'm not sure that they're going to 
get through the budget process, but I want to see that happen. 
You know, I saw something very interesting the other day. 
Everybody says we're falling behind on some of these matters. 
And part of the answer is, not so much that we're falling 
behind, but others are catching up at a very, very fast rate 
because they have a lot of money to spend and they've put it 
where they think they need it most to get ahead in the world, 
the fastest, which is, you know, STEM and all the rest of it, 
and infrastructure.
    So, there sits STB. And we have tried for years, as you 
know--and you've been participating in those meetings--to work 
with the railroads and the captive shippers to try to get them 
to compromise so that we can put an end to all of this. Because 
the captive shippers feel aggrieved. I understand that, because 
many of them are in my state. And many of them are in South 
Dakota. They're called ``granaries.'' And they have a single 
line going in, and so the railroad can charge whatever price it 
wants. And that's not the way the original 1984 law was 
intended.
    Now it has backslid just a bit. Not the law itself, but the 
interpretation of the law. But it hasn't really. So, you get to 
the question of, how do you make sure that the railroads are 
doing well? How do you also make sure that consumers are doing 
well? At least, I want to see it that way. We go after how are 
consumers not being treated fairly, and what can we do about 
it? That's been what we've done for the last several years, and 
you're aware of that.
    The railroads are saying they're broke--actually, I think 
of the four major railroads there's only one which is actually 
putting a brake on this process. And they stick together. But I 
think the others really want to see a resolution to this, 
because they don't want to see a whole series of claims and 
protests and suits, et cetera, be brought to the Surface 
Transportation Board, where you, I pray, will be sitting. In 
order to do that, we have to, sort of, things have to get 
worked out a little bit.
    I'm not going to ask you these questions, because your 
answers will be yes, and they should be.
    Ms. Begeman. Yes.
    The Chairman. And they were the typical type of thing.
    But, you know, if Warren Buffett and Bill Gates invest in a 
railroad, and Warren Buffett says, ``This is one of the best 
things I've ever done,'' you don't exactly weep over their 
financial position. They're doing very, very well, thank you--
and you looked at their annual reports and they're doing very, 
very well, thank you--but the STB continually sees them as 
being revenue inadequate. This has mystified me for years.
    Now, the American Railroad Association is very powerful. 
I'd say it's more powerful than the NRA or AARP. It's just that 
nobody knows it exists, which is the reason it's powerful. It's 
under the radar. But it can't be for you.
    We had, when I came here, fifty Class A railroads. We now 
have four. Not including, obviously, Amtrak. So, do you believe 
that the STB's revenue adequacy measurement presents a clear 
and accurate picture of the financial health of the railroads?
    Ms. Begeman. I think it represents sort of a point in time 
for each carrier when the STB does its annual determination of 
revenue adequacy. But I don't think necessarily the symbolism 
of that determination means that it's the Blue Light Special at 
Kmart, and that means railroads get to charge higher rates. It 
doesn't mean that.
    Revenue adequacy was actually created in the 1980s as part 
of the Coal Rate Guidelines as one of the four restraints on 
pricing. And you're probably quite familiar with the SAC case, 
which is the long, kind of drawn-out process in which coal 
shippers may bring cases to the Board and some get remedies, 
some do not.
    The revenue adequacy constraint is one that, frankly, the 
Board, and the ICC before it, never quite fleshed out. My 
understanding is that it's considered to be, like, a long-term 
constraint, and it's one that over time the ICC said that it 
would flesh out more. I'm aware that recently a case actually 
has been brought to the Board in which they are trying to 
utilize the revenue adequacy constraint. So, I can't go too 
much further on that topic. But I do know that I believe in the 
early 2000s that the issue of the revenue adequacy constraint 
was something that was used in a pipeline case. And so, I think 
that, should the case that has been filed at the Board go 
forward, it's something that all of us will learn from and 
consider based on the facts. And I certainly will do my best to 
have an open mind, but to make any decision on the facts.
    The Chairman. OK. Now, let me ask you this. I have so many 
examples in my small state of West Virginia--and it doesn't 
just involve coal, it doesn't just involve steel, it doesn't 
just involve agriculture. It involves wood, all kinds of other 
things, and chemicals--where the railroads have you, because 
they only have a single rail into the area. For example, 
Weirton Steel, which used to employ 13,000 people. It now 
employs barely 1,000.
    They got astronomical rate charges because there was no 
competition of another railroad going into this huge steel 
factory, steel mill. They had no competition. And so they would 
just increase prices. Some years it would be $8 million more 
that they would just increase rates over what a normal 
competitive situation would be. John Snow at that time was head 
of CSX. As I've often said here when he was put up for 
Secretary of the Treasury--I voted for him three times on the 
Senate floor just to get him out of CSX.
    [Laughter.]
    The Chairman. But, he would come in and he would bargain 
with me. He'd trade. And he'd say, All right, all right, all 
right. Let's get the parties in.'' And then he'd say, ``Well, 
I'm going to do this for you. I'm going to take $8 million off 
of what I charge you in Weirton Steel.'' And that was a favor 
to me? I mean, that he was coming down when it's an 
artificially high price, to what he judged to be something that 
would make me happier. Well, it didn't make me happier, because 
the fact that he came down proved my case. I didn't say, ``No, 
I won't accept the $8 million reduction,'' but it's very, very 
frustrating.
    Let me just end on this, and we'll all be free.
    I do have significant concerns over how accessible, even 
today, the STB is to captive shippers. I care about captive 
shippers, because they are the small businesses, the large 
businesses, the central parts of the economy of all of our 
states. And railroads are everywhere. Often they have two 
railroads competing; that's fine. That's what the Staggers Act 
contemplated. Let their price competition settle what the price 
will be. But for the 20 percent that didn't meet that criteria, 
there would have to meet some other standard born. It 
originally was meant to be settled by the ICC, and what the 
situation on that is, is a matter of conjecture.
    But in any event, the small businesses in particular, they 
feel they are being charged exorbitant rates, and they are 
victims of very poor service.
    So, my question to you would be, do you share my concern so 
that the Board should be accessible and affordable to all 
shippers?
    Ms. Begeman. I believe it should be accessible and 
affordable to all the stakeholders. Absolutely.
    The Chairman. All right. Will you commit to work to ensure 
that the Board is accessible and affordable to shippers?
    Ms. Begeman. Yes.
    The Chairman. And that means you'll have to find examples 
where they're not.
    Ms. Begeman. Well, one of the things that the Board has 
done in the past few years has really kind of beefed up its 
Office of Public Assistance. And they have, there also is a 
mediation process at the Board that, as more shippers and 
customers are aware of it, I think it's an avenue in which 
there can be some resolution brought to issues that, you know, 
don't need to turn into multimillion-dollar cases, necessarily. 
But it's something in which the STB and the folks that work in 
that office can help promote resolution in a timely manner.
    The Chairman. OK.
    All I can ask from you is to be fair. But not fair in the 
way that people usually say it. I mean, I think after 26 years 
I'm in a remarkably good humor on this whole subject, don't 
you?
    [Laughter.]
    The Chairman. I'm not being caustic. I'm just trying to 
make pleasant questions here. But hard questions.
    It's lunacy that this situation exists. And it exists 
because nobody knows about it. It exists because the people who 
are small--now you've made some changes on this in the STB. 
They can more easily afford to get into the legal problem. It 
used to be that they'd just be stonewalled out because they 
couldn't possibly afford the legal expenses and they knew that, 
so they didn't try. And I think you've made some progress on 
that. How much, we will see.
    But when I say that you will be fair and open--and you say 
that you'll be fair and open--it's a little bit different kind 
of an answer when coming from a nominee from the STB than for, 
let's say, some other agency. I think that it is about 
railroads, but railroads only make money if they have shippers. 
And shippers are small businesses, they're people from all over 
this country. Nobody pays any attention to them. It's wrong. As 
you know, we fought mightily last year. We thought we were 
getting close, but then one railroad balked. I think a couple 
of the other railroads would have gone along with a settlement 
just to get rid of this problem. We're going to settle it 
through legislation, but I would much prefer to see it done 
through the STB being responsive. But I want you in, sort of, 
the definition of clarity, to really promise to be fair.
    Ms. Begeman. I will be fair, and I will have an open mind. 
I don't have an empty mind when I approach--I'm really not 
making a joke about it, because I have been fortunate to really 
get to work on these issues for so many years. And so it's not 
like I'm just going to be walking in sort of----
    The Chairman. That's correct.
    Ms. Begeman.--listening to someone, like, OK. You know, I 
think that's a value. At least, I hope it will be.
    The Chairman. It will. Nobody's going to be able to run 
anything past you. You'll know it.
    Ms. Begeman. I hope so.
    The Chairman. Yes. OK.
    You've all been very patient and very kind. And I thank you 
all very much.
    We're going to try and do this as quickly as we possibly 
can. I checked with Senator Hutchison, and we're hoping maybe 
we can even do this off the floor next week.
    I thank you, and the hearing is adjourned.
    [Whereupon, at 11:33 a.m., the hearing was adjourned.]
                            A P P E N D I X

   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                             Ann D. Begeman
    Question 1. Do you agree that our national freight railroad system 
should be as competitive as possible and provide rail customers 
reliable service at reasonable prices?
    Answer. Yes.

    Question 2. How do you view the relationship between fair rail 
pricing and economic growth?
    Answer. I don't consider the two to be mutually exclusive. Recent 
reports concerning increased freight shipments in the rail industry are 
good news for our economic recovery, and for the future of rail 
transportation service. The Staggers Act recognized the need for the 
industry to earn revenues to return to viability and reinvest in its 
infrastructure--it is a highly capital intensive industry--while 
protecting against the abuse of market power. Profitability shouldn't 
come about through the abuse of market power at the expense of captive 
shippers, but rather through increased freight volume and productivity 
gains.

    Question 3. Do you agree that effective regulatory protection for 
rail customers where there is an absence of competition is necessary in 
the freight rail industry?
    Answer. Yes. The Rail Transportation Policy (49 U.S.C. Section 
10101), which guides the federal government in its oversight and 
economic regulation of the rail industry, envisions this. The STB must 
always work to strike an appropriate balance among these policy 
directives, and if confirmed, I will be committed to doing so.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                        Dr. Kathryn D. Sullivan
    Question 1. Much of your time will likely be spent on satellite 
acquisition. What are your views on how NOAA is currently handling the 
Joint Polar Satellite System (JPSS) program?
    Answer. If confirmed as the Assistant Secretary for Environmental 
Observation and Prediction, I expect to spend a considerable amount of 
time working with NOAA's Satellite Service to ensure a successful, full 
transition of the JPSS program. One of my goals will be to place this 
program on a path to achieve mission success.
    While I have followed this issue in the trade press, I do not have 
detailed knowledge of NOAA operations and management of the program. 
From what I know of both NOAA and NASA in my previous time in each 
agency, their missions, personnel and operations are well complemented 
to running a successful program. If confirmed, I assure you that one of 
my first priorities will be to review JPSS management and program 
status rigorously, and ensure that current activities meet the highest 
standards. All of NOAA's satellite acquisition programs should achieve 
the stated goals of delivering space-based observations that are 
critical to saving lives, property, and critical infrastructure.

    Question 2. The JPSS is an expensive program; the request for FY11 
was around $1B. Can you expand on why we should make funding JPSS a 
priority even in these challenging budget times?
    Answer. All sectors of the U.S. economy are weather-sensitive and 
NOAA is charged with the responsibility of providing environmental data 
and services to protect lives, property, and critical infrastructure of 
the nation. In fact, weather and climate sensitive industries account 
for about one-third of the nation's GDP, ranging from finance, 
insurance and real estate to services, retail, and wholesale trade and 
manufacturing. Satellite data comprises over 97 percent of the data for 
numerical weather prediction models and for weather forecasting, for 2-
10 day weather forecasts. Without JPSS, today's high confidence weather 
forecasts would extend out only 5 days instead of the current 7 days. 
Alaska would be particularly impacted by the loss of JPSS. Due to its 
high latitude, Alaska depends on polar satellites for almost all its 
weather forecasting for aviation, maritime, oil and gas operations. If 
confirmed, I will work to ensure that these programs are planned, 
procured and implemented with strong management and fiscal discipline 
and in accord with management ``best practices.''

    Question 3. A gap in coverage by polar orbiting satellites is 
particularly troubling for Alaska where the safety of pilots, fishermen 
and other mariners and the general public depends on accurate weather 
forecasts. Does NOAA have a ``Plan B'' if you don't get the JPSS 
funding this year?
    Answer. I agree that a gap in coverage for Alaska is troubling. 
NOAA's polar-
orbiting satellites are the main sources of data for Alaska, due to its 
high northern latitude and remoteness. As someone who has worked and 
flown in Alaska, I appreciate keenly how critical this information is 
to the many Alaskans who make their living through aviation or share 
that hobby. From my conversations with NOAA leadership, I know that 
their attention is acutely focused on implementing the JPSS program to 
ensure any gap in coverage is minimized.
    As I am not yet confirmed, I am not yet aware of what NOAA's 
operational back up plans may be. From my prior experience with NOAA 
and my time in NASA, I suspect that one option for a ``Plan B'' would 
be to leverage the European METOP satellites; however, the data is not 
optimal for all NWS forecasts, due to its orbit. Even with METOP 
satellites, a gap in NOAA's afternoon polar-orbiting satellite coverage 
would result in a degradation of forecast accuracy by 1 to 2 days. 
Higher confidence forecasts would only extend out 5 days instead of the 
current 7 days, significantly impacting the advanced warning time for 
severe weather events.
    NOAA could also work to leverage data from older NOAA satellites, 
other U.S. satellites, such as NASA's research satellites, and from 
foreign sources such as the Japanese and Chinese polar-orbiting 
satellites. However, I believe that NOAA's weather models and forecast 
capabilities are not currently configured for use with these sources, 
and forecasts will be severely degraded, thus impacting all sectors of 
the U.S. economy. Additionally, it puts the United States in a position 
of relying on foreign data for its domestic weather and climate needs 
over which the U.S. has no control.
    If confirmed, I will work to ensure that NOAA's satellite programs 
are sustainably implemented so that the nation continues to have the 
data, and services it requires.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                        Dr. Kathryn D. Sullivan
    Question. What do you envision are NOAA's predictive capabilities 
and remote sensing responsibilities in monitoring rapid deforestation 
in tropical forests and land use change around the world to address 
grave impacts of increased emissions from deforestation and 
degradation?
    Answer. Deforestation in tropical forests and other land use 
changes are critically important variables in the Earth's climate. 
While the primary driving requirements on NOAA's observing systems, 
particularly satellites, are oceanic and atmospheric data needs, NOAA 
partners with other federal agencies such as the U.S. Geological 
Survey, the U.S. Department of Agriculture, and the U.S. Agency for 
International Development to provide NOAA Polar-orbiting Operational 
Environmental Satellites (POES) data for use in monitoring global land 
use forestry.
    For decades, NOAA also has played a leading role in monitoring 
atmospheric concentrations of carbon dioxide and other greenhouse 
gases, and has the capability of reporting changes in emissions on 
broad scales across the globe. This monitoring network makes valuable 
contributions to an improved international understanding of the global 
carbon budget and changes in the atmospheric concentration of other 
greenhouse gases that can be associated with land use change, like 
methane.
    Global climate models also use information about land use change 
and deforestation to assess relevant impacts on past climate, as well 
as in development of projects for the future. NOAA is a world leader in 
global climate modeling and is at the forefront of integrating land use 
into climate models.
    As a leader in climate science and environmental data, I envision 
that NOAA will continue to support its agency partners that monitor 
global deforestation through the provision of its environmental 
satellite data. I expect NOAA will also continue to drive research that 
leads to improved global climate models and subsequent climate 
projections through the incorporation of climate variables, including 
robust data about land use and deforestation.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                      to Dr. Frances M.D. Gulland
    Question 1. You've worked as a veterinarian, researcher, and a 
science advisor. One of the greatest challenges to effective 
conservation is translating good science into sound policy. What are 
some of the ways you will apply your varied work experiences in order 
to turn the best available science into well-informed policies?
    Answer. Translating the best available science into well-informed 
policies requires at least three closely related elements. First, 
science must appropriately target the issues before the policymaker. 
For years scientists have drawn a distinction between ``basic'' and 
``applied'' science. Basic science is an unfettered search for 
information and knowledge for its own sake, whereas applied science is 
directed at understanding important problems. Given our limited 
scientific resources and our growing need for specific types of 
information to address complex issues, I believe we must focus much of 
our effort on applied science.
    Second, we need coordination and collaboration among scientists, 
managers, policymakers, and all interested parties to ensure that 
scientific efforts target the most pressing issues. Managers and 
policymakers face many difficult challenges and it is crucial that 
scientists understand what policies need to be formulated and what 
decisions need to be made so that they can undertake research that 
results in the best possible scientific information for those purposes.
    Third, we need effective communication of the scientific 
information and policy determinations in multiple formats. The Marine 
Mammal Commission has long sought to communicate its recommendations 
using letters, annual and special reports, and scientific papers. It 
also has sought to facilitate communication by sponsoring workshops and 
other meetings that bring together all parties involved in an issue and 
facilitate discussions aimed at finding common solutions.
    In my capacities as a veterinarian, researcher, science advisor, 
author, and workshop participant, I have been involved in all three of 
these facets. As such, I believe that I am well-positioned to help 
identify the pressing issues requiring further research, see that that 
research is well-designed to provide the best possible information to 
policymakers given available resources, and apply that information to 
resolve the underlying conservation issues. From my work on recovery 
teams for endangered and threatened species and as a member of working 
groups established to investigate and respond to marine mammal unusual 
mortality events, I also appreciate that we cannot always wait until we 
have unequivocal information before we make decisions and take action 
to implement those decisions. However, in such cases, we may need to 
adopt adaptive management strategies, in which we continue to collect 
information and monitor the situation and make changes to management 
measures as warranted. Finally, given the complexity of the issues we 
face, I appreciate the need to have a pool of knowledgeable individuals 
to consult in identifying pressing and emerging conservation issues, 
setting research priorities, and analyzing and applying the available 
information to formulate sound policies. If I am confirmed, I will work 
with the other Commissioners to ensure that the Marine Mammal 
Commission has a Committee of Scientific Advisors with a wide range of 
knowledge and experience to address the most pressing issues facing 
policymakers and affecting marine mammals.

    Question 2. The Final Recommendations from the Interagency Ocean 
Policy Task Force stressed the need for ecosystem-based management. Do 
you see areas where we can better integrate ecosystem-based management 
into marine mammal conservation?
    Answer. Yes, I see a number of areas where we can better integrate 
ecosystem-based management and marine mammal conservation. First, with 
regard to fisheries, we need to examine the ecological effects of 
fishing on marine mammals specifically and marine ecosystems generally. 
At my confirmation hearing, Senator Rockefeller, you referred to a 
report detailing declines of large marine predators by as much as 70 
percent. In fact, such reductions are common and occur by design as a 
result of directed fishing policy. Whether they are consistent with 
maintaining healthy, stable ecosystems remains to be seen, but clearly 
more research is needed to investigate the ecological effects of such 
large-scale reductions in fish biomass.
    More work also is needed to address the introduction of 
contaminants, fertilizers, and pathogens into the marine environment 
resulting from land-based activities including agriculture, industry, 
and coastal development. Taking an ecosystem-based approach to 
management of our marine environment will require that we not only 
focus on activities that occur in the oceans or along their shores, but 
also on those activities that serve as the source for contaminants, 
fertilizers, and pathogens, whether they come from coastal areas or as 
run-off or effluent from deep in our nation's heartland.
    We also must tackle the disruptive effects of climate change. 
Marine mammals in polar regions (i.e., both the Arctic and Antarctic) 
are perhaps the most threatened because they are likely to lose the sea 
ice habitat on which they depend. However, other species also may 
experience serious consequences. Hawaiian monk seals, for example, 
stand to lose important resting and birthing areas if sea level rise 
washes away the small sandy islets of the Northwestern Hawaiian Islands 
or if food-webs are disrupted by loss of reef areas through increasing 
acidification.
    Marine debris continues to be an important threat to marine life, 
including marine mammals. To date, the evidence suggests that debris 
removed from the oceans is quickly replaced. That is, we are not making 
sufficient progress at preventing the introduction of new debris and 
that debris continues to degrade marine ecosystems.
    These and other areas indicate that our conservation efforts must 
be improved and expanded if we are to maintain the health and stability 
of our marine ecosystems, including marine mammals.

    Question 3. Given declining federal funds for scientific research, 
monitoring, and modeling, in what ways could the Commission partner 
with federal agencies to ensure the best possible science is used in 
the protection and conservation of marine mammals?
    Answer. The Commission already is working with other agencies to 
understand agency funding constraints and help prioritize marine 
science that will generate the best possible information for 
conservation purposes. The Commission has established a web-based 
survey of federal agencies to collect information on all the federal 
resources used for marine mammal research. The intent of the survey is 
to provide a basis for identifying research gaps, set clear research 
priorities, and promote interagency cooperation. The Commission 
periodically holds working meetings with staff from other agencies. 
These vary from hour-long discussions to multi-day workshops focused on 
particularly difficult challenges. The Commission also uses its limited 
research funding as ``seed money'' to encourage other agencies and the 
private-sector to direct resources toward important research topics. 
The Commission often engages scientists and stakeholders from outside 
the government to ensure that it and other agencies are getting the 
broadest possible perspective on the challenges facing marine 
conservation. The Commission also strives to provide and promote 
unbiased peer review of marine science. Finally, the Commission writes 
frequently to decision-makers in other agencies to focus their 
attention on research issues that the Commission believes should be 
given high priority. As with so many things the Commission does, 
frequent and effective communication with the other agencies and the 
scientific community is critical for promoting better science and 
conservation.

    Question 4. Marine mammals can be affected by a number of human 
activities. What role can the Commission play in resolving the inherent 
tension between important human uses of the oceans--such as energy 
development, fishing, transportation, and military operations--and 
protecting vulnerable marine mammal populations?
    Answer. The Commission can play a number of roles in resolving this 
tension. First, the Commission often serves as an important source of 
information and expertise on marine mammals so that agencies seeking to 
minimize their impact and Congressional staff seeking to understand 
complex marine problems can use the Commission as a resource in 
designing effective mitigation strategies. For example, the Commission 
has on its Committee of Scientific Advisors one of the world's leading 
polar bear scientists who has represented the Commission on several 
interagency working groups convened to guide polar bear research. The 
Commission commonly works with marine mammal experts from around the 
world and, when appropriate, the Commission engages those experts to 
ensure that managers and policymakers have access to the best possible 
information.
    Second, the Commission has long sought to bring together the 
multiple parties engaged in an issue to ensure the best possible 
communication. Such meetings often involve representatives from the 
other agencies, industry, conservation organizations, Alaska Native 
communities, and the interested public.
    Third, the Commission sponsors research to investigate the 
underlying problems that may lead to tension, whether those problems 
pertain to fishery interactions, introduction of sound into the marine 
environment, development of oil and gas operations, coastal 
development, or military operations.
    Fourth, the Commission promotes the development of better 
monitoring and mitigation measures to ensure that the effects of 
various activities on marine mammals are well understood and that 
marine mammals are suitably protected, but that protective measures do 
not place undue burdens on or disrupt the other activities.
    Finally, as an independent oversight agency, the Commission helps 
maintain a focus on the most important marine mammal conservation 
issues and realistic strategies for addressing them. Many issues cannot 
be resolved quickly and, to ensure that they are not forgotten or that 
efforts to address them are not unnecessarily prolonged, the Commission 
must carry out its oversight responsibilities vigilantly and needs to 
play a role in promoting the development and implementation of suitable 
long-term research programs.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                        Dr. Frances M.D. Gulland
    Question 1. The Marine Mammal Commission has a mandate to devote 
special attention to particular species and populations that are 
vulnerable to threats and impacts from human-related activities. In the 
past decade there has been a rapid increase in public and regulatory 
interest in the effects of noise from military, shipping and 
hydrocarbon activities on marine life and in the available tools and 
technologies to measure/reduce potential impacts of sound-producing 
industrial activities. Should the MMC address noise disturbance brought 
on by seismic surveys potentially impacts cetaceans and other marine 
fauna? What actions would you propose the MMC take to address noise 
disturbance?
    Answer. Yes, the Commission should address these issues as they 
pose a number of threats to marine mammals. In this regard, the 
Commission has and should continue to: (1) promote research aimed at 
better understanding of sound effects on marine mammal individuals and 
populations (e.g., masking of the sounds that marine mammals produce 
and rely on for communicating and sensing their environments), (2) 
promote better monitoring and mitigation measures (e.g., visual 
observations, passive acoustics) that ensure that effects on marine 
mammal populations are accurately assessed and can be shown to be no 
more than negligible, and (3) help promote alternative courses of 
action that accomplish the sought-after objective (e.g., geophysical 
profiling) while ensuring impacts on marine mammals are negligible, for 
example, by rescheduling seismic surveys to periods when marine mammals 
are not present. I also believe it is important to establish long-term 
monitoring of ocean sound to determine if and where noise levels are 
increasing and how those increasing levels pose risks to marine 
mammals.
    The Commission has focused its attention on sound-related impacts 
on marine mammals for some time. For instance, the Commission reported 
to Congress in 2007 on research and management needs related to ocean 
noise and marine mammals (Marine Mammals and Noise--A Sound Approach to 
Research and Management) and sponsored the preparation of a primer on 
underwater sound and marine mammals (Underwater Sound and the Marine 
Mammal Acoustic Environment: A guide to Fundamental Principles). In 
addition, the Commission has been working with the National Science 
Foundation, which funds geophysical research that employs seismic 
surveys, to promote the collection of empirical data to assess the 
impacts of those surveys on marine mammals and the effectiveness of 
mitigation measures currently in use. If confirmed, I would work to 
continue these efforts.

    Question 2. How would you ensure that the MMC is being directed by 
the best scientific expertise to promote the Commission's agenda?
    Answer. If confirmed, I would work with the Commission Chair to 
ensure that the Commission is supported by a scientifically strong and 
diverse Committee of Scientific Advisors with knowledge of and 
experience with a wide range of marine mammal species and issues 
potentially affecting marine mammals. I also would strongly encourage 
regular collaboration and cooperation between the Marine Mammal 
Commission and the scientific staff of the regulatory agencies 
responsible for marine mammal programs (i.e., the National Marine 
Fisheries Service, Fish and Wildlife Service, and U.S. Geological 
Survey). I also would ensure that the Commission engages regularly with 
scientific experts from the Society for Marine Mammalogy and other 
relevant professional societies. In addition, I would promote 
collaboration of Commission staff and Committee scientists with 
scientists from other disciplines (e.g., oceanography, climatology, 
fisheries biology, acoustics, conservation biology, biochemistry, 
veterinary medicine, etc.) to ensure that the Commission is mindful of 
and promoting multidisciplinary approaches to conservation problems. 
Finally, I would work to bridge the narrowing gap between western 
science and the traditional ecological knowledge of Alaska Natives. The 
Commission already is doing such things and I would ensure that the 
Commission continues to promote and practice the best possible science.

    Question 3. What would you do to engage the scientific and NGO 
community domestically and internationally to further leverage 
scientific expertise, technical capacities, and MMC initiatives?
    Answer. As noted above, if confirmed I would engage scientific 
expertise from around the nation and world as needed to address issues 
or problems. To that end, I would seek to have the Commission engage 
scientists from federal and state agencies, the NGO community, academic 
and private research organizations, Native organizations, and other 
nations to ensure that decisionmakers have the benefit of the best 
available science. The Commission already is working on a global 
assessment of marine mammals to address international issues affecting 
marine mammals. I would use the results of that assessment to set 
priorities and identify the key types of expertise and the key 
scientists to engage in conservation issues. I would encourage use of 
the Commission's limited research budget to promote exchange between 
the world's most established and effective scientists with scientists 
struggling with conservation issues in developing countries or regions 
where scientific resources are limited. The NGO community has long 
played an important role in promoting better science in undeveloped 
regions, as have other interested stakeholder communities. I would have 
the Commission work with all interested communities and with the State 
Department to further the conservation of marine mammals outside the 
United States.

    Question 4. Long-term health monitoring of key marine species is 
necessary to address massive die-offs of species such as the Southern 
Right whales and sea turtles (green, loggerheads and leatherbacks). How 
would you collaborate with NOAA's National Marine Fisheries Service 
(NMFS) and the scientific/NGO community to avert a crisis?
    Answer. If confirmed, I would seek to improve long-term health 
monitoring of marine species by working closely with the National 
Marine Fisheries Service and Fish and Wildlife Service to support and 
develop existing stranding networks. These networks are vital for 
detecting health-related issues and collecting the samples and data 
needed to investigate them. In this regard, I would encourage (and 
assist to the extent possible) the Services in developing a five-year 
strategy for improving the existing marine mammal health and stranding 
program. I also would seek to facilitate communication and 
collaboration among stranding networks from the different regions of 
the country. In addition, I would seek to integrate the information 
being collected by stranding networks with the marine mammal stock 
assessments required under the Marine Mammal Protection Act. I would 
work with the NGO and scientific community to improve stranding 
networks. Support is necessary to ensure that personnel in the 
stranding networks are adequately trained and have the resources needed 
to respond to strandings effectively. I also would encourage 
collaboration with academia, state public health and livestock 
diagnostic laboratories, and federal agencies (not just the Services). 
Finally, and perhaps most importantly, I would encourage research into 
the risk factors that pose threats to marine mammals specifically and 
marine ecosystems generally. Until we address those risk factors, our 
approach will be reactive. To avert crises, it will be essential to 
take a preventative approach.

                                  <all>

</pre></body></html>
